<html>
<title> - PUSHING THE EFFICIENCY ENVELOPE: R&D FOR HIGH-PERFORMANCE BUILDINGS, INDUSTRIES, AND CONSUMERS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                    PUSHING THE EFFICIENCY ENVELOPE:
                  R&D FOR HIGH-PERFORMANCE BUILDINGS,
                       INDUSTRIES, AND CONSUMERS

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2009

                               __________

                           Serial No. 111-21

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
48-736PS                  WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                 HON. BRIAN BAIRD, Washington, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
DONNA F. EDWARDS, Maryland           RANDY NEUGEBAUER, Texas
BEN R. LUJAN, New Mexico             MARIO DIAZ-BALART, Florida
PAUL D. TONKO, New York                  
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
            JETTA WONG Democratic Professional Staff Member
         ELIZABETH CHAPEL Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                    STACEY STEEP Research Assistant













                            C O N T E N T S

                             April 28, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     6
    Written Statement............................................     7

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     7
    Written Statement............................................     8

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     8

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Energy and Environment, Committee on 
  Science and Technology, U.S. House of Representatives..........     9

                               Witnesses:

Mr. Steven Chalk, Principal Deputy Assistant Secretary, Office of 
  Energy Efficiency and Renewable Energy, U.S. Department of 
  Energy
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    20

Mr. William J. Coad, President, Coad Engineering Enterprises, and 
  Chairman, High-Performance Building Council, National Institute 
  of Building Sciences
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    23

Mr. Paul N. Cicio, President, Industrial Energy Consumers of 
  America
    Oral Statement...............................................    26
    Written Statement............................................    27
    Biography....................................................    28

Dr. Karen Ehrhardt-Martinez, Research Associate, American Council 
  for an Energy-Efficient Economy (ACEEE)
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    63

Dr. J. Michael McQuade, Senior Vice President, Science and 
  Technology, United Technologies Corporation
    Oral Statement...............................................    63
    Written Statement............................................    65
    Biography....................................................    73

Discussion
  An Integrated Approach to Energy Efficiency....................    73
  Executing Best Practices in the Public.........................    76
  Consumer Education and Behavior................................    78
  Retrofitting...................................................    81
  Green Building Standards.......................................    82
  Efficiency in the Federal Government...........................    83
  Implementing Demonstration Projects............................    84
  Green Infrastructure Funding...................................    85
  High-Performance Building Standards............................    87
  Life Cycle Energy Pricing......................................    88
  Means of Informing Consumers...................................    90
  Encouraging Efficiency at the Various Levels of Government.....    91
  Closing........................................................    94

              Appendix: Answers to Post-Hearing Questions

Mr. Steven Chalk, Principal Deputy Assistant Secretary, Office of 
  Energy Efficiency and Renewable Energy, U.S. Department of 
  Energy.........................................................    96

Dr. Karen Ehrhardt-Martinez, Research Associate, American Council 
  for an Energy-Efficient Economy (ACEEE)........................   100

Dr. J. Michael McQuade, Senior Vice President, Science and 
  Technology, United Technologies Corporation....................   101

 
 PUSHING THE EFFICIENCY ENVELOPE: R&D FOR HIGH-PERFORMANCE BUILDINGS, 
                       INDUSTRIES, AND CONSUMERS

                              ----------                              


                        TUESDAY, APRIL 28, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                    Pushing the Efficiency Envelope:

                  R&D for High-Performance Buildings,

                       Industries, and Consumers

                        tuesday, april 28, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

PURPOSE

    On Tuesday, April 28 the Subcommittee on Energy and Environment 
will hold a hearing to receive testimony on the role of the Department 
of Energy's research and development programs in developing 
technologies, codes, and standards to enable deployment of net-zero 
energy, high-performance buildings and support energy efficiency in 
domestic industries.

WITNESSES

        <bullet>  Mr. Steven Chalk--Principal Deputy Assistant 
        Secretary, Energy Efficiency and Renewable Energy, U.S. 
        Department of Energy

        <bullet>  Mr. William J. Coad--President, Coad Engineering 
        Enterprises; Chairman of the High-Performance Building Council 
        of the National Institute of Building Sciences

        <bullet>  Mr. Paul Cicio--President, Industrial Energy 
        Consumers of America

        <bullet>  Dr. Karen Ehrhardt-Martinez--Research Staff, Economic 
        and Social Analysis Program, American Council for an Energy-
        Efficient Economy (ACEEE)

        <bullet>  Dr. J. Michael McQuade--Senior Vice President, 
        Science and Technology, United Technologies Corporation

BACKGROUND

    Addressing public concerns about the high costs of energy, the 
looming threat of global climate change and the Nation's economic 
health requires continual assessment of federal programs designed to 
mitigate the impacts of various economic sectors, including heavy 
industry and the built environment. The construction, operation, and 
demolition of buildings are recognized as major contributing factors to 
the increase in energy consumption, emission of greenhouse gases, 
depletion of valuable natural resources, and degradation of ecological 
services such as water supply. The domestic industrial sector, while 
making considerable gains in energy and resource efficiency in recent 
years, still comprises a significant portion of the country's 
emissions, and is more vulnerable than ever to rising costs of energy 
and raw materials. To reduce both emissions and waste, and improve the 
Nation's overall energy efficiency new advancements in industrial and 
building technologies must be pursued by both the public and private 
sector.
    Buildings consume more energy than any other sector of the U.S. 
economy (40 percent), including transportation (28 percent) and 
industry (32 percent). From 1980 to 2006, total building energy 
consumption in the United States increased more than 46 percent, and is 
expected to continue to grow at a rate of more than one percent per 
year over the next two decades. In addition, almost three-quarters of 
our nation's 81 million buildings were built before 1979. Because 
buildings are long-lived assets, significant improvement of their 
energy efficiency will require either retrofits or total replacement. 
Deployment of high-performance buildings can reduce the environmental 
impact of buildings while making them cheaper to operate.
    Industry accounts for approximately one-third of all energy 
consumed in the U.S. with much of that usage concentrated in heavy 
industries such as chemical, glass, cement, and metals production, 
mining, petroleum refining, food processing, and forest and paper 
products. These industries also have relatively high carbon dioxide 
(CO<INF>2</INF>) emissions. Despite their relatively high energy and 
emissions intensity, many industrial firms face competitive pressures 
that make it difficult to justify the technical and financial risks of 
R&D projects. Therefore, federal programs are essential to promote 
development and deployment of technologies and process improvements 
that increase energy efficiency, raise productivity, reduce and reuse 
wastes, and trim costs.

Building and Industrial Efficiency Technology Programs at DOE

    The importance of energy efficiency and sustainability in the 
building and industrial sector has been recognized in various federal 
laws, executive orders, and other policy instruments in recent years. 
Among these are the energy policy acts (EPAct) of 1992 and 2005 (P.L. 
102-486 and P.L. 109-58), the Energy Independence and Security Act of 
2007 (EISA, P.L. 110-140), and the American Recovery and Reinvestment 
Act of 2009. Through these laws the Department of Energy (DOE) is 
authorized to carry out a range of activities to increase energy 
efficiency in a number of economic sectors.
    Within the DOE Building Technologies Program both the High-
Performance Buildings partnerships and Zero-Net Energy Commercial 
Building Initiative, work to improve the efficiency of buildings and 
the equipment, components, and systems used to control temperature, 
provide lighting, and plumbing.
    A high-performance building as defined by EISA is a building that 
integrates and optimizes, on a life cycle basis, all major high-
performance attributes, including energy conservation, environment, 
safety, security, durability, accessibility, cost-benefit, 
productivity, sustainability, functionality and operational 
considerations. As part of this approach, DOE selected building 
industry groups to form a High-Performance Green Building Consortium 
that works to accelerate the commercialization of high-performance 
building technologies. DOE and the National Renewable Energy Laboratory 
(NREL) also created the High-Performance Buildings Database, which 
seeks to improve building performance measuring methods by collecting 
data on various factors that affect a building's performance, such as 
energy, materials, and land use. It is a unique central repository of 
detailed information and data on high-performance, green building 
projects across the United States and abroad.
    The Net-Zero Energy Commercial Building Initiative aims to realize 
marketable net-zero energy commercial buildings by 2025. In general, a 
net-zero energy building produces as much energy as it uses over the 
course of a year. The program brings architects, engineers, builders, 
contractors, owners, and occupants together to optimize building 
performance, comfort, and savings through a whole-building approach to 
design and construction. The program is divided into three interrelated 
strategic areas designed to overcome technical and market barriers: 
research and development, equipment standards and analysis, and 
technology validation and market introduction. Key research areas 
include: commercial lighting solutions; indoor environmental quality; 
building controls and diagnostics; and space conditioning.
    The Department also participates in a variety of activities to aid 
in standards and codes development for new building technologies, 
appliances, and compliance and design tools. For example the Building 
Technologies Program's Building Energy Codes initiative works with the 
National Institute of Standards and Technology, State and local 
governments, national codes organizations, and industries to help 
develop improved national model energy codes. Unlike conventional 
building codes which dictate only minimum requirements for 
construction, ``model'' building codes are designed to push the 
technological envelope of what can be achieved in building design, 
construction and operation. Ultimately, there may need to be a 
comprehensive and unified framework of standards which accounts for the 
full range of metrics and benchmarks to maximize building performance. 
DOE also updates and improves appliances and equipment standards by 
testing products and technologies, and ultimately conducting rule-
making through a public process.
    The DOE Industrial Technologies Program (ITP) seeks to reduce 
manufacturing energy intensity and carbon emissions through coordinated 
research and development with industry, deployment of innovative energy 
efficient technologies, by providing energy assessments of industrial 
facilities, and through dissemination of industry best practices. The 
ITP invests in high-risk, high-value cost-shared R&D projects to reduce 
industrial energy use and process waste streams, while stimulating 
productivity and growth. Projects may be specific to a certain industry 
(ex: aluminum smelting), or applicable across a range of industrial 
applications (ex: fuel and feedstock flexibility). In addition, the ITP 
serves as an informational resource by making available information on 
other financial assistance and research opportunities, background on 
both existing and emerging technologies, as well as results of case 
studies from past ITP projects. The ITP also sponsors 26 University-
Based Industrial Assessment Centers (IACs) that provide no-cost energy 
assessments primarily to small- and medium-sized manufacturers. By 
operating through university engineering programs the IACs serve as a 
training ground for the next-generation of energy and industrial 
engineers.

Pushing the Energy Efficiency Envelope

    While these programs continue to demonstrate success in developing 
technologies and practices for high-performance buildings and 
sustainable industries, advancing the state of technology far beyond 
what is currently available will require the programs to incorporate 
entirely new technologies and approaches into their R&D agendas.
    For instance, buildings of the future will be designed to operate 
as a singular system of inter-operable components--a concept that is 
not possible today. A typical building is comprised of a complex array 
of components (wood, metals, glass, concrete, coatings, flooring, sheet 
rock, insulation, etc.) and subsystems (lighting, heating, ventilation 
and air conditioning, appliances, landscape maintenance, IT equipment, 
electrical grid connection, etc.) all of which are developed 
individually by independent firms that do not often design and test 
their performance in conjunction with other components and systems. 
Even after building completion, systems are rarely optimized together 
to improve overall energy efficiency and environmental performance. The 
inefficiencies attributable to this fragmentation of the building 
components and systems, and the lack of monitoring and verification of 
a building performance, point to a critical need for a more integrated 
approach to building design, operation, and technology development. An 
approach that couples buildings sciences, architecture, and information 
technologies could lead to entirely new ``self-tuning'' buildings with 
subsystems that are able to continuously communicate with each other 
and respond to a range of factors. Wide-scale deployment of these types 
of net-zero energy high-performance buildings will likely require 
federal programs to play a larger coordinating role in the development 
of the common technologies, codes, and standards.
    Pushing the efficiency envelope will also require engaging the 
social sciences in providing a much greater understanding of how people 
and organizations make energy-related decisions. Individual and 
collective behavior plays a critical role in efficiency, not only 
through direct demand for energy, but also by creating or failing to 
create market demand for more energy efficient technologies. Consumers 
make these decisions every day when weighing options such as what 
vehicle or appliance to purchase, whether to drive or take public 
transportation, what light bulbs to install, or whether to shut down 
their computers at night. In aggregate these decisions have an impact 
on the supply and demand curves that drive both energy prices and, 
ultimately, energy technology development.
    In 2005, the National Academy of Sciences (NAS) produced a report 
on ``Decision Making for the Environment: Social and Behavioral Science 
Research Priorities.'' In the chapter on Environmentally Significant 
Individual Behavior, the NAS panel states: ``A basic understanding of 
how information, incentives, and various kinds of constraints and 
opportunities, in combination with individuals' values, beliefs, and 
social contexts, shape consumer choice in complex real-world contexts 
would provide an essential knowledge base for understanding, 
anticipating, and developing policies for affecting environmentally 
significant consumer behavior.'' \1\ Integrating social science 
research into the larger energy R&D field will provide greater insight 
into the best ways to convey information to consumers and help them 
make decisions regarding energy efficiency and conservation. For 
instance, understanding consumer behavior will help in development of a 
whole building approach to design and operation of building systems, 
where components are integrated to reduce energy consumption through 
displaying information to occupants.
---------------------------------------------------------------------------
    \1\ National Research Council. 2005. Decision Making for the 
Environment: Social and Behavioral Science Research Priorities. 
Washington, DC. P. 78.
---------------------------------------------------------------------------
    Chairman Baird. This hearing will now come to order.
    I want to welcome Members of the Subcommittee and our 
distinguished panelists to today's hearing on advancing the 
state of science and technology for energy efficiency in 
buildings and industrial sectors.
    Energy efficiency and conservation will have the greatest 
near-term impact of any approach to our energy security and 
global overheating problems. I don't refer to it as warming or 
climate change. It is lethal overheating and ocean 
acidification, and if we start calling it by what it is, we 
will be more effective at combating it, I believe. Today's 
buildings consume 40 percent of our country's energy, more than 
any other sector of the U.S. economy. Together the building and 
industrial sectors are responsible for almost three-quarters of 
U.S. energy consumption. Given that, it makes sense that we 
would start there to try to reduce that consumption, and our 
most rapid way of stimulating the economy, reducing spending, 
reducing ocean acidification and global warming gases is 
through conservation, in my judgment.
    As many of you know, this committee oversees a broad range 
of activities designed to push the energy technology envelope, 
including R&D programs through the Department of Energy, 
programs that support the development of codes and standards 
that are vital to ensuring the performance and inter-
operability of energy technologies.
    The DOE Building Technologies Program, and within this, the 
activities of the High-Performance Buildings and Net-Zero 
Energy Commercial Buildings initiative, support advanced 
technology development for buildings and their associated 
equipment, material and systems. The Industrial Technologies 
Program works to reduce energy intensity and carbon emissions 
of industry through cost-shared R&D, energy auditing and 
dissemination of best practices.
    While these programs have proven successful over the years, 
we still have a very long way to go in maximizing the Nation's 
efficiency. Pushing the efficiency envelope will require us to 
combine the expertise of multiple disciplines or look in 
entirely new directions for scientific and technological 
insight.
    For example, coupling building sciences, architecture and 
information technologies can lead to entirely new self-tuning 
buildings with subsystems that continuously communicate with 
each other and respond to a range of environmental factors. We 
should also enlist the expertise found in the social sciences 
to provide greater understanding of how people and 
organizations make energy-related decisions. Insight into how 
consumers receive and react to information will be critical for 
progress in areas such as the development of a whole-building 
approach to design and operation of building systems.
    The Committee has a long and distinguished history in this 
area. As the Congress moves forward with climate and energy 
legislation, we will continue our efforts to assess the Federal 
Government's role in building and industrial R&D and standards 
development and to lay the groundwork for new activities if 
needed.
    With that, I look forward to working with you all and 
exploring ways in which federal programs can be improved to 
support cleaner, more efficient and sustainable buildings and 
industry in the United States.
    I now recognize my distinguished colleague and friend from 
South Carolina, our Ranking Member, Mr. Inglis, for his opening 
statement.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    I want to welcome Members of the Subcommittee and our distinguished 
panelists to today's hearing on advancing the state of science and 
technology for energy efficiency in the buildings and industrial 
sectors.
    Energy efficiency and conservation will have the greatest near-term 
impact of any approach to our energy security and global over heating 
problems. Today's buildings consume 40 percent of our country's 
energy--more than any other sector of the U.S. economy. And together, 
the building and industrial sectors are responsible for almost three 
quarters of U.S. energy consumption.
    As many of you know this committee oversees a broad range of 
activities designed to push the energy technology envelope, including 
R&D programs of the Department of Energy, and programs to support the 
development of codes and standards that are vital to ensuring the 
performance and inter-operability of energy technologies.
    The DOE Building Technologies Program and, within this, the 
activities of the High-Performance Buildings and Net-Zero Energy 
Commercial Buildings initiatives, support advanced technology 
development for buildings, and their associated equipment, materials, 
and systems.
    The Industrial Technologies Program (ITP) works to reduce energy 
intensity and carbon emissions of industry through cost-shared R&D, 
energy auditing, and dissemination of best practices.
    While these programs have proven successful over the years, we 
still have a very long way to go in maximizing the Nation's efficiency. 
Pushing the efficiency envelope will require us to combine the 
expertise of multiple disciplines, or look in entirely new directions 
for scientific and technological insight.
    For instance, coupling buildings sciences, architecture, and 
information technologies together can lead to entirely new ``self-
tuning'' buildings with subsystems that continuously communicate with 
each other and respond to a range of environmental factors.
    We should also enlist the expertise found in the social sciences to 
provide greater understanding of how people and organizations make 
energy-related decisions. Insight into how consumers receive and react 
to information will be critical for progress in areas such as the 
development of a whole-building approach to design and operation of 
building systems.
    This committee has a long and distinguished history in this area. 
As the Congress moves forward with climate and energy legislation we 
will continue our efforts to assess the Federal Government's role in 
building and industrial R&D and standards development, and lay the 
groundwork for new activities if needed.
    With that, I look forward to working with you all in exploring ways 
in which federal programs can be improved to support cleaner, more 
efficient, and sustainable buildings and industries in the U.S.
    I now yield to my distinguished colleague from South Carolina, our 
Ranking Member, Mr. Inglis, for his opening statement.

    Mr. Inglis. Thank you, Mr. Chairman, and thank you for 
holding this hearing. When it comes to words, I am convinced 
that less is more and people who write well can express 
themselves in a few words. If you give me 30 minutes to speak, 
I don't need to do any preparation, but limit me to two minutes 
and I have got to really prepare.
    You know, when we are blessed with much, we can get by with 
a lot of inefficiencies. Electricity is cheap so we leave the 
lights on. Material is cheap so we build big when we might 
actually get more utility out of small. Gas is cheap so we 
bought guzzlers instead of sippers. And so the challenge for us 
is to figure out how to get more utility out of buildings and 
get building codes that actually will improve efficiencies and 
deliver for us more by having less, less use and less waste.
    My wife and I have five kids and I designed the house with 
the help of an architect, the house that we live in, and quite 
often I am thinking if I could just have made it smaller 
because you know your possessions come to possess you and so 
all those porches that need to be washed at least twice a year, 
man, that was a bad idea. All that space that needs to be 
heated, gee, couldn't we have thought of a better way to get 
that job done. So I am excited about hearing about some of the 
technology that may drive better building codes and better 
opportunities for us to get more out of less, and thank you, 
Mr. Chairman, for holding the hearing.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Thank you for holding this hearing, Mr. Chairman.
    When it comes to words, I'm convinced that less is more. People who 
write well can express themselves with few words. Give me thirty 
minutes to speak and I'll need no preparation. Limit me to two minutes 
and I'll have to plan carefully what to say.
    When we're blessed with much, we can get by with a lot of 
inefficiencies. Electricity is cheap, so we leave the lights on. 
Material is cheap, so we build big, when we might get more utility out 
of small. Gas is cheap, so we've bought guzzlers instead of sippers.
    But climate science, oil price hikes, and economic hardships remind 
us that we need more efficient practices. Today, we're here to 
specifically talk about how to encourage energy efficiencies in one of 
our most energy intensive sectors--buildings. While I support the 
government taking proactive measures to improve building codes and 
promote R&D programs that result in the deployment of net-zero energy, 
high-performance buildings, I think the answer lies in economics.
    Attaching a price to carbon would be a built-in incentive for 
construction of more efficient spaces. Industries, seeking to save on 
costs and appeal to conscious consumers, will revamp wasteful 
practices. Tenants will seek space that promises a reduction in energy 
costs due to efficient lighting, heating and cooling appliances, and 
utilities. We'll also witness improvements outside the walls of these 
buildings. Demand will rise for efficient products, and jobs will be 
created in meeting that demand. Reduced fuel consumption will translate 
to increased national security, and efficient energy production will 
mean cleaner air.
    This is the potential of a revenue-neutral carbon tax. Yes, there's 
a place to talk about developing positive codes and standards, but the 
real incentive lies in the market, not in regulation. Thank you again, 
Mr. Chairman, and I look forward to hearing from our witnesses today.

    Chairman Baird. I thank Mr. Inglis. If other Members wish 
to submit additional opening statements, your statements will 
be added to the record at this point.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
on the role of the Department of Energy in research and development 
(R&D) for high-performance buildings, industries, and consumers.
    As Congress considers changes to our energy policy, we must 
consider ways to cut back on our emissions and improve our energy 
efficiency. The two sectors we are discussing today--building and heavy 
industry--are the largest consumers of energy in the country and 
significantly contribute to our greenhouse gas emissions. Discovering 
and developing ways to improve the energy efficiency of these two 
sectors will make major strides towards reducing our emissions while 
creating thousands of new, high-paying jobs around the country. I am 
seeing the results of investment in energy efficiency in my district in 
Southern Illinois. Two counties and the City of Belleville received 
over $4.5 million in funding from the American Recovery and 
Reinvestment Act to invest in energy efficiency projects. This money is 
putting people back to work while improving the efficiency of our 
buildings.
    Investing in long-term, high cost R&D projects is not feasible for 
many of our heavy industries or building and contracting companies, 
particularly in this difficult economic climate. For this reason, I 
applaud the efforts of the Department of Energy to promote and 
accelerate new technology, methods, and tools to improve building and 
industrial energy efficiency. I am interested to hear more from Mr. 
Chalk about how Congress and this subcommittee in particular can 
continue to support DOE in these efforts.
    I would also like to hear from our witnesses how these R&D projects 
can become commercially viable and widely dispersed across our domestic 
manufacturers and builders. In particular, I want to know what steps 
DOE and Congress can take to ensure this research results in sector-
wide changes in building and heavy industry practices across the 
country.
    Making these changes marketable to the American consumer will also 
be an issue to consider moving forward. I would like to hear from our 
witnesses regarding the incentives or other programs they believe might 
be necessary to encourage contractors, builders, and consumers to 
choose high-performance buildings or products made by high-performance 
manufacturers.
    I welcome our panel of witnesses, and I look forward to their 
testimony.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good morning, Mr. Chairman.
    High-performance buildings are those that are designed with 
environmental conservation in mind.
    Solar paneled roofs; natural light; green roofs; sustainable 
construction materials: all are examples of architectural elements that 
do good, rather than harm, to the environment.
    In Dallas, the Trinity River Audubon Center is a shining example of 
such a structure. Its green features include a vegetated roof, 
rainwater collection system, energy efficient systems, and recycled 
materials.
    Audubon serves as the gateway to the 6,000 acre Great Trinity 
Forest.
    As the largest urban hardwood forest in the United States, the 
Greater Trinity Forest supports a diverse community of plant and animal 
species, and contains a unique mixture of bottomland hardwoods, 
wetlands and grasslands.
    Trinity River Audubon Center is the first building constructed by 
the City of Dallas Park and Recreation Department that is certified by 
Leadership in Energy and Environmental Design Green Building Rating 
SystemTM.
    The Center was actually built upon a part of land that is a 
remediated Brownfield site: the Deepwood Landfill.
    The Deepwood Landfill comprised 1.5 million tons of construction 
debris illegally dumped over a 15-year period.
    With the goal of returning this land to nature for the use of 
future generations and as a site of the Trinity River Audubon Center, 
the devised plan consolidated the waste into capped rolling hills 
replanted with tall prairie grass and hardwood trees once dominant on 
the Texas Blackland Prairie.
    The permeable paving around the area and preservation of the 
Trinity River marsh helps with stormwater control. The Center even 
harvests rainfall to be used as irrigation. It has installed low-flow 
toilets to conserve water.
    High-efficiency heating, ventilation, air conditioning and 
electrical systems help minimize the Center's carbon footprint.
    The building's use of regional construction materials minimizes 
harmful emissions generated from transporting materials from the place 
of extraction to the manufacturing plant to the consumer.
    The Trinity River Audubon Center is comprised of many local 
building materials, as well as cypress siding certified by the Forest 
Stewardship Council; recycled-content materials; rapidly renewable 
resources such as bamboo, wool, cotton, straw, wheat and cork; and low-
volatile-emitting materials.
    For the concrete, all the gravel and sand was extracted from local 
quarries.
    Fly ash, a by-product from coal plants that would normally go into 
a landfill, was used as a partial substitute for the cement content.
    Mr. Chairman, I am delighted to point out the Trinity River Audubon 
Center as a model of the architectural designs that this committee 
seeks to encourage.
    With some thought and effort, ``green'' buildings can be built and 
are a beautiful addition to our communities.
    I believe that it is appropriate for the Department of Energy to 
support research into green building technologies.
    Current programs continue to demonstrate success in developing 
technologies and practices for high-performance buildings and 
sustainable industries.
    I support advancing the state of technology beyond what is 
currently available by funding to incorporate entirely new technologies 
and approaches into their research agendas.
    Mr. Chairman, thank you for your focus on this important subject. I 
want to welcome today's panel of witnesses, and I yield back the 
balance of my time.

    Chairman Baird. At this point I would like to introduce our 
witnesses. I unfortunately need to express some disappointment 
and I am reluctant to do so but it is necessary. The Committee 
has a practice of asking that testimony be provided in advance 
of hearings so that we can study it and know what is happening. 
It is a reasonable request, especially given that we anticipate 
that our witnesses sort of by definition will have expertise in 
the field. When I am hiring staff, I sit them down with a 
challenge, an issue they have to deal with, and they have two 
hours to write a report to me, two hours. They are by and large 
brave young people and with the wizard of the Internet they are 
able to do some remarkable things. Hence, when we give several 
weeks' notice of testimony requests and it doesn't come and 
when it is coming from an agency of the Administration, we are 
particularly disappointed. That is the case today. The energy 
efficiency testimony we were asking for from the Department of 
Energy arrived about 20 minutes ago. It is disappointing that 
the Department of Energy either does not have its act together 
well enough to provide this in, I would imagine it should be 
virtually instantaneous manner, but certainly several weeks 
notice is more than adequate and it is either a sign of 
inefficiency or disrespect, neither of which are acceptable to 
this committee.
    With that, I introduce Mr. Steven Chalk, Principal Deputy 
Assistant Secretary for Energy Efficiency and Renewable Energy 
at the U.S. Department of Energy. Mr. Paul Cicio is the 
President of the Industrial Energy Consumers of America. By the 
way, I should underscore my following comments. All the other 
panelists, we want to thank you for getting your information to 
us in a timely, informative manner so the initial comments were 
directed unfortunately at the Department of Energy. The rest of 
the panelists were most informative and prompt in their 
response and we are grateful for that including Mr. Coad as 
well. I didn't mean to jump over you. Karen Ehrhardt-Martinez, 
did I say that right? Ehrhardt?
    Dr. Ehrhardt-Martinez. Ehrhardt-Martinez.
    Chairman Baird. I should have known Ehrhardt.
    Dr. Ehrhardt-Martinez. Just like Amelia.
    Chairman Baird. I figured that, the pioneering aviator. Dr. 
Karen Ehrhardt-Martinez is a Research Associate at the Economic 
and Social Analysis Program at the American Council for Energy-
Efficient Economy. Dr. Michael McQuade is Senior Vice President 
of Science and Technology at United Technologies Corporation. 
At this point I would like to recognize my friend, the 
gentleman from Missouri, Representative Russ Carnahan, to 
introduce our final witness.
    Mr. Carnahan. Thank you, Mr. Chairman. It is great to sit 
in on this subcommittee today. I have got the honor to present 
a native of St. Louis, Dr. William Coad. He is President of 
Coad Engineering Enterprises. He is a consulting principal and 
Past Chairman and CEO of the McClure Corporation. For 17 years 
he has been an Affiliate Professor at Washington University in 
St. Louis teaching graduate courses in mechanical engineering. 
He is also currently a member of the National Institute of 
Building Sciences. He has served as Chairman of the High-
Performance Buildings Task Force, which the initial report led 
to the formulation of the High-Performance Building Council 
under his leadership. I have been honored to chair the 
bipartisan High-Performance Buildings Caucus within the 
Congress and they have been very instrumental working with our 
caucus. So I appreciate especially him being here, his 
expertise nationally, but I am pleased with his roots from St. 
Louis.
    Chairman Baird. I thank Mr. Carnahan, and thank you for 
your leadership on the caucus. Obviously you have recognized 
this well early on and your input has been very, very valuable. 
I thank the gentleman. At this point we will hear from the 
witnesses. I have been corrected. Actually, Mr. Chalk, 
apparently we had your testimony at 8:30 last night, still 
inadequate and certainly not very helpful to me as I had 
already retired for the evening to read the other stacks of 
material I get. But we will start with Mr. Chalk and then 
proceed. Each witness will have five minutes and then we will 
proceed with questioning for the panel. We have also been 
joined by Dr. Ehlers, the gentleman from Michigan. Thank you, 
Dr. Ehlers.
    With that, Mr. Chalk, please enlighten us with your 
testimony and thank you again for being here.

   STATEMENT OF MR. STEVEN CHALK, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY, OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY, 
                   U.S. DEPARTMENT OF ENERGY

    Mr. Chalk. Thank you, Chairman Baird, and no good excuses 
for the late testimony. We will make sure that doesn't happen 
again.
    Chairman Baird, Ranking Member Inglis and other Members of 
the Subcommittee, thank you for the opportunity to discuss the 
Department of Energy's Building Technologies Program and the 
enormous potential for energy savings in the building sector. I 
commend you for holding this hearing. I look forward to working 
with you to continually innovate and invest in energy 
efficiency.
    Energy security and climate change, or global overheating, 
if you will, are two of the most important challenges of our 
time and require urgent attention. It is clear that there is no 
single solution to the problem. The challenge is so massive and 
urgent that it requires multiple simultaneous responses and 
solutions. In 2008, our nation's 114 million households and 
more than 74 billion square feet of commercial floor space 
accounted for nearly 40 percent of our primary energy 
consumption, 40 percent of our greenhouse gases, but it is also 
about 70 percent of our electricity consumption. For every gain 
in building energy efficiency, there is a corresponding 
reduction in power plant generation and greenhouse gases and 
there is a greater conservation of natural resources, 
particularly water, which is consumed in large quantities in 
power plants today.
    Today, with existing technologies and knowledge, we can 
cost-effectively increase U.S. residential building efficiency 
by 30 percent. In temperate parts of the country, it is 
possible to increase efficiency by 40 percent with little 
additional first costs, and really no additional costs at all 
when savings for utility bills are factored in. Reaching these 
efficiency levels, particularly through means such as 
stimulating technology adoption via building codes, is one 
marker on the path to reaching DOE's ultimate goal, which is 
the widespread construction of affordable net-zero-energy 
buildings or buildings that produce more energy than they 
consume over the course of a year. The Department's building 
technologies portfolio is aligned to develop the techniques and 
tools necessary to make affordable residential and commercial 
buildings net-zero energy by 2020 and 2025, respectively.
    I would like to use my time today to highlight some of the 
ongoing initiatives that help us reach those net-zero-energy 
goals. Our Commercial Buildings Initiative is the umbrella 
initiative that will guide and coordinate public and private 
partnerships to advance market adoption of net-zero-energy 
commercial buildings. In support of this initiative, we are 
focusing on building system integration, indoor environmental 
quality, control strategies, diagnostics and space 
conditioning.
    In the area of energy codes and standards, the Department 
is working very closely with the American Society of 
Refrigeration and Air Conditioning Engineers, or ASHRAE, on its 
standard commercial building code. In 2007, DOE challenged 
ASHRAE to upgrade the 2004 standard 90.1 by 30 percent, to make 
it 30 percent more stringent by 2010. ASHRAE responded 
positively and is on track to achieve that 30 percent greater 
efficiency.
    In addition, we work with the International Code Council on 
the residential standards and we have a similar effort with the 
ICC, or the International Code Council, to achieve 30 percent 
better efficiency than the 2006 residential code and we want to 
achieve that by 2012, and we are already halfway there. The 
2009 code that was just released is 15 percent better than the 
2006 version.
    The Department's Appliance and Commercial Equipment 
Standard Program develops test procedures and the minimum 
energy conservation standards for residential appliances and 
commercial equipment. These standards save consumers money and 
energy, spur innovation and reduce greenhouse gas emissions and 
save water resources. President Obama shows interest and 
expectations for this program. Just 17 days after he took 
office, he visited DOE, issued a memorandum requesting that the 
Department take all necessary steps to expeditiously finalize 
the appliance standards rule-making in process. The Department 
is committed to fulfilling the President's request.
    As I wrap up, I want to emphasize the American Recovery and 
Reinvestment Act places significant focus on buildings and 
building energy codes. The Act provides $3.2 billion for energy 
efficiency and conservation block grants and for such 
activities as endorsing building energy codes, conducting 
audits, establishing financial incentives and installing energy 
efficiency upgrades. The Department is gearing up now to 
provide technical assistance to States to implement these new 
codes and to enforce and evaluate compliance. The Department is 
committed to improving energy efficiency through innovative 
R&D, public outreach and collaborative partnerships. We look 
forward to working with Congress to continue to realize short-
term energy savings and cost savings as well as a long-term 
goal of achieving affordable net-zero-energy residential and 
commercial buildings.
    Thank you for the opportunity to appear before you this 
morning, and I will be happy to answer any questions. Thank 
you.
    [The prepared statement of Mr. Chalk follows:]
                   Prepared Statement of Steven Chalk
    Chairman Baird, Ranking Member Inglis, Members of the Subcommittee, 
thank you for the opportunity to appear before you today to discuss the 
U.S. Department of Energy's (DOE) Building Technologies Program 
activities and the enormous potential for energy savings in the 
buildings sector. I have included, as an appendix to this testimony, an 
update on the Department's progress in implementing sections of the 
Energy Policy Act of 2005 (EPACT 05) and the Energy Independence and 
Security Act of 2007 (EISA), as requested by the Subcommittee.\1\
---------------------------------------------------------------------------
    \1\ EPACT 05 was codified into law as Pub. L. No. 109-58; EISA as 
Pub. L. No. 110-140.
---------------------------------------------------------------------------
    In 2008, the Nation's 114 million households and more than 74 
billion square feet of commercial floor space accounted for nearly 40 
percent of U.S. primary energy consumption, as well as:

        <bullet>  73 percent of electricity and 34 percent of natural 
        gas consumption,

        <bullet>  Energy bills totaling $418 billion, and

        <bullet>  39 percent of Carbon Dioxide, 18 percent of Nitrogen 
        Oxide, and 55 percent of Sulfur Dioxide emissions.

    Additionally, construction and renovation accounted for nine 
percent of GDP, and eight million people were employed in the 
sector.\2\
---------------------------------------------------------------------------
    \2\ DOE, 2008 Building Energy Data Book.
---------------------------------------------------------------------------
    The Department is committed to improving energy efficiency in 
buildings from advances in building technologies and systems, to energy 
codes for new construction, to weatherization retrofits and promotion 
of efficient appliances. The Administration continues to renew and 
build upon these efforts. I would like to give a broad overview of the 
Building Technologies Program and highlight some of its ongoing 
activities.

DOE's Building Technologies Program

    The Building Technologies Program develops technologies, 
techniques, and tools, as well as minimum performance standards, for 
making residential and commercial buildings more energy efficient, 
productive, and affordable. The program's current goal is to create 
technologies and design approaches that enable net-zero energy 
buildings\3\ at low incremental cost by 2020 for residential buildings 
and 2025 for commercial buildings. The program expects that efficiency 
technologies and designs will have application to buildings constructed 
before 2025, resulting in incremental reductions in energy use 
throughout the sector.\4\
---------------------------------------------------------------------------
    \3\ A net-zero energy building is a residential or commercial 
building with greatly reduced needs for energy through efficiency gains 
(60 to 70 percent less than conventional practice), with the balance of 
energy needs supplied by renewable technologies.
    \4\ DOE, 2008 Building Technologies Multi-Year Program Plan, http:/
/www.eere.energy.gov/buildings/publications/pdfs/corporate/
myp08complete.pdf
---------------------------------------------------------------------------
    The research and development (R&D) activities of DOE's Building 
Technologies Program are fully aligned toward enabling the widespread 
construction of net-zero energy residential and commercial buildings by 
2020 and 2025, respectively. The Commercial Buildings Integration 
subprogram conducts systems integration R&D, works with national energy 
alliances on best practices, engages national accounts with research 
technical assistance to achieve deep energy retrofits and design of 
high-performance new building prototypes, and provides targeted mass 
procurement and technology solutions to the industry.
    The Residential Integration subprogram works through the Building 
America public-private partnership to develop high-performance 
residential sub-systems and whole house energy improvements, and 
testing them on a community scale. In addition, the Residential 
Integration subprogram is implementing the Builders Challenge to deploy 
the results of the R&D activity, and is implementing DOE's portion of 
the Home Performance with Energy Star program to spur deep retrofits in 
homes throughout the Nation.
    Equipment and component research is designed to fill identified 
gaps in technical performance and/or cost reduction needed to fully 
achieve the net zero energy cost and performance goals of the 
Commercial and Residential subprograms. Component and equipment 
research is conducted on Solid State Lighting; Heating, Ventilation, 
Air Conditioning, Refrigeration and Water Heating; Solar Heating and 
Cooling; Thermal Envelope and Windows; and Design Tools.
    The Appliances and Commercial Equipment Standards Program develops 
test procedures and energy conservation standards for residential 
appliances and commercial and industrial equipment. The Program 
develops regulations that manufacturers must adhere to in making energy 
efficiency claims as well as in manufacturing products for sale in the 
United States. These regulations apply to products manufactured in the 
United States as well as those imported into the United States.
    The Department's Building Technologies Program and its partners 
strive to integrate energy efficient technologies into the marketplace 
through technology validation and market introduction activities such 
as Builders Challenge, Building Energy Codes, EnergySmart Hospitals, 
EnergySmart Schools, ENERGY STAR, Solar Decathlon, and the Utility 
Solar Water Heating Initiative (USH<INF>2</INF>O).\5\
---------------------------------------------------------------------------
    \5\ More information is available on each of these programs at the 
following links: Builders Challenge: http://www1.eere.energy.gov/
buildings/builderschallenge.html; Building Energy Codes: http://
www1.eere.energy.gov/buildings/energycodes.html; EnergySmart Hospitals: 
http://www1.eere.energy.gov/buildings/energysmarthospitals/; 
EnergySmart Schools: http://www1. eere.energy.gov/buildings/
energysmartschools.html; ENERGY STAR: http://www1.eere. energy.gov/
buildings/energystar.html; Solar Decathlon: http://
www1.eere.energy.gov/buildings/solar<INF>-</INF>decathlon.html; Utility 
Solar Water Heating Initiative (USH<INF>2</INF>O): http://
www1.eere.energy.gov/buildings/ush2o/
---------------------------------------------------------------------------
    I would like to underscore certain successes within Building 
Technologies Program, from net-zero energy commercial buildings to 
efficient appliances for consumers that have contributed to 
technological advancements and significant energy savings.

Commercial Buildings Initiative

    Launched in August 2008, the Net-Zero Energy Commercial Building 
Initiative (CBI) is the umbrella initiative that will guide and 
coordinate public and private partnerships to advance the development 
and market adoption of net-zero energy commercial buildings (NZEBs). 
CBI works with researchers at DOE National Laboratories, as well as 
with public and private partners, to achieve the goal of marketable 
NZEBs by 2025.
    In support of the CBI, DOE's key commercial buildings research 
includes whole building system integration, indoor environmental 
quality, control strategies and diagnostics, space conditioning, and 
process and miscellaneous equipment. Another major area is the 
development of technology solutions for achieving 30-50 percent savings 
at the building system level (lighting, heating, and cooling). The 
first technology solution, Commercial Lighting Solutions web tool 
design aid, launches in May 2009. We expect that designs for retail 
building that use this tool could save 30-40 percent on energy use 
compared with ASHRAE/IESNA Standard 90.1-2004.
    Working with industry representatives and partners is critical to 
achieving the goal of marketable net-zero energy commercial buildings 
by 2025. We are engaged with building industry leaders through energy 
alliances and research partnerships to move us toward that goal. The 
key CBI alliances and partnerships include:

        <bullet>  Commercial Building Energy Alliances--Informal 
        associations of commercial building owners and operators who 
        work to significantly reduce energy consumption and carbon 
        emissions. Currently, alliances exist for retail, commercial 
        real estate, and hospitals.

        <bullet>  Commercial Building National Accounts (NAs)--
        Companies and organizations partnering with DOE to conduct 
        cost-shared research, development, and deployment. NAs will 
        construct buildings that achieve savings of 50 percent or 
        retrofit buildings that achieve 30 percent savings above 
        ASHRAE/IESNA Standard 90.1-2004, and deploy this knowledge 
        through their portfolios. In FY 2008, 23 National Account 
        partners agreed to work with DOE. Another 100 National Accounts 
        are planned in FY 2009.

        <bullet>  High-Performance Green Building Consortium--DOE-
        selected building industry groups that work with DOE to 
        accelerate the commercialization of high-performance building 
        technologies by disseminating information on new technologies 
        within the commercial building community. A high-performance 
        commercial building offers improved energy, economic, and 
        environmental performance compared to standard practice. See 
        the appendix for progress on related sections of EISA.

Building Energy Codes and Standards

    The Department works closely with the American Society of 
Refrigeration and Air-Conditioning Engineers (ASHRAE) on its standard 
90.1 and with the International Code Council (ICC) on its International 
Energy Conservation Code (IECC) in response to Title III of the Energy 
Conservation and Production Act, as amended (42 U.S.C. 6831 et seq.).
    In 2007, DOE challenged ASHRAE to upgrade standard 90.1 to be 30 
percent more stringent than its 2004 edition by 2010 and has been 
actively engaged in the ASHRAE standards process by providing technical 
assistance to support the upgrade of standard 90.1. ASHRAE reports that 
it is on track to achieve the 30 percent goal.
    The Department has also joined many stakeholders in the 
International Energy Conservation Code process to upgrade the 2006 
edition of the IECC by 30 percent by 2012. Significant progress has 
been made in the 2009 edition, upgrading it by about 15 percent. The 
Department is an active participant in the codes development process by 
providing engineering, economic and energy analyses of improvements to 
the code as well as specific code proposals.

Appliance Standards

    In the 1970s, there was a debate over whether to set energy 
conservation standards for consumer products, including refrigerators. 
Many were concerned that standards would be too expensive to meet and 
that they would lead to higher prices for consumers. The Appliance 
Standards Program was established with the passage of the Energy Policy 
and Conservation Act of 1975 (EPCA), which designated test procedures, 
conservation targets, and labeling requirements for certain major 
household appliances. The Act has been amended several times, changing 
the conservation targets to mandatory standards and adding many 
additional products to eventually include a broad range of residential 
and commercial products. As amended, the appliance standards 
requirements are among the broadest and most stringent of any country 
in the world. Once the standards passed, manufacturers put their 
engineers to work developing new products to meet the standards. 
Manufacturers were successful and developed new, energy efficient 
products that met the requirements.
    For example, today, refrigerators cost less than they did before 
DOE's ENERGY STAR, research, and energy conservation standards 
programs. Yet, today's refrigerators are larger, have more features and 
use less than one-third as much energy as those earlier designs. DOE 
estimates DOE's programs have contributed to a decrease in refrigerator 
energy consumption on the order of 0.25 quads compared 1975, even 
though the number of refrigerators grew by 35 percent. This energy 
savings is equivalent to the amount produced by 58 coal power 
plants.\6\
---------------------------------------------------------------------------
    \6\ Source: 1975 to 2005 energy use--DOE refrigerator standards 
rule-making data developed by Lawrence Berkeley National Laboratory; 
2015 projection--EIA's Annual Energy Outlook 2005; number of 
households--Buildings Energy Data Book Table 2.1.1.
---------------------------------------------------------------------------
    President Obama showed his interest and expectations for the 
Appliance Standards Program just 17 days after his inauguration. The 
President visited DOE and set out his expectations for the Appliance 
Standards Program in a memorandum to Secretary Chu. The memorandum 
requests that the Department take all necessary steps to finalize 
legally required energy conservation standards rule-makings as 
expeditiously as possible and consistent with all applicable judicial 
and statutory deadlines. The Department is committed to fulfilling the 
President's request, and the Secretary has reinforced the importance of 
this program through expressing his support in ensuing public 
statements.

Builders Challenge and Home Performance with ENERGY STAR

    The goal of Builders Challenge is to build 220,000 new high-
performance homes by 2012. These homes exceed the energy efficiency of 
ENERGY STAR Homes by approximately 20 percent. To date, more than 1,000 
homes have been qualified as meeting the Builders Challenge and 200 
builders have agreed to build to meet the Builders Challenge in the 
future.
    Home Performance with ENERGY STAR (HPwES) focuses on significantly 
increasing energy efficiency in existing homes. HPwES promotes 
improvements through home performance contracting, which includes 
comprehensive whole-house assessments. HPwES is implemented by 
utilities, State energy offices, and not-for-profits that recruit and 
train home improvement contractors. Qualified contractors conduct a 
comprehensive assessment using diagnostic equipment. Based on this 
assessment, contractors offer a prioritized list of solutions; they 
then complete the needed renovations or work closely with other 
participating contractors. Common improvements suggested are sealing 
air leaks and ductwork, adding insulation, improving the heating-
cooling system, and upgrading lighting. To date, more than 50,000 
assessments and 15,000 installations have been completed since 2002.

Buildings Efficiency and Economic Recovery

    The Department's Building Technologies Program is planning to 
address research focused on the systems design, integration and control 
of buildings for both new and existing buildings with Recovery Act 
funding. This project will move beyond component-only driven research 
and address the interactions among the many different aspects of 
buildings, approaching it as a whole, in order to progress development 
of integrated, high-performance buildings. Buildings need to be 
designed, built, operated, and maintained as an integrated system in 
order to achieve the greatest potential of energy efficient and 
eventually net zero-energy buildings. High-performance buildings will 
apply technology to improve the internal built environment through 
managing energy use, improving comfort, safety and environmental 
factors through integrating all the various systems of the building.
    The Recovery Act places significant focus on buildings and building 
energy codes.\7\ The Act provides $3.2 billion for Energy Efficiency 
and Conservation Block Grants for such activities as the enforcement of 
building energy codes; conducting building audits; establishing 
financial incentives for efficiency; and installing LEDs. It provides 
$5 billion for Weatherization assistance and $3.1 billion for the State 
Energy Program.
---------------------------------------------------------------------------
    \7\ See Section 410 of the American Recovery and Reinvestment Act 
of 2009.
---------------------------------------------------------------------------
    In response to Recovery Act requirements, the overwhelming majority 
of governors have advised the Secretary that they have take actions to 
ensure, within the authority of the governor's office, the 
implementation of the 2009 International Energy Conservation Code or 
equivalent for residential buildings, and Standard 90.1-2007 for 
commercial buildings. They have provided similar assurances that the 
state will implement a plan to achieve 90 percent compliance with their 
new codes by 2017. The relevant State Energy Program solicitation has 
been issued, and comprehensive applications from the states are due May 
12, 2009.\8\
---------------------------------------------------------------------------
    \8\ See http://www.energycodes.gov/news/arra/
---------------------------------------------------------------------------
    DOE is gearing up to provide technical assistance to the states to 
implement these new codes and to implement, enforce, and evaluate 
compliance.
    The Department is committed to improving energy efficiency through 
innovative R&D, public outreach, and collaborative partnerships. 
Improved energy efficiency in buildings generally is a fast, low risk, 
and economical way to reduce energy consumption and associated 
environmental emissions, including greenhouse gases. We look forward to 
working with Congress to continue to realize short-term energy and cost 
savings, and to contribute to the goal of achieving net-zero energy 
residential and commercial buildings in the future.
    Thank you for the opportunity to appear before you today, and I am 
happy to answer any questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Biography for Steven Chalk
    Steven Chalk is the Principal Deputy Assistant Secretary in the 
Office of Energy Efficiency and Renewable Energy (EERE) at the U.S. 
Department of Energy. In this capacity, Mr. Chalk is responsible for 
managing the programs, staff and policies of EERE and interfacing with 
constituent groups in the efficiency and renewable energy sectors.
    Mr. Chalk recently held the position of EERE's Deputy Assistant 
Secretary for Renewable Energy, where he was responsible for the 
management of the government's research, development, and 
commercialization efforts in solar, wind, geothermal, biomass, and 
hydrogen technologies. Mr. Chalk also previously managed EERE's 
Hydrogen and Fuel Cell Technologies Program, the Solar Energy 
Technologies Program and Buildings Technologies Program.
    In September 2008, Steve was honored with a Service to America 
Medal in the Science and Environment category. This award recognized 
his management of several innovative clean energy projects, as well as 
his leadership in the Federal Government's efforts to expand the use of 
renewable energy and energy efficiency, particularly in the communities 
of New Orleans and Greensburg, Kansas.
    While leading the Solar Energy Technologies Program, Mr. Chalk was 
responsible for planning and implementing the Solar America Initiative, 
which aims to make solar technologies cost competitive by 2015. In the 
building technologies area, Mr. Chalk led DOE's efforts toward net zero 
energy homes and buildings. The portfolio includes component research 
such as solid state lighting, market transformation activities such as 
EnergyStar, and appliance standards regulations. Before this, Mr. Chalk 
led the President's Hydrogen Fuel Initiative where he oversaw 
development of a five-year, $1.2 billion research investment in 
hydrogen production, delivery, storage, and fuel cells. This portfolio 
also includes hydrogen safety, codes and standards, and education 
activities. In his early career at DOE, Mr. Chalk managed technology 
development programs in fuel cells, diesel emissions control, and 
materials for DOE's advanced automotive technology office. Steve also 
worked in the nuclear energy field where he oversaw DOE test programs 
for tritium production. Steve started his career with the Navy 
developing propellants and explosives for conventional weapons.
    Mr. Chalk holds a Bachelor of Science in Chemical Engineering from 
the University of Maryland and a Master of Science in Mechanical 
Engineering from the George Washington University.

    Chairman Baird. Mr. Coad.

 STATEMENT OF MR. WILLIAM J. COAD, PRESIDENT, COAD ENGINEERING 
  ENTERPRISES, AND CHAIR, HIGH-PERFORMANCE BUILDING COUNCIL, 
            NATIONAL INSTITUTE OF BUILDING SCIENCES

    Mr. Coad. Mr. Chairman, Mr. Ranking Member and other 
Members of the Subcommittee, as Mr. Carnahan said, my name is 
Bill Coad. I am a practicing mechanical engineer. I have been 
designing heating, refrigerating and air conditioning systems 
and electrical systems for large buildings for my entire 
career.
    I am here this morning representing the National Institute 
of Building Sciences, acronym NIBS. NIBS is a private 
organization. It is not for profit. It was founded by this 
Congress in 1974 to coordinate the improvement in buildings and 
building systems in the United States for both public and 
private buildings. Our annual report goes to the President of 
the United States and to the Congress and you all will receive 
this year's report in another couple of weeks.
    I would like to introduce Henry Green. Henry is the 
President of NIBS. He joined us in 2008, last year. Prior to 
that he was the president of the International Code Council, 
who is the developer of the International Building Code, which 
is used almost universally in the United States in our private-
sector buildings. And when this Congress passed the Energy 
Policy Act of 2005, in that Act, section 914, they mandated 
that NIBS should form a council or a group to try to coordinate 
all the standards that were available in the United States, all 
our consensus standards, and look at those standards and see if 
we had the information in any one place that we could use to 
expand the concept of high-performance buildings.
    Now, we have heard some different definitions of high-
performance buildings but I would like to give you just a very 
quick slant on what a high-performance building really is. As 
Mr. Chalk said, there are a lot of things going on out here in 
energy and the environment but it really boils down to one 
simple matter. It has to do with economics and the intrinsic 
link between economics and energy. The foundation for any 
economy is human productivity, and when this country was 
founded, human productivity had been pretty flat for hundreds 
of years and something happened in 1775 when George Washington 
was trying to stay out of the way of the British, something was 
happening on the other side of the world, the other side of the 
Atlantic. James Watt perfected his steam engine in 1775. He was 
able for the first time to take heat and turn it into work, and 
work for mankind and increase his productivity. Within about 
100 years, that steam engine was driving locomotives across the 
continents. We had the steam engines in factories driving line 
shafts, manufacturing for people. One steam engine and one 
person could do the work of about 500 people. That is 
productivity and that happened through the entire 19th century, 
kept increasing productivity, and guess what happened? The 
economy kept getting stronger and stronger. In the 20th 
century, we really switched into high gear. Today we have 
machines to light the darkness, to preserve our food, to carry 
us wherever we want to go at any speed, exceeding the speed of 
sound, to refrigerate and preserve our food, to cook our food, 
to clean our house, to run our factories. It is all--every one 
of these things increases human productivity, keep our records, 
do our calculations, and today we have--because of this 
productivity, we have the strongest economy that mankind has 
ever had before.
    Anybody 100 years ago couldn't possibly have predicted what 
was going to happen with this kind of productivity and we can 
be very proud of ourselves, but guess what? We made a little 
mistake. When we started building these machines that our total 
economy depends upon, there was a lot of fossil energy around. 
First we did it with wood and then we needed the wood for other 
things so we turned to coal, then oil in about the mid-19th 
century, and these are all fossil fuels. These fossil fuels 
took millions of years to generate into the Earth. Now, we have 
only been using them for about 150 years and we are using them 
at an exponentially increasing rate. It doesn't take anything 
beyond high school mathematics to realize if you have a limited 
resource and you are using it at a continually exponentially 
increasing rate, some day it is going to run out, and guess 
what happens? That some day--world production of oil is 
predicted now to run out\1\ before the year 2010. That is next 
year. So we are in trouble. We are in big trouble with our 
economy because without the energy, we can't support the 
economy to keep the world running the way it is running. We are 
talking about the end of man on Earth if we can't support our 
economy.
---------------------------------------------------------------------------
    \1\ Mr. Coad asked that ``run out'' be changed to read ``peak.'' 
See attached June 19, 2009 letter.
---------------------------------------------------------------------------
    Now, what can we do about that? That is why we are here 
today. This committee, this subcommittee is here handling what 
I think is the most important problem that this Congress and 
this country faces today, and that is the fact that we are 
going to run out of energy if we don't do something about it. 
Now, what can we do about it?
    Chairman Baird. Mr. Coad, we try to keep the testimony to 
about five minutes. I know that is a minimum time but I am 
going to ask you to try to summarize at this point.
    Mr. Coad. I am just now ready to, Mr. Chairman.
    Chairman Baird. Great. Thank you very much. Go ahead.
    Mr. Coad. I have lost my train of thought now. I am sorry. 
What we have to do, the only thing we can do is energy 
efficiency. Mr. Chalk said--no, Mr. Chairman, you said that 
buildings consume 40 percent of the energy roughly. They 
consume it but they don't use it. The efficiency is horrible in 
anything we do with energy. We have to redesign our complete 
structure of technology to consume much, much, much less 
energy. So efficiency is number one.
    So with that, I am going to stop, Mr. Chairman, and I would 
be glad to handle any questions.
    [The prepared statement of Mr. Coad follows:]
                 Prepared Statement of William J. Coad

Mr. Chairman and Members of the Committee,

    My name is William J. Coad. I am testifying before this committee 
as a member of the National Institute of Building Sciences Board of 
Directors. I am a volunteer member of the Board. I am also President of 
Coad Engineering Enterprises and a consulting principal and past 
Chairman/CEO of The McClure Corporation.
    I am a registered professional engineer in 38 states and a past 
President of the American Society of Heating, Refrigerating, and Air 
Conditioning Engineers (ASHRAE). For 17 years I was an Affiliate 
Professor at Washington University in St. Louis, teaching graduate 
courses in Mechanical Engineering and served as a thesis advisor in 
building environmental systems design.
    I am here today to testify on expanding the effort you identified 
in Section 914 of the Energy Policy Act of 2005.
    The National Institute of Building Sciences is a private, non-
profit organization established by Congress as a single authoritative 
national source to make findings and advise both the public and private 
sectors on the use of building science and technology to achieve 
national goals and benefits. It is truly a public/private sector 
partnership, governed by a Board of Directors that represents all 
sectors of the building community, including appointees by the 
President of the United States.
    I would like to introduce Henry L. Green, Hon. AIA, President of 
the Institute. Before coming to the Institute in 2008, Mr. Green was 
Director of the Bureau of Construction Codes for the State of Michigan. 
He is also a past President of the International Code Council, 
developer of the International Building Code.
    The Energy Policy Act of 2005 (EPACT) and the Energy Independence 
and Security Act of 2007 (EISA) seek to reduce building-related energy 
consumption and dependence on foreign energy sources.
    Title IX, Subtitle A, Section 914 of EPACT specifically directed 
the National Institute of Building Sciences to explore the potential 
for accelerating development of consensus-based voluntary standards to 
set requirements for less resource-intensive, more energy-efficient, 
high-performance buildings.
    As a result of this Congressional directive, the Institute formed 
the High-Performance Building Council in 2007. In 2008, the Council 
issued a report entitled, ``Assessment to the U.S. Congress and U.S. 
Department of Energy on High-Performance Buildings.'' My testimony 
today is based on the conclusions and recommendations of this report.
    The Council currently has over 75 associations and federal agencies 
as members. They represent all the major sectors of the building 
community and including

        <bullet>  The American Institute of Architects,

        <bullet>  ASHRAE,

        <bullet>  ASTM International,

        <bullet>  The Associated General Contractors of America and

        <bullet>  The International Code Council, as well as many 
        others.

    Section 914 included no specific funding authorization, however, 
based on a small amount of funding from the Department of Energy the 
Council performed an initial assessment of the current knowledge, with 
the help of standards development organizations, professional 
societies, governmental agencies, and major trade associations. 
Representatives examined hundreds of existing standards to judge their 
relevance to high-performance buildings.
    The Council was charged in Section 914 with determining what was 
needed to accelerate the development of voluntary, consensus-based 
standards for high-performance buildings. As our report demonstrates, 
many of the existing standards, guidelines, and recommended practices 
are developed independently, addressing only one aspect of the 
building, without communicating across disciplines or parties, or 
looking at the building as a whole.
    Implementing the High-Performance Building Council's 
recommendations--based on a harmonized definition of high-performance 
buildings--would greatly accelerate the development and use of uniform 
voluntary consensus-based industry standards for new construction and 
renovation.
    As Congress considers new legislation focused on implementing high-
performance buildings, the High-Performance Building Council offers its 
technical expertise and guidance to help reach the Nation's goals.
    At the time of EPACT the industry was fragmented in terms of 
performance requirements for high-performance buildings. That is still 
the case today. However we now have an organization ready to bring the 
industry together. The Council's vision is harmonized standards--in 
place and used--that result in high performing buildings. The mission 
of the Council is to seek industry consensus to establish and update 
the definition of high-performance buildings and to promote the 
harmonization of industry standards to meet that definition and 
encourage the production of high-performance buildings throughout the 
United States. The Council would develop an industry consensus model 
which would identify the range of metrics and benchmarks to define 
High-Performance. Federal agency research would assist in providing for 
these metrics and benchmarks and private voluntary standard development 
organizations would use the model to develop their individual standards 
and to harmonize these together for the final realization of whole 
high-performance buildings.
    Congress can help by implementing the recommendations made in our 
report. I ask your support to implement the activities envisioned and 
authorized by section 914 of the Energy Policy Act of 2005 through the 
High-Performance Building Council of the National Institute of Building 
Sciences.
    New high-performance building standards have the potential to 
enable designers, developers, and owners to construct buildings that 
significantly exceed the minimum requirements of current codes and 
standards. The results could lead to high-performance buildings that 
use substantially less energy, and even potentially improve the health, 
comfort, and productivity of their occupants.
    Thank you.

                     Biography for William J. Coad
    William J. Coad, President of Coad Engineering Enterprises is a 
consulting principal and past Chairman/CEO of The McClure Corporation 
(dba McClure Engineering Associates). Mr. Coad was President of the 
American Society of Heating, Refrigerating, and Air Conditioning 
Engineers (ASHRAE) in 2001-2002. He received his degree in Mechanical 
Engineering from Washington University in 1957. Prior to forming Coad 
Engineering Enterprises, Inc., he had been with McClure Engineering 
Associates, a Mechanical/Electrical Consulting Firm, for 40 years 
(following five years as a design engineer, estimator, and corporate 
officer of a mechanical contracting company). He is a registered 
professional engineer in 38 states. He is a member of the Board of 
Directors of Mestek Corporation of Pittsburgh, Pennsylvania, Exergen 
Corporation of Watertown, Massachusetts, and the National Institute of 
Building Sciences (NIBS) of Washington D.C.
    As an educator, Mr. Coad served as a Lecturer in Mechanical 
Engineering for 12 years at Washington University in St. Louis. For 17 
years he was an Affiliate Professor at Washington University, teaching 
graduate courses in Mechanical Engineering and serving as a thesis 
advisor in building environmental systems design.
    Mr. Coad is a member of the Consulting Engineer's Council, the 
American Society of Mechanical Engineers (ASME) and a Fellow in the 
American Society of Heating, Refrigerating, and Air Conditioning 
Engineers (ASHRAE). His positions in ASHRAE have included terms as 
President (2001-2002), Vice President, Treasurer, and member of the 
Society's Board of Directors. He has also served on numerous Technical 
Committees and Task Groups, on the Nominating Committee, the 
Presidential Committee on Energy Resource Evaluation, Panel 12 Standard 
90-75, Finance Committee, Energy Council, Technology Council, Members 
Council, Publishing Council, Research & Technical Committee, Education 
Committee, and the Continuing Education Committee. (Often, he has 
served as Chairman or Vice Chairman of the above committees and 
councils). He served in all offices of the St. Louis Chapter of ASHRAE, 
(President, 1971-72).
    Mr. Coad received the Society's Distinguished Service Award in 
1980, the Crosby Field Award for the best paper published by ASHRAE in 
1985, the Louise & Bill Holladay Distinguished Fellow Award in 1989, 
the award for Best Journal Article (1991), ASHRAE's highest award for 
technical achievement, the F. Paul Anderson Award in 1996, the 
Exceptional Service Award in 2001, and the Andrew T. Boggs Service 
Award in 2002.
    Mr. Coad is an Honorary Member of Pi Tau Sigma (Mechanical 
Engineering Honorary Society), a (1992) recipient of the Washington 
University Alumni Achievement Award, and the (2001) recipient of the 
Donald Julius Groen Prize of the British Institute of Mechanical 
Engineers (ImechE). He has published several Symposium Papers and has 
authored numerous articles on Engineering Philosophy and Building 
Environmental Systems (including, for 15 years, a monthly column 
entitled ``Fundamentals to Frontiers'' in HPAC Engineering Magazine).
    William Coad authored ``Energy Engineering and Management for 
Building Systems,'' published by Van Nostrand Reinhold, and is a co-
author of ``Principles of Heating, Ventilating, and Air Conditioning'' 
published by ASHRAE. He is a member of the Editorial Advisory Board of 
HPAC Engineering Magazine. He has served on the St. Louis Professional 
Code Committee, and the Missouri State Building Code Steering 
Committee. Mr. Coad has been Chairman of the Building Technology 
Advisory Committee to the Missouri Energy Agency, a member of the 
Building and Grounds Committee of the Washington University Board of 
Trustees, the Board of Directors of St. Elizabeth Academy in St. Louis, 
and the Energy Conservation Committee of the American Consulting 
Engineer's Council.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Baird. We will have plenty for you, Mr. Coad.
    Mr. Coad. Sorry I ran over time.
    Chairman Baird. That is fine. You know, you folks have 
invested your entire lives in this and then we are foolish 
enough to ask you only five minutes, but we will get more. I 
just have to commend your association. To have someone in your 
role named Coad and your new President named Green, you guys 
are in marketing, not just engineering and then we have got 
Ehrhardt here to lead the way as well.
    Mr. Cicio, thank you very much and we look forward to your 
comments.

 STATEMENT OF MR. PAUL N. CICIO, PRESIDENT, INDUSTRIAL ENERGY 
                      CONSUMERS OF AMERICA

    Mr. Cicio. Chairman Baird, Ranking Member Inglis, my name 
is Paul Cicio and I am the President of the Industrial Energy 
Consumers of America. Thank you for the opportunity to testify 
on the Department of Energy Industrial Technologies Program. 
The Industrial Energy Consumers of America is a trade 
association of leading manufacturing companies with more than 
$510 billion in annual revenues. We employ 850,000 employees 
across the country, and we are an organization created to 
promote the interests of manufacturing companies for which the 
availability, the use and cost of energy, and power and 
feedstock play a significant role in our ability to complete 
globally.
    The manufacturing sector is a vital sector to the welfare 
of the country. We provide the largest contribution to GDP at 
12 percent, over 60 percent of the exports. We employ 14 
million people and nearly of the quarter of the world's 
manufacturing output.
    Mr. Chairman, the speed at which the world around us is 
changing is accelerating and we face enormous challenges 
competing for domestic and offshore markets and unfortunately 
it looks like we are losing ground. From 2000 to 2008, imports 
are up 29 percent and manufacturing employment fell 22 percent, 
a loss of 3.8 million jobs, and that does not count 2009. Of 
great concern is that new manufacturing investment in the 
United States as a percent of GDP has been on a decline since 
the late 1990s. At the same time, significant new capital 
investment, often with the latest technology, has made 
companies in developing countries top in class competitors. 
Many of these companies are State owned and are subsidized. Our 
competitors are third world countries with first-rate 
manufacturing technology.
    Of new competitive concern is the upcoming requirement to 
reduce greenhouse gas emissions that could add substantial cost 
that our competitors in developing countries will not bear. 
This brings me to my point. There has never been a time in our 
history where new technology and best practices are needed more 
to increase manufacturing competitiveness, reduce energy 
consumption, reduce greenhouse gas emissions.
    The Industrial Technologies Program mission to improve 
national energy security, climate, environment and economic 
competitiveness by transforming the way U.S. industry uses 
energy is needed more than ever before. As noted, U.S. 
manufacturing is losing competitiveness. Our manufacturing 
processes are operating at their technical limits, which should 
urgently place a priority on these private-public partnerships 
for research and development. In talking to various companies 
and trade associations in advance of this hearing, I feel 
confident to report to you that this program is on sound 
ground. It is well run and it is creating value for the 
industrial sector. The only criticism that is consistent among 
everyone is that it is woefully underfunded. The R&D program by 
sector, the R&D crosscutting technologies, the best practices, 
the industrial assessment centers, and the Save Energy Now 
Program are all effective and they are desirable.
    The fiscal year 2008 funding of $64 million and the fiscal 
year 2009 funding of $62 million is completely insufficient to 
meet the competitiveness challenges. For perspective, $62 
million is an amount less than one ten-thousandth the amount 
spent on the stimulus package. Surely we can afford to invest 
more than $62 million.
    In contrast, developing countries are placing a high value 
on manufacturing and they are investing in it. They understand 
that it creates good-paying jobs and needed exports. For 
example, our stimulus package has negligible spending directed 
towards manufacturing while China's stimulus package places 
manufacturing at the heart of their investment in their 
economic recovery.
    In closing, Mr. Chairman, given the enormous and growing 
challenges that we face, we no longer can take the 
manufacturing sector for granted. It is important for this body 
to understand the enormous value that this sector brings and 
that it is time for investing to take it seriously. Thank you.
    [The prepared statement of Mr. Cicio follows:]
                  Prepared Statement of Paul N. Cicio
    Chairman Baird, Ranking Member Inglis, my name is Paul Cicio and I 
am the president of the Industrial Energy Consumers of America. Thank 
you for the opportunity to testify before you on the Department of 
Energy, Industrial Technologies Program.
    The Industrial Energy Consumers of America is an association of 
leading manufacturing companies with $510 billion in annual sales and 
with more than 850,000 employees nationwide. It is an organization 
created to promote the interests of manufacturing companies for which 
the availability, use and cost of energy, power or feedstock play a 
significant role in their ability to compete in domestic and world 
markets. IECA membership represents a diverse set of industries 
including: plastics, cement, paper, food processing, brick, chemicals, 
fertilizer, insulation, steel, glass, industrial gases, pharmaceutical, 
aluminum and brewing.
    The manufacturing sector is vital to the economic and security 
welfare of this country. We provide the largest contribution to GDP at 
12 percent, over 60 percent of the exports; employ over 14 million 
people and nearly a quarter of the worlds manufacturing output.
    Mr. Chairman, the speed at which the world around us is changing is 
accelerating and we face enormous challenges competing for domestic and 
offshore markets. Unfortunately, it looks like we are losing ground.
    From 2000 to 2008 imports are up 29 percent and manufacturing 
employment fell 22 percent, a loss of 3.8 million high paying jobs. Of 
great concern is that manufacturing investment in the U.S. as a percent 
of GDP has been on a decline since the late 1990s. At the same time, 
significant new capital investment, often with the latest technology 
has made companies in developing countries top in class competitors. 
Many of these companies are State owned and are subsidized.
    A new competitive concern and/or opportunity is the upcoming 
requirements to reduce GHG emissions. This could add substantial costs 
that our competitors in developing countries will not have to bear.
    This brings me to my point. There has never been a time in our 
history where new technology and best practices is needed more to 
increase manufacturing competitiveness, reduce energy consumption and 
GHG emissions than like today.
    The Industrial Technologies Program (ITP) mission to improve 
national energy security, climate, environment and economic 
competitiveness by transforming the way U.S. industry uses energy is 
needed more than ever. As noted, U.S. manufacturing seems to be losing 
competitiveness. Our manufacturing processes are operating at their 
technical limits which should urgently place a priority on private 
public partnerships in research and development like this program.
    In talking to various companies and trade associations in advance 
of this hearing, I feel confident to report to you that the program is 
on sound ground, well run and creating value for the industrial sector. 
The only criticism is the lack of federal funding.
    The R&D programs by sector, the R&D crosscutting technologies, best 
practices, the Industrial Assessment Centers and the Save Energy Now 
Program are all effective and desirable.
    The FY 2008 funding of $64 million and the FY 2009 of $62 million 
is completely insufficient to meet the competitiveness challenges. In 
comparison, from 1998 to 2001 well over $120 million was spent 
annually.
    Mr. Chairman, given the enormous and growing challenges that we 
face, we can longer take the manufacturing sector for granted. It is 
important for this body to understand the enormous value that this 
sector brings and that it is time to take investing in this sector 
seriously by vastly expanding this program.
    Thank you.

                      Biography for Paul N. Cicio
    Paul N. Cicio has been the President of the Industrial Energy 
Consumers of America (IECA) since its founding six years ago. IECA is a 
non-profit trade association created to promote the interests of 
manufacturing companies for which the availability, use and cost of 
energy, power or feedstock play a significant role in their ability to 
compete in domestic and world markets. Membership represents a diverse 
set of energy intensive industries including: plastics, cement, 
aluminum, paper, food processing, brick, chemicals, fertilizer, rubber, 
steel, glass, industrial gases, pharmaceutical and brewing.
    Mr. Cicio is a well known consumer advocate for the industrial 
sector on issues related to energy and the environment and is 
recognized for his efforts within national and international circles. 
He has testified seven times before the U.S. House of Representatives; 
three times before the U.S. Senate; and twice before the Federal Energy 
Regulatory Commission on issues regarding natural gas supply; natural 
gas market oversight; climate policy and energy efficiency. He has also 
intervened at the Commodity Futures Trading Commission.
    In 2008, the Chairman of the Commodity Futures Trading Commission 
appointed Mr. Cicio to the newly created Energy Markets Advisory 
Committee (EMAC) representing industrial energy consumers.
    In 2006 and again in 2008, the Secretary of the Interior appointed 
Mr. Cicio to the U.S. Department of Interior Outer Continental Shelf 
Policy Advisory Committee. In 2007, the Secretary of Energy appointed 
him to the National Coal Council, an advisory council to the Secretary. 
In both appointments, Mr. Cicio became the first energy consumer 
advocate.
    Mr. Cicio moved to Washington DC from Houston, Texas in 1991. Since 
that time he has served in several leadership positions within a host 
of trade associations that include the National Association of 
Manufacturers, the American Chemistry Council, the Electricity 
Consumers Resource Council and the International Federation of 
Industrial Energy Consumers. Leadership positions in European trade 
associations include the International Chamber of Commerce; the 
Business and Industry Advisory Committee to the DECD; and the 
International Federation of Industrial Energy Consumers-World.
    Previous to IECA, Mr. Cicio was employed by The Dow Chemical 
Company where he held a number of diverse responsibilities including: 
hydrocarbons and energy global issues management and Federal Government 
affairs, hydrocarbons and energy senior commercial manager, marketing 
manager, district sales manager, product sales manager. He retired from 
Dow Chemical with almost 30 years of service.
    Mr. Cicio graduated from Youngstown State University with a BS in 
Business Administration and Economics.

    Chairman Baird. Thank you, Mr. Cicio.
    Dr. Ehrhardt-Martinez.

 STATEMENT OF DR. KAREN EHRHARDT-MARTINEZ, RESEARCH ASSOCIATE, 
    AMERICAN COUNCIL FOR AN ENERGY-EFFICIENT ECONOMY (ACEEE)

    Dr. Ehrhardt-Martinez. Thank you. My name is Karen 
Ehrhardt-Martinez and I am a research associate with the 
American Council for an Energy-Efficient Economy, and I am also 
the Chairman of the 2009 Behavior Energy and Climate Change 
conference, which will be held here in D.C. in November, and I 
have to add that I am a resident of Bowie, Maryland.
    My testimony responds to a request to provide information 
about the role of social and behavioral sciences in reducing 
energy consumption in buildings and how these sciences could be 
included in the DOE's research programs. As discussed in detail 
in my written testimony, insights from the social and 
behavioral sciences really do offer an important opportunity to 
enable a significantly greater level of energy savings in 
buildings as well as other energy sectors. They can help 
maximize potential technology-based savings. They can improve 
decision-making and reveal social, behavioral and cultural 
means of motivating and facilitating smart energy behaviors.
    Let me start by saying that behavior-oriented programs and 
research can help us understand, explain and address two of the 
most persistent gaps that continue to limit energy savings and 
energy efficiency. The first gap is the energy efficiency gap, 
or the gap between the potential cost-effective energy 
efficiency investments on one hand and the investments that are 
actually made on the other. The second gap is what I call the 
attitude behavior gap, and this gap divides favorable attitudes 
on the one hand from what might be best characterized as less 
than favorable behaviors on the other.
    The energy efficiency gap is large. According to several 
ACEEE studies, this first gap represents lost energy savings of 
roughly 30 percent or more. Similarly, studies of prevailing 
attitudes and behaviors suggest that while people are often 
aware of the economic and environmental benefits of investing 
in energy-efficient technologies and behaviors, a variety of 
social, cultural and economic factors actually frequently 
intervene so as to severely limit the amount of follow-through 
that actually occurs, whether by individuals, households or 
businesses. A great example ``gap'' is provided by some recent 
Gallup Poll research that reveals that while roughly 85 percent 
of Americans have actually reported that they should be 
spending thousands of dollars to increase the energy efficiency 
of their homes, in reality, only a very small percentage 
actually are acting on these concerns in any way significant 
way.
    So what is going on? That is what social and behavior 
research can really help us to understand. We need to improve 
our understanding and application of social and behavioral and 
even cultural factors that can help us deliver more of the 
potential energy savings that are available through new and 
existing technologies. We also need to use this information to 
reduce social and cultural barriers and to motivate people to 
take the actions that they readily recognize as important to 
achieving energy savings. My written testimony provides many 
examples of how social science insights have been able to 
narrow these gaps.
    Next I would like to talk about what I call designing a new 
looking glass, a new way to imagine human behavior and why it 
matters. While our culture generally likes to think of people 
as rational actors, social scientists tend to work with a more 
complete understanding of human behavior. Unfortunately, 
traditional approaches of achieving energy savings and energy 
efficiency use what I call a distorted looking glass. They use 
what is most commonly referred to as a techno-economic 
framework, and this approach is primarily focused on a rational 
actor model that seeks to increase energy efficiency and 
increase energy savings exclusively through technological and 
economic means. Unfortunately from this purview, reducing 
energy consumption is as simple as designing a more energy-
efficient product and then ensuring the product is economical 
and its replacement is cost-effective. The logic in that regard 
is sound but only as far as it goes. Programs built around this 
logic assume that people typically act in economically rational 
ways. Unfortunately, real-world experience suggests otherwise. 
In fact, research suggests that in the residential sector, 
people seldom act accordingly to the rational economic actor 
model, and our understanding of the decision-making processes 
in business and industry also tend to fall short. As such, the 
performance of energy and efficiency programs requires that we 
gain and apply an improved understanding of what actually 
motivates energy-smart behaviors.
    Two mechanisms I suggest could help develop a better 
looking glass and more effective programs. One is a substantial 
increase in the involvement of social and behavioral scientists 
in the variety of processes, and the second is the development 
and application of a behavioral toolkit that effectively 
identifies key concerns and behavioral insights that have 
proven effective in addressing behavioral change.
    Finally, I would like to conclude by mentioning the need 
for a broad integration of social and behavioral science 
throughout DOE's work. It is important to recognize the 
significance of behavior-related approaches as an essential 
piece of a multi-part strategy for addressing energy issues and 
climate change efforts. As noted in a recent New York Times 
article, the principal drivers of our current energy and 
climate challenges are human choices, behaviors and lifestyles. 
As such, the success of our efforts depends on our ability to 
give these issues more prominence through behavior-smart 
policies, through an improved understanding of the ways in 
which people both shape and are shaped by their physical 
environment, by a recognition of the opportunities and 
constraints associated with existing social structures, 
cultural norms and values and other sociocultural 
considerations, and finally, a recognition of interpersonal and 
psychological factors associated with motivating and 
constraining behavioral change. By moving in this direction, we 
can make important strides in closing both the energy 
efficiency gap and the gap between consumer attitudes and 
behaviors. In short, mobilizing our population to adopt energy-
smart behaviors and technologies will require the insights 
provided by social and behavioral scientists and these insights 
need to become a larger part of the efforts of the U.S. 
Department of Energy. Thank you.
    [The prepared statement of Dr. Ehrhardt-Martinez follows:]
             Prepared Statement of Karen Ehrhardt-Martinez

Summary

    This testimony responds to an invitation from the House Energy and 
Environment Subcommittee of the Committee on Science and Technology to 
inform Committee Members about the role of the Department of Energy's 
research programs in:

        <bullet>  developing technologies and standards to enable 
        deployment of net-zero energy buildings,

        <bullet>  support sustainability in domestic industries, and

        <bullet>  highlight R&D areas which need continued attention to 
        achieve the goals of the DOE net-zero energy buildings program 
        and beyond.

    This testimony specifically addresses the need for increased 
research support to investigate and apply insights from the social and 
behavioral sciences. As discussed in this testimony, insights from the 
social and behavioral sciences offer an important opportunity to enable 
a significantly greater level of energy savings in buildings, industry, 
the residential sector, and transportation. More specifically, social 
science insights can help maximize potential technology-based savings; 
improve decision-making; and reveal social, behavioral, and cultural 
means of motivating and facilitating smart energy behaviors.
    Without the development and application of insights from the social 
and behavioral sciences, energy efficiency programs and policies will 
be constrained by the persistence of two important gaps:

        <bullet>  the gap between the potential energy savings of 
        existing technologies and the actual energy savings achieved, 
        and

        <bullet>  the gap between the good intentions of individuals, 
        businesses, and institutions and the less-than-adequate 
        translation of those intentions into smart energy behaviors.

    According to several ACEEE studies of the unrealized energy 
efficiency potential associated with existing technologies, the first 
gap represents lost energy savings of 30 percent or more with current 
technologies. Similarly, studies of prevailing attitudes and behaviors 
suggest that while people are often aware of the economic and 
environmental benefits of investing in energy-efficient technologies 
and behaviors, a variety of social, cultural, and economic factors 
frequently intervene so as to severely limit the number of individuals, 
households, and businesses that actually follow through on their 
intended actions. A better understanding and application of social and 
behavioral factors could deliver more of the potential energy savings 
available through new and existing technologies. They could also help 
reduce existing social and cultural barriers and motivate people to 
take the actions that they readily recognize as important to achieving 
energy savings and stabilizing (and then reducing) carbon emissions.
    Unfortunately, traditional approaches to energy efficiency 
typically apply what is most commonly referred to as a techno-economic 
framework. This approach is primarily focused on achieving energy 
efficiency through technological and economic means. From this purview, 
reducing energy consumption is as simple as designing a more energy-
efficient product (furnace, television, refrigerator, computer, motor, 
etc.) and then ensuring that the products are economical and their 
replacement is cost-effective. The logic is sound--as far as it goes. 
Programs built around this logic assume that people who are given the 
choice to invest in a product that is more energy efficient, with 
little risk and a short payback period, should adopt the superior 
technology. Unfortunately, however, real world experience tells a 
different story. In fact, research suggests that people seldom act 
according to the rational economic actor model. As such, we need a 
better means of understanding what actually motivates energy-smart 
behaviors, otherwise many government programs are likely to continue to 
under-perform. Fortunately, the development and application of a 
behavioral toolkit could go a long way toward substantially improving 
upon the more traditional approaches to energy efficiency and result in 
greater energy productivity and energy savings.
    Of equal importance, however, is the need to recognize the 
potential scope of energy savings associated with social and behavioral 
initiatives. Such initiatives offer the potential of large energy 
savings. In fact, two recent studies (Gardner and Stern, 2008; Laitner 
et al., 2009) suggest that the potential behavior-related energy 
savings in the residential sector alone represent roughly 25 percent of 
current residential sector energy consumption. By applying insights 
from the social and behavioral sciences to improve our understanding of 
decision-making, organizational behavior, and the influence of social 
and cultural norms in business and industrial processes, greater energy 
savings could also be achieved in the commercial and industrial 
sectors.
    Finally, it is important to recognize the significance of behavior-
related approaches as an essential piece of energy and climate change 
efforts. In fact, the principal drivers of our current energy and 
climate challenges are human choices, behaviors, and lifestyles. As 
such, they must also be an essential part of any attempt to address 
these challenges, if we hope to be successful in our efforts. In other 
words, human and organizational behavior is a critical component of 
both cause and solution. The DOE's efforts would undoubtedly benefit 
greatly from a more systematic and widespread incorporation of social 
and behavioral insights. However, funding for these types of 
initiatives is woefully inadequate and needs to be greatly expanded in 
order to realize the full magnitude of potential behavior-related 
energy savings. Such an effort would go a long way toward closing the 
gaps that currently exist between: potential and actual energy savings 
on the one hand and between attitudes and behaviors on the other. In 
short, mobilizing our population to adopt energy-smart behaviors and 
technologies will require the insights provided by social and 
behavioral scientists. These insights need to become a larger part of 
the efforts at the U.S. Department of Energy.
    Such an approach should provide widespread and accelerated 
research, experimentation, and application of behavior-related 
initiatives as well as policy initiatives that recognize the well-
documented limitations of the techno-economic model and the need to 
integrate behavioral considerations broadly into existing programs and 
policies.

Introduction

    My name is Karen Ehrhardt-Martinez. I am a Research Associate in 
the Economic and Social Analysis Program at the American Council for an 
Energy-Efficient Economy (ACEEE), a nonprofit organization dedicated to 
increasing energy efficiency as a means of promoting economic 
prosperity, energy security, and environmental protection. I am here 
today at the invitation of the House Science and Technology 
Subcommittee on Energy and Environment to discuss the role of the 
Department of Energy's research programs in developing technologies and 
standards to enable deployment of net-zero energy buildings and, in 
particular, to highlight R&D areas which need continued attention to 
achieve the goals of the DOE net-zero energy buildings program and 
beyond.
    I would like thank you for the opportunity to testify here today 
and I applaud the Committee for its interest in identifying R&D areas 
that need continued attention to achieve the goals of the DOE's 
programs.
    There is no question that the DOE Building Technologies Program has 
achieved significant energy savings through its unique combination of 
efforts, including (but not limited to) their work on developing 
standards for appliances and commercial equipment, and establishing 
building energy codes, and more recent efforts at achieving marketable 
net-zero energy commercial buildings by 2025. Nevertheless, today's 
buildings continue to consume more energy than any other sector of the 
U.S. economy--more than transportation and more than industry. And the 
potential building-related energy savings continue to be large. Whether 
we are talking about improving the energy efficiency of existing 
buildings or new construction, the efforts of the DOE Building 
Technologies Program offer the opportunity of substantial energy 
savings.
    An important part of what makes the Building Technologies Program 
work so well is their active partnership with the private sector, State 
and local governments, national laboratories, and universities, and 
their work to not only improve the efficiency of buildings but also the 
equipment, components, and systems within them. These efforts include 
developing more energy-efficient technologies associated with building 
envelopes, equipment, lighting, and windows, as well as the use of 
advanced sensors and controls and other high-tech means of managing 
energy use (DOE, 2008).
    The primary driver of the Program's activities is the DOE's zero 
energy building research initiative.\1\ Importantly, the goal of 
achieving zero energy buildings necessarily requires extreme energy 
efficiency in all aspects of building design and construction, 
equipment choice, and building and equipment operation. Unless all of 
these areas are adequately addressed, the concept of zero energy 
buildings is unlikely to be achieved in practice.
---------------------------------------------------------------------------
    \1\ Zero energy buildings produce as much energy as they use over 
the course of a year.
---------------------------------------------------------------------------
    While the strengths of the existing program are many, there are 
unfortunately also some weaknesses. And as is common to most programs 
at DOE, there is an substantially insufficient amount of attention paid 
to the human dimensions of energy consumption and energy efficiency. 
This shortcoming is associated with a long history of technology-
centric programs that have failed to achieve their technological 
potential in terms of energy savings. A more effective approach must 
recognize the importance of the human element and work with social and 
behavioral scientists to effectively address it through behavior-
oriented programs.

The Two Gaps: Efficiency Potential, Attitudes, and Behaviors

    Among the potential benefits of behavior-oriented programs and 
research is the promise it holds for explaining, understanding, and 
addressing the two most important gaps that persist in maximizing 
energy efficiency and reducing energy consumption. More specifically, 
behavior-based programs can help identify solutions for closing: (1) 
the energy efficiency gap (the gap between the potential, cost-
effective, energy efficiency investments and those investments actually 
made); and (2) the attitude-behavior gap (the gap between favorable 
attitudes toward energy efficiency and less favorable behaviors).
    According to several ACEEE studies of the unrealized energy 
efficiency potential associated with existing technologies, the first 
gap represents lost energy savings of 30 percent or more with current 
technologies. Similarly, studies of prevailing attitudes and behaviors 
suggest that while people are often aware of the economic and 
environmental benefits of investing in energy-efficient technologies 
and behaviors, a variety of social, cultural, and economic factors 
frequently intervene so as to severely limit the number of individuals, 
households, and businesses that actually follow through on their 
intended actions, resulting in additional efficiency losses. For 
roughly 30 years, numerous researchers have attempted to identify the 
causes behind the energy efficiency gap (although primarily from an 
economic perspective) attributing the gap to various market barriers, 
transaction costs, and (in part) to consumer attitudes and preferences 
(Sanstad et al., 2006; Stern and Aronson, 1984). Among social 
scientists there has been a parallel effort to explain the gap between 
favorable environmental attitudes and less favorable behaviors (Dunlap, 
2008). An example of this second gap can be illustrated using recent 
Gallup poll research that indicates that while more than three-quarters 
(77 percent) of Americans personally worry (either a fair amount or a 
great deal) about the availability and affordability of energy and 85 
percent report that they ``should be spending thousands of dollars to 
increase the energy efficiency of their homes,'' less than two percent 
of the population is actually acting on these concerns in any 
significant way. Despite the high level of concern about energy and 
global climate change, people aren't taking advantage of the potential 
for cost-effective energy savings.

Rational Economic Actors and the Need for a Behavioral Toolkit

    Most efforts to date have approached the challenge of maximizing 
potential energy savings exclusively through a techno-economic 
framework of change (Parnell and Popovic Larsen, 2005). Since 1970, 
both theoretical and practical models of energy-related behavior have 
focused on reducing energy use as a function of developing the right 
technologies, making them available at the right price and then 
promoting them to consumers by espousing their ``rational'' economic 
benefits.\2\ Underlying the techno-economic model are the assumptions 
that growth in energy consumption is best solved through the 
application of new technologies and that energy consumption and 
technology adoption behaviors are best understood in terms of a set of 
economic calculations involving the price of energy, the cost of 
technologies, and the level of disposable income. In this context, 
people are portrayed as rational economic decision-makers who will 
behave in predictable ways when confronted with changes in energy 
prices within a given market setting. Moreover, the model also suggests 
that the prevalence of energy-efficient behaviors and choices may be 
enhanced most effectively through the introduction of carefully crafted 
economic incentives and disincentives (Archer et al., 1987). Finally, 
the model suggests that consumers, when presented with information 
about the economically-desirable package, will act to increase their 
net benefit.
---------------------------------------------------------------------------
    \2\ Note: One especially interesting observation is that although 
most people easily recognize that social and behavioral approaches to 
energy savings are more complex than traditional technology-based 
approaches, behavior-based approaches have consistently received 
substantially less funding.
---------------------------------------------------------------------------
    According to the techno-economic model, the primary barriers to the 
transfer of energy-efficient technologies are 1) the lack of more 
efficient technologies, 2) the lack of sufficient economic incentives, 
and/or 3) the lack of timely, sufficient, or even accurate and complete 
information. While these factors are undoubtedly important, and while a 
cursory evaluation suggests that programs using this approach have 
achieved some success, their success has been significantly limited as 
a result of the narrow focus on the techno-economic model and the 
flawed assumptions on which it is based (Parnell and Popovic Larsen, 
2005).
    Not surprisingly, the assumption that individuals are economically-
rational actors has been regularly called into question. For example, 
in a study of solar technology adoption, Archer et al. (1987, p. 78) 
found that, ``information indispensable to even gross cost calculations 
was, in fact, absent'' in people's assessments. Similarly, in a study 
of vehicle purchase decisions, Turentine and Kurani (2006) found that 
``even the most financially skilled'' consumers did not use payback 
calculations as part of their vehicle purchase decision-making. Archer 
et al. (1987) concluded that ``this result appears to contradict a 
central tenet of the rational model''--namely, the economic rationality 
of the decision-making process. Similarly, in a study of consumer 
intentions to conserve energy, Feldman (1987, p. 39) finds that, 
``avoided costs and implicit discount rates are probably not useful 
concepts for describing the behavior of the general public . . .'' and 
concludes that it is dangerous to assume that energy consumers operate 
as rational investors. Moreover, Stern and Aronson (1984, p. 61) argue 
that ``there is a problem with the very notion of users as investors'' 
because people generally don't conceptualize energy and energy-using 
equipment only as investments. For example, when people purchase a car, 
they are concerned with a variety of characteristics including 
performance, reliability, safety, styling, status, resale value and 
fuel-efficiency, but the primary emphasis may be on any one of these 
factors. As an example, evaluations of utility-sponsored incentive 
programs promoting home retrofits have shown that even when utilities 
offered rebates that covered as much as 93 percent of the retrofit 
costs, only five percent of people actually decided in favor of having 
the retrofits done.
    The persistent and overly narrow focus on economic considerations 
often results in the oversimplification of the decision-making process 
and the exclusion of social, psychological and other variables that 
have proven essential in understanding individual and organizational 
behavior. In fact, social and behavioral research consistently shows 
that people and organizations are both overtly and subconsciously 
influenced by a variety of non-economic variables including their 
values, beliefs, and attitudes, as well as prevailing social norms, 
group norms and interpersonal dynamics. As such, the need for increased 
behavioral research is real and the potential energy savings are 
significant.
    In order to unlock these potential savings, research on energy-
efficient technologies and practices would clearly benefit greatly from 
the adoption of a behavioral toolkit. Such a toolkit would include the 
use of insights from a variety of social and behavioral fields 
including sociology, psychology, anthropology, demography, public 
policy, behavioral economics, marketing, and communications. Notably, 
these types of insights are increasingly being shared among those 
people working in these fields of study. In fact their efforts to 
develop more extensive networks of collaboration have recently been 
catalyzed through the development of an annual conference on Behavior, 
Energy and Climate Change (BECC). This year will mark the third annual 
BECC Conference that will bring together more than 700 policy-makers, 
social scientists, and researchers, as well as representatives of 
government agencies, utilities, cities, businesses and non-profits to 
focus on understanding human behavior and decision-making in order to 
improve energy efficiency research, policy design and program 
effectiveness and to accelerate our transition to a low-carbon economy. 
Importantly, this year's conference will be held in Washington, D.C., 
allowing for the broad participation and involvement of national 
policy-makers, Hill staff, DOE and EPA staff, and representatives of 
the many national labs. This is a unique opportunity to catalyze DOE's 
work in this area. This year's BECC Conference will be held at the 
Marriott Wardman Park Hotel on November 15-18, 2009.\3\ An overview of 
prior conference insights in provided by Ehrhardt-Martinez (2008).
---------------------------------------------------------------------------
    \3\ More information is available on the BECC Conference web site 
at www.BECCconference.org

The Behavior Continuum and the Size of Potential Behavior-Related 
                    Savings

    An amazing variety of behavioral influences have contributed to the 
historical gains in energy efficiency that have already been achieved, 
but to what degree can a more concerted effort to integrate behavioral 
insights achieve even greater returns in terms of additional energy 
savings? This section (1) provides an example of the dramatic behavior-
related energy savings achieved in Juneau, Alaska; (2) describes the 
range of relevant, energy-smart behaviors that comprise what we call 
the Behavior Energy Response Continuum; and (3) discusses the range of 
potential savings associated with energy-smart behaviors--behaviors 
that both drive new innovations and that change the patterns of 
technology adoption and energy service demands.

Powering Down in Juneau, Alaska

    What can we learn from actions taking during energy emergencies? 
The experiences of the city and residents of Juneau, Alaska can teach 
us how large and how quickly energy savings can be achieved through 
behavioral change when people get serious about the task at hand. In 
April 2008, an avalanche damaged a major electrical power line near 
Juneau, cutting power to the city's 30,000 residents. Following the 
avalanche, the city was forced to rely on a bank of diesel-powered 
generators to supply its power. Within two weeks, Juneau had cut its 
energy consumption by about 20 percent, and by the end of May 
electricity use was down 40 percent (Berkeley Lab News Center, 2008).
    The massive and coordinated effort to cut electricity consumption 
included quick energy audits of the city's low-income housing and local 
businesses, a public campaign to engage people in the cause, an effort 
to identify and unplug items that needlessly draw power even when 
turned off, a campaign to replace incandescent bulbs with compact 
fluorescents, and identification of unnecessary municipal electricity 
use. In addition, the local utility provided regular feedback to the 
public, charting the city's progress in reducing energy use (Berkeley 
Lab News Center, 2008).
    These efforts were geared toward making energy conservation more 
than just socially acceptable--instead they attempted ``to suggest that 
conservation was expected.'' The essential message was that in order to 
be a good citizen, you needed to conserve energy (Berkeley Lab News 
Center, 2008).
    The lesson? A city of 30,000 people was able to cut electricity 
consumption by 40 percent in approximately six weeks. So, what might be 
possible society-wide given the right motivation, the right programs, 
and the right incentives? Even five months after the power lines were 
restored, the city's electricity consumption remained eight percent 
below consumption levels for the prior year (NPR, 2008). A variety of 
similar examples of dramatic, behavior-based energy savings have been 
documented by Alan Meier in his book, Saving Energy in a Hurry (Meier, 
2005). While these examples are useful for illustrating the scope of 
potential behavior-related savings, the exceptional circumstances are 
likely to influence consumers' general willingness to participate in 
energy saving behaviors. Nevertheless, the examples do suggest that 
more concerted programs could significantly increase energy savings.

The Behavior Continuum

    The real debate isn't about whether behavior has contributed to the 
dramatic reductions in energy consumption growth rates in the U.S. 
Instead it is about the need to recognize behavior as an important but 
often overlooked resource for achieving large-scale reductions in 
energy consumption and carbon emissions. Unfortunately, some energy 
professionals continue to suggest that while behavior-oriented programs 
may provide a useful way to help deploy smart technologies, they are 
best thought of as boutique or niche strategies which are most suitably 
employed to enhance an otherwise technology-focused deployment of more 
energy-productive investments. Nevertheless, research on this topic 
suggests that sizable energy savings and efficiency gains are likely to 
be achieved by addressing the human dimensions of energy consumption, 
energy efficiency and energy conservation.
    In fact, past analyses by the American Council for an Energy-
Efficient Economy (ACEEE), and by well-known researchers like Gerald 
Gardner, Paul Stern, and others suggest that understanding and shaping 
behaviors can provide a significant savings. (See Gardner and Stern et 
al., 2008; and Laitner et al., 2009.) Indeed, recent, albeit 
preliminary, assessments by ACEEE researchers indicate that ``the 
behavioral resource'' might provide as much as a 25 percent efficiency 
gain (possibly more) above normal productivity improvements. Similarly, 
utilities and energy research organizations are increasingly working to 
integrate behavior-change programs and practices into their larger 
portfolio of activities with the goal of reducing costly energy 
production and consumption and carbon emissions.
    As such, the Behavior Continuum was designed to illustrate the 
range and potential impact of changed habits, lifestyles and 
technology-based behaviors in terms of the potential energy savings 
within the United States. Although the recent implementation of the 
Behavior Continuum has been focused on identifying and assessing 
energy-smart behaviors in the residential sector (including personal 
transportation uses within the control of households), future 
assessment will also include behavior-related energy saving in the 
commercial and industrial sectors as well.
    The Behavior Energy Response Continuum is a means of estimating the 
energy savings that could be achieved if new energy-wise habits (i.e., 
building and equipment operation practices and maintenance) became the 
norm, and if new energy-wise lifestyles and choices were encouraged by 
smart policies oriented toward reducing energy consumption. The 
Behavior Continuum ranges from habits and lifestyles on one end, to 
technology choices on the other. The middle of the Continuum includes a 
variety of infrequent, low-cost and no-cost behaviors that can reduce 
energy consumption including weather-stripping and caulking and 
insulating ducts or ensuring adequate space between the refrigerator 
and the wall (Ehrhardt-Martinez et al., 2009). See Figure 1 below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In terms of the residential sector alone, preliminary research at 
the national level suggests that changed behaviors offer potential 
reductions of 20-25 percent of current levels of residential energy 
consumption over perhaps a five- to eight-year period within the United 
States.
    Moreover, in a recent application of the Behavior Energy Response 
Continuum for the State of Wisconsin, the potential impact of behavior-
oriented programs (focused on addressing individual habits, lifestyles, 
and technology choices) indicated a potential doubling of the projected 
residential sector energy savings opportunities (Ehrhardt-Martinez et 
al., 2009). More specifically, the Wisconsin estimates (based on 
Wisconsin-specific energy data) indicated that behavior-oriented 
programs held the potential of reducing residential energy consumption 
in Wisconsin by as much as 18 percent by 2012, or 38 trillion Btus. As 
such, a more comprehensive behavior program could result in savings 
that are more than twice as large as those associated with standard, 
technology-oriented approaches by generating a broader range of energy-
smart behaviors, by eliciting a greater level of responsiveness among 
``traditional program'' participants, and by driving a greater level of 
spill-over among non-participants throughout Wisconsin.
    The use of the behavior continuum is one means of identifying the 
numerous types of behavior-related energy savings opportunities and 
developing a more comprehensive estimate of potential behavior-related 
energy saving. Importantly, the Behavior Continuum and the results from 
the associated analysis challenge traditional approaches to energy 
efficiency programs that tend to marginalize behavior-oriented programs 
by characterizing them as boutique or niche strategies that can only 
round out a technology-based deployment of more energy-productive 
investments. The application of the Behavior Continuum suggests the 
contrary; that behavior-related programs offer potential energy savings 
on a surprisingly large scale--one that rivals a pure technology based 
perspective in terms of expected efficiency gains.

Levels of Intervention and Recommendations

    Even with all this good news about the potential for using social 
and behavioral insights for generating larger reductions in energy use, 
it is important to recognize that these savings will not occur without 
consciously and deliberately incorporating social and behavioral change 
as an explicit initiative within D.O.E. programs.
    Such an initiative would ideally apply relevant behavioral insights 
through a variety of intervention levels including:

        <bullet>  behavior-smart policies,

        <bullet>  an improved understanding of the ways in which people 
        both shape and are shaped by their physical environment,

        <bullet>  a recognition of the opportunities and constraints 
        associated with existing social structures, cultural norms and 
        values, and other socio-cultural considerations,

        <bullet>  a recognition of interpersonal and psychological 
        factors associated with motivating and constraining behavioral 
        change.

    At the policy level, for example, behavioral interventions could 
help design more effective policies by taking advantage of the current 
cognitive dispositions that have been shown to be prevalent across the 
population. Many of these approaches are explored in the field of 
behavioral economics. For example, when faced with making a decision 
about which building features or equipment to include in various 
builders packages, the structure of those decisions is likely to play 
an important role in the ultimate decision made by the consumer. By 
structuring the decision such that consumers need to opt-out as oppose 
to opt-in to the choice of energy efficient designs and equipment, a 
much larger proportion of new home buyers are likely to incorporate 
energy efficient features in their new homes. The work of Carrie Armel 
(at the Precourt Energy Efficiency Center at Stanford University), Cass 
Sunstein (Thaler and Sunstein, 2008) and other researchers suggest that 
people tend to have a lot of inertia when it comes to decision-making. 
Armel uses the example of automobile drivers faced with the decision of 
donating their organs. Participation in such programs tends to be about 
20 percent in countries where the default option is NOT donating 
(therefore participants are required to opt-in) compared to a 
participation rate of 80 to 90 percent in countries where the default 
option is to participate (therefore participants are required to opt-
out). See Thaler and Sunstein (2008) for additional examples.
    In terms of the built environment and buildings in particular, 
social and behavioral insights can play an important role in 
determining and emphasizing the many non-energy benefits of energy-
efficient designs and equipment. For example, natural daylighting and 
greenery have been shown to increase productivity, while equipment 
designed from the users perspective (with the help of social and 
anthropological insights) have been shown to reduce operator error, 
increase the proper usage, and maximize energy savings. According to 
Armel (2008), there is an enormous body of literature in cognitive 
science speaking to issues of how we can improve users' performance, 
yet often this knowledge fails to be incorporated into design.
    Socio-cultural and interpersonal interventions recognize the 
importance of social institutions and culture, norms, and networks in 
the shaping of individual and organizational behaviors. And there are 
an increasing number of examples of energy programs that are 
successfully incorporating some of these socio-cultural insights into 
their efforts to increase the adoption and diffusion of energy-
efficient technologies. Some examples include Project Porchlight which 
uses several different social insights to encourage the adoption of 
compact fluorescent light bulbs in Canada, and the ENERGY STAR 
program's Change a Light Campaign. Interestingly, both of these 
programs use social networks, commitment, norms, and feedback to 
promote the adoption of energy-efficient light bulbs. And both have 
been structured using the principles of community-based social 
marketing which readily overlap with elements of an approach rooted in 
a concern for social, rather than economic, rationality. (See Ehrhardt-
Martinez et al., 2009).
    The ENERGY STAR Change a Light Campaign, led by the U.S. EPA, 
requires participants to pledge to change at least one light bulb in 
their house with one that has earned the ENERGY STAR. Individuals and 
organizations can participate by logging on to the ENERGY STAR web 
site\4\ and specifying how many light bulbs they plan to change. 
Individuals can also become ``pledge drivers'' by committing to get 
their community or organization involved in the campaign and committing 
to promoting the change of at least 100 light bulbs. Participants 
provide their name, zip code and organizational affiliation, allowing 
pledge drivers and EPA staff to track their progress and access 
established social networks to promote change and establish new social 
norms. The progress of each organization is tracked online-observable 
for all to see. The public tracking prompts passive competition among 
pledge drivers and presents an opportunity to recognize top performers. 
Moreover, the web site offers special resources for teachers, retailers 
and government leaders to work with students, consumers, and 
communities.
---------------------------------------------------------------------------
    \4\ http://www.energystar.gov/index.cfm?fuseaction=cal.showPledge
---------------------------------------------------------------------------
    Project Porchlight is a similar initiative run by a Canadian non-
profit organization called One Change based in Ottawa, Ontario. The 
campaign works with Hydro Ottawa, the City of Ottawa, volunteers and 
other partners to effect social and environmental change. The original 
goal of the campaign was to get 200,000 households in Ottawa to change 
at least one inefficient incandescent light bulb to one energy-
efficient CFL by providing residents with a free light bulb. By using 
existing networks, the project encourages local action in neighborhoods 
and within groups by working with group members who deliver light bulbs 
door to door. Light bulb recipients make a commitment to their 
neighbors that they will install the light bulb (preferably in a 
prominent place) as a symbol of their commitment to the effort; an 
action which also provides a first step in shaping their identity as 
someone who is willing to take action to reduce their environmental 
impact (One Change, 2008). Early in 2008, the project successfully 
surpassed their revised goal of delivering more than one million 
energy-efficient bulbs.
    According to McKenzie-Mohr and Smith (2007), direct appeals that 
ask people to commit to take a specific action achieve higher levels of 
behavior change. If a person agrees to take a specific action, they are 
likely to follow through on it, especially if the commitment has been 
made publicly. They state that because human beings have a need to 
appear consistent, we are likely to agree to future similar requests 
for our commitment as well. This holds true even if the next request is 
larger, occurs after much time has passed, and comes from a different 
group than that of the initial request. Agreeing to the first request 
is actually thought to alter how one sees oneself, and in an enduring 
way.
    Social and behavioral insights can also be used to change behaviors 
associated with habits and lifestyles. For example, several studies 
have explored the role of social norms in determining environmentally 
responsible behaviors. In 1990, Cialdini et al. investigated the effect 
of norms on individuals' decisions to despoil the environment. In the 
study, ``participants were given the opportunity to litter in either a 
previously clean or fully littered environment after first witnessing a 
confederate who either dropped trash into the environment or simply 
walked through it.'' Cialdini et al. hypothesized that: 1) participants 
would be more likely to litter in the already littered environment than 
into a clean one; 2) participants who witnessed the confederate drop 
trash into a fully littered environment would be the most likely to 
litter there themselves because their attention would be drawn to the 
pro-littering descriptive norm; and 3) participants who saw the 
confederate drop trash into a clean environment would be least likely 
to litter there, because their attention would be drawn to evidence of 
an anti-littering descriptive norm. In fact, the study found that 32 
percent of the participants littered in the littered environment 
without the confederate while 54 percent of participants littered in 
the same environment when the confederate did litter. The third 
hypothesis was also supported by the finding that only 14 percent of 
participants littered in the clean environment when the confederate did 
not litter, while a mere six percent of participants littered in the 
same environment when the confederate littered.
    In a more recent study of energy conservation, Schultz et al. 
(2007) investigated ``respondents' views of their reasons for 
conserving energy at home as well as reports of their actual 
residential energy saving activities such as installing energy-
efficient appliances and light bulbs, adjusting thermostats, and 
turning off lights.'' A study of the relationship between participants' 
stated reasons for saving energy and their energy saving actions 
indicated that conservation behaviors were most strongly correlated 
with the perception that other people were participating. According to 
Schultz, ``this belief that others were conserving correlated twice as 
highly with reported energy saving efforts than did any of the reasons 
that had been rated as more important personal motivators.'' This work 
has recently been taken one step further through a number of innovative 
program designs being implemented through some electric utilities. In a 
recent review of Positive Energy's work in this area, the application 
of social norms and other behavioral insights was found to be effective 
in generating a two to three percent reduction in energy consumption 
during a nine-month implementation period.
    Social and behavioral insights can both enable technology-based 
energy savings and provide additional savings through the development 
of energy-wise habits, decisions and lifestyles. Importantly, these 
types of approaches offer low-cost options for achieving dramatic 
energy savings. Unfortunately they are largely missing from existing 
DOE initiatives.
    As stated in the introduction to this testimony, the primary driver 
of the Building Technologies Program activities is the D.O.E. zero 
energy building research initiative.\5\ In order to meet the 
initiative's goal of achieving zero energy buildings, every effort will 
need to be made to achieve the extreme energy efficiency goals in 
building design and construction, equipment choice, and building and 
equipment operation. Social and behavioral research and insights will 
be a critical component in meeting these goals. As such, it is 
imperative that:
---------------------------------------------------------------------------
    \5\ Zero energy buildings produce as much energy as they use over 
the course of a year.

        <bullet>  D.O.E.'s work more adequately address the human 
        elements that are integral to achieving their energy-efficiency 
---------------------------------------------------------------------------
        goals,

        <bullet>  support and learn from the work of social and 
        behavioral scientists,

        <bullet>  develop a social and behavioral initiative as part of 
        their own work, and

        <bullet>  provide financial support in order to expand on 
        existing research in this field of study.

    The long history of technology-centric programs has failed to 
substantially narrow the gap between the energy saving potential of 
existing cost-effective technologies and actual levels of energy 
savings. Social and behavioral insights can help close that gap if 
we're willing to invest in them.

Conclusions

    The full array of evidence provided in this testimony suggests that 
more research and development is needed to explore, develop and apply 
social and behavioral insights and interventions. Similarly, evidence 
provided herein also suggests that such insights and initiatives offer 
the possibility of a significantly improved effectiveness of D.O.E.'s 
building technologies initiatives as well as increased energy savings.
    Behavior-related approaches represent an essential component of 
energy and climate change efforts. In fact, the principal drivers of 
our current energy and climate challenges are human choices, behaviors, 
and lifestyles. As such, they must also be an essential part of any 
attempt to address these challenges, if we hope to be successful in our 
efforts. In other words, human and organizational behavior are a 
critical component of both the causes of, and solutions to, our energy 
and climate problems.
    While the DOE's initiatives will undoubtedly benefit greatly from a 
more systematic and widespread incorporation of social and behavioral 
insights, this will not happen without increased funding for associated 
research and development.
    Such an effort would go a long way toward closing the gaps that 
currently exist between: potential and actual energy savings on the one 
hand and between favorable attitudes and less-favorable behaviors on 
the other. In short, mobilizing our population to adopt energy smart 
behaviors and technologies will require the insights provided by social 
and behavioral scientists. These insights need to become a larger part 
of the efforts at the U.S. Department of Energy.

References

Archer, D., T. Pettigrew, M. Costanza, B. Iritani, I. Walker, and L. 
        White. 1987. ``Energy Conservation and Public Policy: The 
        Mediation of Individual Behavior.'' In Energy Efficiency: 
        Perspectives in Individual Behavior. Washington, D.C.: American 
        Council for an Energy-Efficient Economy.

Armel, Carrie. 2008. ``Behavior and Energy.'' A presentation prepared 
        for the 2008 Behavior, Energy and Climate Change Conference. 
        Stanford, CA: Precourt Energy Efficiency Center, Stanford 
        University.

Berkeley Lab News Center. 2008. ``Powering Down in Juneau.'' Berkeley 
        Lab News Center (June 17, 2008). Available online at: 
        www.lbl.gov/public info/newscenter/features/2008/EETD-
        alaska.html

Cialdini, R.B., R.R. Reno, and C.A. Kallgren. 1990. ``A Focus Theory of 
        Normative Conduct: Recycling the Concept of Norms to Reduce 
        Littering in Public Places.'' Journal of Personality and Social 
        Psychology 58:1015-1026.

[DOE] Department of Energy, Building Technologies Program. 2008. 
        ``About the Program.'' Information available online at: http://
        www1.eere.energy.gov/buildings/index.html

Dunlap, Riley. 2008. ``Climate-Change Views: Republican-Democratic Gaps 
        Expand.'' Princeton, NJ: Gallup.

Ehrhardt-Martinez, Karen; Laitner, John A. ``Skip'' and Vanessa 
        McKinney. 2009. ``Wisconsin Behavior Energy Response Continuum: 
        Extending Program Capacity to Deliver Energy Efficiency 
        Benefits.'' A report prepared for the Energy Center of 
        Wisconsin. Washington, D.C.: American Council for an Energy-
        Efficient Economy.

Ehrhardt-Martinez, Karen and John A. ``Skip'' Laitner. 2009. ``Breaking 
        out of the Economic Box: Energy Efficiency, Social Rationality 
        and Non-economic Drivers of Behavioral Change.'' Paper prepared 
        for the 2009 ECEEE Summer Study. Stockholm, Sweden: European 
        Council for an Energy-Efficient Economy.

Ehrhardt-Martinez, Karen. 2008. ``Behavior, Enery and Climate Change: 
        Policy Directions, Program Innovations, and Research Paths.'' 
        Washington, DC: ACEEE.

Feldman, S. 1987. ``Why is it So Hard to Sell 'Savings' as a Reason for 
        Energy Conservation?'' In Energy Efficiency: Perspectives in 
        Individual Behavior. Washington, D.C.: American Council for an 
        Energy Efficient Economy.

Gardner, Gerald T. and Paul C. Stern. 2008. ``The Short List: The Most 
        Effective Actions U.S. Households can take to Curb Climate 
        Change.'' Environment 50(5), 12-24.

Laitner, John A. ``Skip,'' Ehrhardt-Martinez, Karen, and Vanessa 
        McKinney. 2009. ``Examining the Scale of the Behavior Energy 
        Efficiency Continuum.'' ECEEE Summer Study paper. Stockholm, 
        Sweden: European Council for an Energy-Efficient Economy.

McKenzie-Mohr, Doug and William Smith. 2007. Fostering Sustainable 
        Behavior: An Introduction to Community-Based Social Marketing. 
        Gabriola Island, British Columbia: New Society Publishers.

Meier, Allen. 2005. Saving Energy in a Hurry: Dealing with Temporary 
        Shortfalls on Electricity Suppliers. International Energy 
        Agency: OECD Publishing.

[NPR] National Public Radio. 2008. ``With Juneau's Power Restored, 
        Conservation Drops.'' Morning Edition. (August 15, 2008) 
        Washington, D.C.: National Public Radio.

One Change. 2008. ``Project Porchlight.'' Available online at: http://
        www.projectporchlight.com/

Parnell, R. and O. Popovic Larsen. 2005. ``Informing the Development of 
        Domestic Energy Efficiency Initiatives: An Everyday 
        Householder-Centered Framework.'' Environment and Behavior 
        37(6):787-807.

Sanstad, Alan, W. Michael Hanemann, and Maximillian Auffhammer. 2006. 
        ``End Use Energy Efficiency in a ``Post Carbon'' California 
        Economy'' (Ch 6) in Managing Greenhouse Gas Emissions in 
        California. Berkeley, CA: The California Climate Change Center, 
        UC-Berkeley.

Schultz P.W., J.M. Nolan, R.B. Cialdini, N.J. Goldstein, and V. 
        Griskevicius. 2007. ``The Constructive, Destructive, and 
        Reconstructive Power of Social Norms.'' Psychological Science 
        (May).

Stern, P.C. and E. Aronson. 1984. Energy Use: The Human Dimension. New 
        York, NY: W.H. Freeman and Company.

Thaler, Richard H. and Cass R. Sunstein. 2008. Nudge: Improving 
        Decisions about Health, Wealth, and Happiness. New Haven, CT: 
        Yale University Press.

Turrentine , Thomas S. and Kenneth S. Kurani. 2006. ``Car Buyers and 
        fuel economy?'' Energy Policy 35:1213-1223.
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                 Biography for Karen Ehrhardt-Martinez
    Karen Ehrhardt-Martinez is a Research Associate with the American 
Council for an Energy-Efficient Economy (ACEEE). With more than 15 
years of experience in academic and applied research, Karen currently 
works in the Economic and Social Analysis Program at ACEEE were she is 
responsible for leading the organization's efforts on the social and 
behavioral dimensions of energy efficiency and environmental change. 
Karen is currently serving as the Conference Chairman for the 2009 
Behavior, Energy and Climate Change Conference to be held November 
15th-18th in Washington, D.C. Karen has a Ph.D. and M.A. in Sociology 
from The Ohio State University and a Bachelor's degree in International 
Studies.

    Chairman Baird. Thank you very much, Doctor.
    Dr. McQuade.

  STATEMENT OF DR. J. MICHAEL MCQUADE, SENIOR VICE PRESIDENT, 
    SCIENCE AND TECHNOLOGY, UNITED TECHNOLOGIES CORPORATION

    Dr. McQuade. Good morning, Mr. Chairman, Ranking Member 
Inglis and Members of the Committee. Thank you for the 
opportunity to be here today. I am Michael McQuade, Senior Vice 
President for Science and Technology from United Technologies 
Corporation. I am pleased to share my thoughts about the need 
and opportunity to invest in basic research in building system 
science to dramatically reduce the energy consumed and carbon 
emitted by buildings.
    We are very pleased with President Obama's commitment to a 
robust R&D agenda as expressed in his remarks yesterday at the 
National Academy of Sciences. We believe that the investments 
in building system science described here align directly with 
his vision and can be aggressively accomplished within the DOE 
portfolio of ARPA-E, EERE and the Office of Science.
    We believe it is vital to pursue basic research in 
mathematical and computational capabilities to optimize the 
design, construction, commissioning and operation of complex 
buildings, in systems, sciences and whole-building approaches 
and in multi-institutional national laboratory, academia and 
industrial partnerships to prototype and demonstrate this 
science and technology in real buildings across multiple real 
applications. Investments in the range of $50 million per year 
for five years will lead to deployable science, technology and 
products that will ensure that the full potential of energy 
savings are captured over the useful life of buildings. This is 
a critical initiative to reducing energy consumption, decrease 
greenhouse gas emissions and improve this country's energy 
security.
    United Technologies is a $55 billion global aerospace and 
building infrastructure technology-driven company. As one of 
the leading suppliers to the built environment, we are keenly 
aware of, and interested in, the role that buildings play in 
energy and climate. As we have said multiple times today, 
buildings consume about 40 percent of the energy used in the 
United States and are responsible for nearly 40 percent of the 
greenhouse gas emissions. To put this in perspective, a 50 
percent reduction in building energy consumption in the United 
States is equivalent to removing the carbon emissions from 
every car and light truck on the road today in the United 
States. These are very big numbers and they represent very big 
opportunities.
    UTC is a co-chair of the 14-company World Business Council 
for Sustainable Development Project on Energy Efficiency in 
Buildings. Yesterday this project released the first results 
from a landmark study on actions needed for reducing building 
energy consumption and the resulting carbon emissions. Among 
the key findings is that a transformation of the building 
industry is essential and achievable if we are to reach the 
nearly 80 percent reduction in carbon emissions called for by 
the Intergovernmental Panel on Climate Change. This study 
documents that significant progress can be made against this 
goal with cost-effective deployment of energy-efficient 
components based on known technologies at market-acceptable 
investment costs. However, if we are to reach the full 80 
percent reduction goal, we need new science that treats 
buildings as complex systems of interactive components coupled 
to their occupants and to their external environment.
    A recent DOE study cited six examples of high-performance 
buildings whose design intent was to deliver as much as 80 
percent more efficient energy use than standard buildings. 
Through sub-optimal integration during the construction and 
operation phase, these buildings actually delivered less than 
half this desired performance. UTC recommends that DOE continue 
its vital public-private partnerships to address energy-
efficient building components, and at the same time it is 
essential to increase the research, development and deployment 
of the science needed to understand and optimize buildings as 
whole systems. With a deeper scientific base enabled by 
mathematics, computational science and control sciences, it is 
possible to combine energy-efficient components into 
intelligent and even more efficient systems so that whole 
buildings perform as designed and sustain that performance 
during a lifetime of operation.
    UTC is a major supplier of energy-efficient products, but 
we also are engaged in early-stage research in optimizing 
building systems. For example, UTC is part of a collaboration 
of national laboratory, academia and industry partners working 
to demonstrate advanced control and information systems on the 
campus of the University of California Merced's campus. This 
program, partially sponsored by the DOE's EERE office, is 
showing that through the use of advanced building control 
algorithms, an additional 10 to 15 percent energy consumption 
reduction in the campus cooling delivery system and up to a 20 
percent additional energy savings for campus building HVAC 
systems can be achieved.
    We believe that a vigorous investment in the range of $50 
million per year for five years will deliver significant new 
science that can be deployed into public and private built 
environments. This technology will serve as the basis for 
products that the private sector will develop to make highly 
efficient energy-efficient buildings the norm in the commercial 
marketplace.
    Energy efficiency and carbon reduction are critical 
strategies for climate control and energy security. The 
building sector represents a larger opportunity for greenhouse 
gas emission reductions than either the transportation or 
industry sectors. An enhanced national research strategy in 
building sciences coupled with the already strong DOE program 
in energy-efficient components for buildings will provide the 
foundation for industry to deploy market-driven solutions to 
reduce building energy. We look forward to working with 
Congress and the DOE to advance this critical national need.
    Thank you for the opportunity to be here today.
    [The prepared statement of Dr. McQuade follows:]
                Prepared Statement of J. Michael McQuade

Summary

    The building sector consumes about 40 percent of the energy used in 
the United States and is responsible for nearly 40 percent of 
greenhouse gas (GHG) emissions.
    In addressing GHG reductions in the building sector the Department 
of Energy (DOE), in collaboration with the private sector, should 
continue to develop and deploy energy efficient building components 
(lighting, heating, ventilation, air conditioning and other elements). 
At the same time, there is an important push for research and 
development in science and technology to understand and optimize a 
whole building via a ``systems'' approach that ensures that efficiency 
gains are properly designed and also sustained during building 
operation.
    UTC is one of the largest capital suppliers to the building 
industry worldwide. As such, the development of both sustainable and 
energy efficient products is of critical importance to UTC, its 
suppliers and the markets and customers that it serves. UTC takes an 
active industry role in addressing building energy usage. Key findings 
of the three-year World Business Council for Sustainable Development 
(WBCSD) project on Energy Efficiency in Buildings (EEB), for which UTC 
is a co-chair, are that transformation of the building industry is 
essential to achieving the 77 percent reduction of carbon emissions 
called for by the Intergovernmental Panel on Climate Change (IPCC). The 
transformation of the building sector to reach the carbon emissions 
goal can occur only through a combination of public policies, 
technological innovation and informed customer choices. These 
reductions require:

        <bullet>  Mandated federal building codes that recast 
        regulation for increased transparency on energy use; and

        <bullet>  Ensuring buildings operate as designed by developing 
        and using smart technology to enable and assure continued 
        energy saving behaviors.

    Among the key recommendations are:

        <bullet>  Creation and enforcement of building energy 
        efficiency codes and labeling standards

        <bullet>  Incentivizing energy-efficient investments

        <bullet>  Encouraging integrated design approaches and 
        innovations

        <bullet>  Funding energy savings technology development 
        programs

        <bullet>  Developing workforce capacity for energy saving

        <bullet>  Mobilizing for an energy-aware culture

    The current design, construction, commissioning and operation 
phases of the delivery process for buildings allows for efficiency 
decay that often fails to deliver optimal energy savings. Achieving 
approximately 80 percent energy reduction in buildings requires new 
research and development (R&D) investments in a systems approach to 
design and operations.
    Two types of R&D investments are needed to attack the sources of 
energy efficiency decay: (1) investments in computational capabilities 
with specific attention to modeling, analysis, simulation and control 
of buildings and (2) targeted programs to combine fundamental science & 
technology with market impact to address specific market verticals in a 
Defense Advanced Research Projects Agency (DARPA) style model of 
projects.
    The R&D initiatives to enhance building efficiency and 
functionality are only one element of a comprehensive national strategy 
to achieve net zero energy buildings. Other elements should include: 
the use of Energy Savings Performance Contracts (ESPC); mandated and 
regular energy audits; implementation of a national performance-based 
retrofit program; the establishment of a national energy efficiency 
standard; support for demonstrations and deployment of emerging 
technologies and products; education and workforce training; 
development of a building technology roadmap; and financial incentives.

Introduction

    As the House Science and Technology Committee considers R&D needs 
for high-performance buildings, United Technologies Corporation (UTC) 
offers recommendations on cost effective, innovative and 
environmentally friendly ways to address energy efficiency using a 
whole building or a ``systems'' approach.
    UTC ranks #37 on the latest Fortune 500 listing and is one of 30 
members of the Dow Jones Industrials. Our 2008 revenues were $58.7 
billion. UTC products include: Carrier heating, air conditioning and 
refrigeration; Otis elevators and escalators; Pratt & Whitney aircraft 
engines; Sikorsky helicopter; Hamilton Sundstrand aerospace systems and 
industrial products; UTC Fire & Security systems; and UTC Power fuel 
cells. We are a company of innovators and pioneers. Elisha Otis 
invented the safety elevator that made multi-story buildings usable; 
Willis Carrier invented modern air conditioning--just to mention two 
examples. So, as one of the largest suppliers to the global building 
industry and a leader in energy reduction, both in our own operations 
and through energy efficient innovations in our products and services, 
UTC brings a credible voice to the policy debate.
    UTC takes an active industry role in addressing building energy 
usage. As a co-chair of the three-year long World Business Council for 
Sustainable Development (WBCSD) project on Energy Efficiency in 
Buildings (EEB), along with thirteen other major multinational 
corporations representing various aspects of building design, 
construction, delivery and operations, UTC is working to identify the 
barriers, levers, and necessary actions to achieve market 
transformation and a much needed pathway to net zero energy buildings 
(NZEB)--those buildings that, over a period of a year, consume no 
energy. Among other important findings is the fact that professionals 
in the building industry have widely underestimated the impact of 
buildings on carbon emissions (by a factor of two) while significantly 
overestimating the cost of sustainable construction (by a factor of 
three). This knowledge gap is just one of several barriers to market 
transformation of the building sector.
    The EEB report released on April 27, 2009 finds that transformation 
of the building industry to achieve the IPCC 77 percent reduction of 
carbon emissions would require:

        <bullet>  Mandated building energy codes that recast regulation 
        for increased transparency on energy use; and

        <bullet>  Ensuring buildings operate as designed by developing 
        and using smart technology to enable and assure continued 
        energy saving behaviors.

    The EEB report recommendations can be summarized as:

        <bullet>  Create and enforce building energy efficiency codes 
        and labeling standards

                  Extend current codes and tighten over time

                  Display energy performance labels

                  Conduct energy inspections and audits on a regular 
                basis (not one time). This supports the continuous 
                commissioning process now gaining favor among advanced 
                energy users.

        <bullet>  Incentivize energy-efficient investments

                  Establish tax incentives, subsidies and creative 
                financial models to lower first-cost and technology 
                adoption hurdles

        <bullet>  Encourage integrated design approaches and 
        innovations

                  Improve contractual terms to promote integrated 
                design teams

                  Incentivize integrated team formation

        <bullet>  Fund energy savings technology development programs

                  Accelerate rates of efficiency improvement for 
                energy technologies

                  Improve building control systems to fully exploit 
                energy saving opportunities

        <bullet>  Develop workforce capacity for energy saving

                  Create and prioritize training and vocational 
                programs

                  Develop ``system integrator'' profession

        <bullet>  Mobilize for an energy-aware culture

                  Promote behavior change and improve understanding 
                across the sector

                  Businesses and governments lead by acting on their 
                building portfolios

Examples of UTC Energy Efficient Building Technologies

    Increasing efficiency in buildings boosts productivity through the 
reduction of energy costs. Developing better products that improve 
energy efficiency offers new market opportunities. In 2006, George 
David, at that time the CEO and Chairman of UTC, spoke at the WBCSD 
meeting in Beijing:

         ``The lessons I bring from UTC are that we can always reduce 
        costs and increase productivity and performance. The same is 
        true for environmental impacts and potentially to an even 
        greater degree because companies generally haven't worked at 
        these as hard as they have at costs and corporate 
        profitability. Remember that more than 90 percent of the energy 
        coming out of the ground is wasted and doesn't end as useful. 
        This is the measure of what's in front of us and why we should 
        be excited.''

    In addition to our collaborative efforts within the WBCSD, UTC is 
also engaged in developing energy efficient products for buildings 
including:

        <bullet>  Otis' Gen2 elevators with regenerative drives: Up to 
        75 percent more energy efficient than comparable equipment a 
        decade ago, the Gen2 sends its excess power back to the 
        building's electrical grid.

        <bullet>  Carrier's Evergreen tri-rotor screw chiller: The 
        world's most efficient water-cooled chiller delivers 40 percent 
        higher efficiency than current ASHRAE 90.1 efficiency 
        standards.

        <bullet>  Carrier and UTC Power's combined heat and power (CHP) 
        products: These products put ``waste heat'' from prime movers, 
        such as fuel cells and micro-turbines, to productive use by 
        driving heating, ventilation and air conditioning equipment, 
        boosting efficiency from around 33 percent based on the 
        individual components to nearly 80 percent in the total 
        integrated system. Locating the system at the point of use 
        allows the building to productively use the waste heat and 
        avoid transmission line losses. The on-site attribute is a key 
        component of optimizing the system's performance.

    A number of investments have been made at UTC and a number of 
federal and State programs that can be utilized to move to increased 
energy efficiency in buildings. The UTC experience in deploying and 
supporting energy efficient products to the global building sector and 
providing a range of energy services has convinced us that a systems 
approach will result in even greater gains.

Understanding Energy Losses in the Delivery Process: Targeting R&D

    Achieving energy savings through increasing building efficiency 
gains represents a tremendous opportunity. The building sector consumes 
about 40 percent of the energy used in the United States and is 
responsible for nearly 40 percent of greenhouse gas emissions. For 
comparison, the entire transport sector represents only 28 percent of 
energy use. A 50 percent reduction in buildings' energy usage would be 
equivalent to taking every passenger vehicle and small truck in the 
United States off the road. A 70 percent reduction in buildings' energy 
usage is equivalent to eliminating the energy consumption of the entire 
U.S. transportation sector. These levels of energy reduction in 
buildings are achievable but the United States today lacks the market 
drivers as well as the underlying science and technology infrastructure 
(including scientific and engineering workforce) to broadly realize 
these levels of efficiency improvements in cost-effective ways. Setting 
a targeted and aggressive R&D agenda is necessary to position the 
United States effectively and a well-executed R&D agenda is critical to 
increasing the competitive position of the United States.
    The building sector is made up of multiple stakeholders and 
decision-makers, including State & local government regulators, 
builders, architects, service and repair companies, owners, realtors, 
product manufacturers and energy suppliers. The delivery process for 
buildings can be divided into design, construction, and maintenance 
phases. It is important to highlight how energy efficiency losses occur 
in this process.\1\
---------------------------------------------------------------------------
    \1\ Throughout each of these stages, the influence of federal, 
State, and local regulation should be acknowledged. Current design and 
construction protocols, implemented through myriad building and other 
codes and regulations, can have an enormous impact on building energy 
performance.
---------------------------------------------------------------------------
    Owners, architects and architecture & engineering firms set the 
building design and consider their usage, aesthetics and the energy 
consumption. The design stage has the highest leverage in the overall 
delivery process by selecting the architecture and constraining the 
overall design space. The selection of design elements can 
significantly enhance--or limit--the ultimate performance depending on 
how these elements interact. For example, increasing daylighting can 
influence the amount of lighting that is needed which in turn affects 
the overall heating and cooling load. These interactions can alter the 
energy consumption in beneficial or detrimental ways.
    The next stage of delivery is construction. Here, components are 
considered against cost and schedule targets, and typically do not 
capture the integrated elements of design that are key to efficient 
energy performance of the whole building.
    The last stage, or two stages, relate to the so-called 
commissioning and post-occupancy, or operations phase of the building. 
Commissioning should start during design and not just at the tail end 
of construction. The point to highlight here is that the design intent 
must be verified and the operations must ensure persistence of design 
intent.
    As a result the current delivery process has energy efficiency 
losses at four points, outlined below, which represent major barriers 
to achieving the energy performance transformation required in the 
broad building stock:

        1.  Design: Inadequate design exploration and the efficacy of 
        the tools that can be deployed for critical trade studies;

        2.  Construction: Inadequate coupling of design intent to value 
        engineering needed to maintain the energy performance intended 
        by design;

        3.  Commissioning: Ensuring that the construction process and 
        installation have been faithful to the design intent with 
        respect to whole building energy performance and not just 
        functional tests at a component level;

        4.  Operations: Ensuring persistence of the design intent as 
        components age and the building changes usage due to movement 
        of tenants and different occupant needs and as operators 
        override the intended operating sequences.

    It is critical to understand where energy efficiency is lost to be 
able to target R&D.

R&D Elements For A Systems Approach

    A systems approach can reduce the energy efficiency losses by 
identifying and controlling the interactions among building subsystems. 
In this way it is possible to drive down energy consumption 
dramatically and to ensure that these energy savings persist. It is 
critical, though, to understand that the substantial science and 
technology base to reliably and in a cost effective manner realize such 
savings in the market simply does not exist today.
    Two basic flaws in the current design and operation of buildings 
contribute to poor energy performance. First, the design and 
construction of commercial buildings do not utilize metrics or tools to 
identify and quantify critical interactions, or ``coupling,'' between 
subsystems. Computational tools are not used initially in the design 
phase nor are these couplings tracked during the changing construction 
process. Second, the coupling between subsystems are neither monitored 
nor controlled to avoid the erosion of performance in operation of the 
building.
    The reality of today's methodology and tools is that attempting to 
couple subsystems--even using higher performance (efficient) components 
than are routinely used today--does not regularly deliver the levels of 
efficiency gains needed and, in some cases, produces negative effects 
from improper integration. Case studies show that even new buildings 
that are constructed with state-of-the-art ``energy efficient'' 
technologies can fail to achieve desired levels of efficiency due to 
the detrimental coupling of modified subsystems. A study of high-
performance buildings by the National Renewable Energy Laboratory 
(NREL) demonstrated that even with a range of advanced component 
technology (ground source heat pumps, an under floor air distribution 
system, daylighting, and high-performance windows), when the systems 
were not properly integrated, the building measured a 44 percent 
reduction ratio versus 80 percent when all components were fully 
integrated. Unfortunately, the NREL results are not atypical and 
represent a significant barrier to wide scale adoption of high-
performance integrated building systems.
    The systems approach considers a building as a complex dynamic 
system that has considerable uncertainty in both operating parameters 
and the operating environment. Indeed, the Brown report\2\ states:
---------------------------------------------------------------------------
    \2\ D.L. Brown, J. Bell, D. Estep, W. Gropp, B. Hendrickson, S. 
Keller-McNulty, D. Keyes, J.T. Oden, L. Petzold, and M. Wright. Applied 
Mathematics: A Report by an Independent Panel from the Applied 
Mathematics Research Community. Technical report, Lawrence Livermore 
National Laboratory, 2008.

         A complex system is a collection of multiple processes, 
        entities or nested subsystems where the overall system is 
        difficult to understand and analyze because of the following 
---------------------------------------------------------------------------
        properties:

                <bullet>  The system components do not necessarily have 
                mathematically similar structures and may involve 
                different scales in time or space;

                <bullet>  The number of components may be large, 
                sometimes enormous;

                <bullet>  Components can be connected in a variety of 
                different ways, most often nonlinearly and/or via a 
                network. Furthermore, local and system-wide phenomena 
                may depend on each other in complicated ways;

                <bullet>  The behavior of the overall system can be 
                difficult to predict from the behavior of individual 
                components. Moreover, the overall system behavior may 
                evolve along qualitatively different pathways that may 
                display great sensitivity to small perturbations at any 
                stage.

         Such systems are often described as ``multi-component 
        systems,'' or when the components are physics based, ``multi-
        physics systems.'' When the components involve multiple spatial 
        or temporal scales, the adjective ``multi-scale'' can be used 
        as well.

    The challenges for buildings reflect precisely those stated for 
complex systems: to predict the overall behavior, which depends 
critically on the coupling of the subsystems, and the uncertainties in 
the built environment.
    The coupling of components is difficult to achieve and requires the 
development and use of new science and engineering approaches to avoid 
the detrimental coupling discussed in the NREL work mentioned above. 
New science, design methodologies and tools will then be used to 
capture the complex couplings, enable the deployment of technologies 
that can take advantage of the natural dynamics of the building (e.g., 
natural ventilation, free cooling, and thermal storage).
    More specifically, what is needed for targeted R&D relative to the 
picture of energy efficiency losses and the benefits of a systems 
approach for complex dynamical systems. In our view several specific 
R&D elements at the science & technology level should be established. 
We believe these recommendations are necessary in order to meet the 
challenge laid out by Secretary of Energy, Dr. Steven Chu, in his March 
2009 testimony before the U.S. House of Representatives Committee on 
Science and Technology wherein he states:

         We need to do more transformational research at DOE to bring a 
        range of clean energy technologies to the point where the 
        private sector can pick them up, including: Computer design 
        tools for commercial and residential buildings that enable 
        reductions in energy consumption of up to 80 percent with 
        investments that will pay for themselves in less than 10 years; 
        and . . ..

Computational R&D Thrusts

    The foundational elements UTC believes will support this vision are 
computational support for design, optimization and control. Attention 
to modeling, analysis, simulation and control is also advisable along 
the following directions:

        <bullet>  Systems Engineering and Design Methodologies

                  Rigorous and scalable process and tool environment 
                for building project requirements management & system 
                architecture exploration

                  Integrated mechanical and control design methodology 
                and simulation environment

                  Architectural exploration tools with rigorous 
                capture of performance uncertainties

        <bullet>  Optimization and Control of Multi-scale Dynamics

                  Analytical techniques for system decomposition, 
                analysis and uncertainty propagation in heterogeneous, 
                networked, multi-scale building systems

                  Optimization and simulation techniques for multi-
                scale computations

                  Nonlinear dynamical systems theory tools to exploit 
                natural dynamics

        <bullet>  Robust Control and Decision Support Algorithms

                  Control and Commissioning Systems

                  Supervisory and de-centralized control theory and 
                algorithms

                  Estimation and machine learning techniques to 
                synthesize actionable information from heterogeneous, 
                asynchronous and uncertain data streams

                  Automated fault detection and diagnostic (FDD) 
                capabilities using building automation systems

    The focus here is on computational capabilities. Hardware testbeds 
should be used to validate models and capture the relevant physics for 
sub-scale experiments to provide environments where subsystem 
interactions can be captured in a controlled environment, and help 
identify gaps in existing components. There should be a range of 
testbeds which move from sub-scale to full scale systems. The testbeds 
are also a critical element to enable teaming between academic, 
National Laboratories and industry and to facilitate adoption of new 
technologies by end-users.
    It is worth emphasizing that these areas of R&D targets are not 
unfamiliar to other industries.\3\ In the aerospace and automotive 
sectors, performance requirements have driven both investments in 
underlying science and technology along the lines of computational 
support for design, optimization and control along the lines listed 
above.
---------------------------------------------------------------------------
    \3\ See for example the PITAC report ``Computational Science: 
Ensuring America's Competitiveness,'' June 2005.
---------------------------------------------------------------------------
    UTC has partnered with numerous federal and State agencies to 
further technology and standards development. In particular the United 
Technologies Research Center led, proposed and executed a National 
Institute of Standards and Technology (NIST) Advanced Technology 
Program project, ``Integrated Building Energy and Control Systems 
(IBECS),'' that focused on system-level modeling and simulation 
environments as a means of understanding and reducing building energy 
consumption. UTC is developing advanced control and information systems 
to improve energy efficiency in buildings using a systems approach to 
building modeling and operation in collaboration with Lawrence Berkeley 
National Laboratory, the University of California at Berkeley, and the 
University of California at Santa Barbara, and seeks to demonstrate 
those technologies on the University of California at Merced's campus. 
This program, co-sponsored by DOE's Energy Efficiency & Renewable 
Energy, the California Energy Commission, and UTC, represents an 
example of multi-disciplinary teams composed of industry, academia and 
National Laboratories. The program's work is also an example of full 
scale demonstrations that must be carried out to enable risk reduction 
of new technologies in building energy performance but that utilize 
foundational science and technology.
    In addition to the development of science & technology, a number of 
UTC business units participate in standards bodies. Work in inter-
operability with the BACnet\4\ standard has been led by Automated Logic 
Corporation (ALC) while engagement with the ASHRAE 90.1 standard has 
been strongly engaged by Architectural Energy Corporation (AEC), both 
of which are units of Carrier.
---------------------------------------------------------------------------
    \4\ BACnet is a data communication protocol for building automation 
and control networks. BACnet was developed by the American Society of 
Heating, Refrigerating and Air-Conditioning Engineers (ASHRAE) to 
create a protocol that would allow building systems from different 
manufacturers to inter-operate.

R&D Thrusts to Fuse Foundational Science & Technology with Market 
                    Transformation

    The building industry in the area of energy consumption lags behind 
other industries in the use of computation, theory and information 
technology. Also, while the automotive and aerospace industries serve 
as a starting point in what is needed for the science and technology 
base, much work needs to be done to understand the relevant physics, 
capture the physics into appropriate modeling tools, and develop 
computational and analysis algorithms. Furthermore, additional work is 
necessary to tailor research to the needs of buildings and to enable a 
work force that can effectively use the new methodology and tool set. 
These efforts transcend any one company and are therefore appropriate 
for DOE investments.
    Computational infrastructure is critical to remove points where 
energy efficiency is potentially lost and to enabling cost effective 
scaling of new design processes such as the Integrated Project Delivery 
approach for concurrent engineering advocated by the industry.\5\ This 
R&D thrust by itself, though, is not enough to achieve transformational 
change. We believe that DARPA style investments, such as those that 
could be accomplished within the Office of Science in the newly created 
ARPA-E organization, are also necessary. We believe that large, multi-
institutional, focused teams with specific milestones and aggressive 
metrics are necessary to advance energy performance enhancement 
solutions. One area that could utilize such investments is the design 
and operation of retrofits. In this area investments are needed that 
develop and utilize science and technology but also include prototyping 
and technology demonstration at scale.
---------------------------------------------------------------------------
    \5\ Integrated Project Delivery: A Guide, The American Institute of 
Architects, 2007.
---------------------------------------------------------------------------
    In the area of retrofitting, R&D targets should include similar 
elements to those recommended above for the computational development 
but should target specific technologies and increase the performance of 
targeted market verticals. Elements of such an R&D program should 
include the following:

        <bullet>  Building performance assessment

                --  Need: Process and tools for rapid failure mode 
                assessment, sensing, model calibration, and analysis of 
                the lack of building performance.

                --  Response: Mathematical tools, measurement systems, 
                scalable algorithms and application (for example 
                focusing on DOD, GSA, and university campuses).

        <bullet>  Design of systems for effective and robust retrofits

                --  Need: Process and tools for trade studies and 
                optimization of multi-scale dynamic systems (focusing 
                especially on emerging technologies: active facades, 
                natural ventilation, passive heating and cooling 
                technologies).

                --  Response: Tools (integrated within BIM) and 
                application.

        <bullet>  Robust and persistent implementation

                --  Need: Modular platforms (equipment and controls) 
                and decision support (for rapid implementation and 
                performance persistence).

                --  Response: Scalable, simple-to-use toolset, DOD/GSA/
                campus implementation.

    In summary there should be two types of R&D investments to attack 
the sources of energy efficiency loss. One is investments in 
computational infrastructure. The other is large, targeted programs to 
attack specific issues and market verticals and to couple the science & 
technology with demonstrations.
    We believe that a heavier focus on fundamentals in the R&D 
portfolio than has occurred in the recent DOE history is required to 
move the needle on energy consumption in buildings. We believe that the 
two specific thrusts above are needed in addition to tighter 
coordination between elements of DOE, specifically, the computational 
resources within the Office of Science and the building domain 
expertise and demonstrations currently within the Energy Efficiency and 
Renewable Energy office.

Policy Recommendations: Comprehensive National Strategy

    The House Science and Technology Committee must address the 
potential future contributions that can be made from supporting and 
overseeing basic and applied scientific research, development, 
demonstration, commercial application of advanced energy technologies, 
and energy efficiency. But this is just one piece of the jigsaw puzzle.
    In the short-term, Congress should take immediate steps to 
encourage and enhance building efficiency. Specifically, Congress 
should enact legislation that promotes investment in energy efficiency 
in the buildings sector, for example The American Recovery and 
Reinvestment Act of 2009 provided tax incentives to spur investment in 
energy efficiency, funding for energy efficiency and green buildings 
and support for various science and technology programs.
    Congress should continue to focus on energy efficiency in buildings 
as it considers comprehensive energy and climate change policy through 
a number of relatively short-term measures including:

        <bullet>  Use of Energy Savings Performance Contracts (ESPC) 
        that will multiply the job creation potential of recovery funds 
        used for energy efficiency projects, and will ensure those 
        funds are used in a transparent and verifiable manner.

        <bullet>  Establishment of a national performance based 
        standard for building retrofits that measures success in energy 
        efficiency based on actual measured savings after a retrofit is 
        complete.

        <bullet>  Energy audits for existing buildings should be 
        required to ensure that existing property is operating at the 
        highest level of efficiency. All commercial buildings should 
        commit to ongoing (i.e., at least every three years) energy 
        surveys to measure and monitor energy use, and to identify 
        opportunities for improvement.

        <bullet>  Those who invest in reducing energy consumption and 
        demonstrate validated results should be eligible for 
        accelerated deprecation schedules or other financial 
        incentives.

        <bullet>  Establishment of a national energy efficiency 
        standard either as a stand alone requirement or included as a 
        compliance mechanism as part of a national renewable 
        electricity standard to encourage low emission, high efficiency 
        base load energy resources.

        <bullet>  A systems approach to tying these technologies 
        together in commercial buildings and removing regulatory 
        barriers to implementing near- and long-term cost-effective net 
        zero energy building approaches.

    In the longer-term, UTC believes that in order for investments to 
fully realize the benefits of whole building design and operation, the 
DOE and other agencies must address a number of science and technology 
issues including:

        <bullet>  Recommendation I: Measurement and Transparency.

           The Federal Government, especially the Department of Energy 
        and the National Institute of Standards and Technology, should 
        consider establishing measurement science for building energy 
        performance and devising common measurement standards and 
        metrics to ensure that building energy performance can be 
        effectively evaluated by the marketplace. Such evaluation 
        should include the measurement of energy efficiency at the 
        whole building level both in the design stage, using 
        computational methodologies, as well as in the commissioning 
        and operations stages.

        <bullet>  Recommendation II: Technology and Organization.

           The Federal Government should create specific research 
        programs implemented through private-public partnerships to 
        maximize the effectiveness of technology development and 
        transition. Research and technology investments must be made in 
        systems: the creation of system engineering practices and 
        associated design processes and tools. The newly established 
        Advanced Research Projects Agency-Energy (ARPA-E) is supported 
        by UTC and the recommendation is to create an office within 
        ARPA-E whose investments would solely focus on systems 
        methodologies, tools and technologies for building energy 
        efficiency. Projects in the ARPA-E portfolio should be 
        conducted on a multi-year basis with joint university-National 
        Laboratory-industry teams.

        <bullet>  Recommendation III: Computational Methodology and 
        Tools.

           The Federal Government should initiate programs that build 
        foundational infrastructure in modeling, simulation, analysis 
        and controls focused on building systems. The portfolio should 
        include elements that address (a) capturing fundamental 
        physics, (b) developing simulation algorithms and computational 
        infrastructure tailored to building physics and (c) developing 
        analysis tailored to the specific dynamics of the built 
        environment. Automated fault detection and diagnostics would be 
        included in this set of tools.

        <bullet>  Recommendation IV: Facilities.

           The Federal Government should encourage public-private 
        partnerships with incentives to promote facilities that help 
        users validate and test the performance of hardware and 
        software in a real, integrated building environment to reduce 
        risk and enable wide-scale commercialization, particularly for 
        ``systems'' technologies and solutions. Demonstration projects 
        to engage key stakeholders in the buildings industry will 
        reduce risk for deployment to the entire building stock. The 
        DOE Energy Efficiency and Renewable Energy program portfolio 
        should be augmented with systems technology and methods should 
        be matured through relevant demonstration programs that are 
        planned and executed with joint multi-disciplinary university-
        National Laboratory-industry teams.

        <bullet>  Recommendation V: Talent.

           The Federal Government should invest in education and 
        training carried out to define the new knowledge and skills 
        required by the methods, systems, and tools for deploying and 
        maintaining systems. University and government buildings and 
        facilities should be used as case studies and demonstration 
        sites for advanced monitoring, control, simulation models, 
        prototypes, component, and systems research. There must be 
        engagement with all components of post secondary education 
        including professional and vocational training with community 
        colleges and other organizations for building design, 
        construction, commissioning, energy analysis, energy 
        accounting, and operations to ensure a talent base that can 
        design, install and maintain building systems.

    Thank you for the opportunity to submit this testimony to the 
Committee. I would be delighted to respond to any follow up questions 
regarding this testimony or the recommendations contained within.

                    Biography for J. Michael McQuade
    J. Michael McQuade is Senior Vice President for Science & 
Technology at United Technologies Corporation. His responsibilities 
include providing strategic oversight and guidance for research, 
engineering and development activities throughout the business units of 
the Corporation and at the United Technologies Research Center. He also 
provides leadership to UTC Power, UTC's business unit responsible for 
the research, design, commercialization and after-market support of 
stationary and transportation fuel cells.
    McQuade has held senior positions with technology development and 
business oversight at 3M, Imation and Eastman Kodak. Prior to joining 
UTC in 2006 he served as Vice President of 3M's Medical Division. 
Previously, he was President of Eastman Kodak's Health Imaging 
Business. Earlier, McQuade held technology and business leadership 
positions at Imation Corporation after its spin-off from 3M in 1996. 
His early career at 3M was focused on research and development of high-
end acquisition, processing and display systems for health care, 
industrial imaging and remote sensing. He has broad experience managing 
basic technologies and the conversion of early stage research into 
business growth.
    McQuade holds doctorate, Master of Science and Bachelor of Science 
degrees in physics from Carnegie Mellon University. He obtained his 
Ph.D. in experimental high-energy physics for research on hadronic 
charm quark production performed at the Fermi National Accelerator 
Laboratory.
    McQuade is a member of the American Physical Society and is a 
member of the Boards of Directors of the Connecticut Science Center, 
the Connecticut Technology Council and the advisory boards of the 
Schools of Engineering at Yale University, the University of California 
at Berkeley, the University of Connecticut and the Institute for Energy 
Efficiency at the University of California at Santa Barbara. He is also 
a member of the Board of Trustees for the Center for Excellence in 
Education and Board of Directors of Project HOPE.
    United Technologies Corp., based in Hartford, Conn., is a 
diversified company providing high technology products and services to 
the aerospace and building industries worldwide. Its businesses include 
Pratt & Whitney aircraft engines, Sikorsky helicopters, Hamilton 
Sundstrand commercial and military airplane and space-based systems, 
Carrier heating, air conditioning and refrigeration equipment, Otis 
elevators and escalators, Chubb and Kidde security and fire detection 
and prevention systems, and the world leading fuel cell products from 
UTC Power.

                               Discussion

    Chairman Baird. Thank you very much. I thank all the 
panelists for very, very informative and stimulating input. We 
will now proceed with questioning. The procedure basically is 
that each of us asks about five minutes' worth of questions and 
then we alternate sides. We have been joined as well by Ms. 
Edwards. You are right to be proud of your Representative. She 
is a fantastic Member of this Congress. Ms. Giffords was here a 
moment ago, Mr. Matheson and Mr. Tonko as well, all very 
active, committed Members of the Committee, very interested in 
this. We are grateful for their presence as well and we will 
proceed then with questions.

              An Integrated Approach to Energy Efficiency

    What strikes me as I listen to you folks is that clearly 
the 40 percent figure is a very, very prominent part of our 
energy equation. It seems to me that all of you have a 
fundamental role to play. To what extent--we have got this 
great gathering of experts here on this committee. To what 
extent do you actually work together in the real world? And by 
that, I mean to what extent does DOE work with each of you, to 
what extent does, for example, UT work with the social 
behavioral side, does social behavioral side work with the code 
side, with the industrial--talk to us a little bit about that. 
Can you do more? Do you do enough? How can we facilitate that? 
Mr. Coad.
    Mr. Coad. Mr. Chairman, getting on Dr. Ehrhardt's subject, 
I believe that energy and the proper use of energy is an ethic. 
I think we have to find some way to get the public, the people 
to adopt the ethic. Energy efficiency isn't--this isn't rocket 
science. This is very simple. When you walk out of the room, 
you turn off the light. When you are not using the building, 
you put it on an idle mode and you don't leave it running 24 
hours a day because you are only occupying it for eight. So I 
think we work together. I learn a lot from being around people 
like we have on the panel and this subcommittee. We are 
continually learning. Energy efficiency is not rocket science.
    Chairman Baird. But we still need this integrated approach.
    Mr. Coad. It has to be integrated right on through but it 
is not rocket science, and when we talk about efficiency, we 
are talking about doing things more efficiently but doing the 
same work, keeping the same productivity up. That is what the 
high-performance is all about.
    Chairman Baird. I have advocated, and some of my colleagues 
tire of me saying this but after various trips around the world 
and seeing what is happening to rain forests, icecaps, coral 
reefs, my own belief is, we ought to make a national commitment 
to a 20 percent reduction in energy in 20 weeks, not by 2020 
but 20 weeks, and I think we have evidence that it can done if 
there were an ethic and if we used behavioral sciences and if 
we integrated with the technology, and by the way, as some of 
you said, that is not true necessarily. We do have to use the 
gee whiz new technologies, maybe solar, photovoltaic paint, et 
cetera, things of that sort, but we could do this behaviorally 
without additional costs and an enormous savings very promptly.
    Dr. Ehrhardt-Martinez, talk to us a little bit about the 
social scientists can integrate with some of the other 
testimony we have heard today.
    Dr. Ehrhardt-Martinez. Well, I think, you know, to a 
certain degree it does happen. The problem is that to a large 
degree it doesn't happen in a systematic way or a widespread 
way, and particularly I think there is a lot to be gained 
within the DOE programs for a more concerted effort to really 
include the social sciences at all stages and throughout all of 
the programs that they work on. You know, it has been--if you 
look at all of the funding that has gone to climate change 
research, two percent or less has gone to the social and 
behavioral sciences. It is a minuscule amount, but yet, as I 
said in my testimony, you know, there really--you know, if we 
really--it really is a human problem. I mean, it is a human-
created problem, and if we really want to understand how to 
address this problem, we really need to incorporate the social 
and behavioral sciences to unlock, you know, the knowledge that 
exists and apply it to these questions about why is there these 
two persisting gaps between what the technology can provide in 
terms of energy savings and what is really provided. It is a 
human equation.
    Chairman Baird. Let us ask Mr. Chalk then a little bit. 
What Dr. Ehrhardt-Martinez has said I obviously agree with and 
I think we have abundant evidence to it. Mr. Coad pointed out 
there is an ethic, it is a behavioral element. Given that, to 
what extent does DOE involve human behavioral sciences, whether 
it is economics, psychology, sociology, et cetera, even 
anthropology in some cases maybe, to these various programs 
that it oversees on building industrial efficiency?
    Mr. Chalk. Well, specifically, this is an important area. 
In fact, we are in the process of hiring somebody with a 
behavioral science background. But to answer your earlier 
question about how we work, I mean, Mr. Cicio mentioned he is 
pleased with our industrial program, which is another 33 
percent----
    Chairman Baird. Did you pay him to say that?
    Mr. Chalk.--of the primary energy. So we are talking about 
70 percent of the primary energy here today with industrial 
plus the building efficiency. The other thing that we have done 
in establishing our Commercial Buildings Initiative is worked 
with code organizations, worked with companies like UTC on the 
technology but also built alliances across the whole value 
chain, working with the realtors, working with the building 
owners, and the building owners are typically not the people 
that occupy the buildings in the commercial space so sometimes 
the building might be designed for another purpose than the 
occupants are using it for or they decide to run two shifts 
instead of one shift. So this gap that you have between design 
intent and actual use of the building is very, very critical, 
so we try to work with the whole value chain, if you will, of 
retail associations and alliances. We have a national accounts 
program that brings in big box developers and things like that. 
So we try to work with the whole value chain until we get 
everybody's input when we approach this from a systems 
standpoint.
    Chairman Baird. I want to acknowledge, Mr. Cicio, one brief 
point about the realtors. One of my colleagues suggested or 
actually a realtor back home, one of the prime opportunities 
for doing residential retrofits on energy efficiency is at the 
point of sale. So once the selling party has vacated the home 
and the purchasing party hasn't moved in, that is when you hit 
and we ought to have some way to target our incentives right at 
that moment because you don't disrupt everybody's life. That is 
when you really ought to--and we ought to be able to roll it 
right into the mortgage, and if we are going to do some tax 
incentives put that tax incentive right on at the point of the 
transfer of the home or the business because that is when you 
are most able to do that kind of work.
    Mr. Cicio, you wanted to comment and then I will recognize 
my colleagues.
    Mr. Cicio. Yes. The cross-hair where we as manufacturers 
cross over and work with the building people, we are suppliers 
so when we improve the quality of the products, the diversities 
of the products, whether it is for lighting or for simple 
things like double-pane windows or glass insulation, we are the 
providers of those materials for them. Where the ITP program 
comes in is, it provides new technologies, breakthrough 
technologies that help provide these new needed materials, but 
also important is to help keep costs low because obviously you 
have heard from Mr. Coad, it is about cost and it is about 
economic return that helps drive energy efficiency.
    Chairman Baird. So you are both consumers of energy in the 
process of the manufacturing but producers of the new equipment 
that is going to help us solve the problem?
    Mr. Cicio. Absolutely.
    Chairman Baird. Mr. Inglis.

                 Executing Best Practices in the Public

    Mr. Inglis. Thank you, Mr. Chairman. You know, I was 
talking to a physician recently about health care and he says 
we all know what we need to do, we need to eat well, we need to 
exercise, we need to sleep plenty, we need to drink plenty of 
water, it is just we don't do it. And in the case of energy 
usage, we all know what we need to do, right? It is just we 
don't do it. So tell me how it is that we are going to do it. I 
am hoping that one of you gives the secret answer. There is a 
secret answer. So let us see if you know it. Yes, Dr. McQuade.
    Dr. McQuade. Thank you very much. If I may, I think it is a 
very true statement. I think in the energy efficiency building 
study that was released yesterday, the sort of we know what we 
should do and the economics of doing it come together for 
something in the range of 40 to 50 percent of the reduction 
that can be achieved. So today's technology, five-year 
paybacks, market incentives to achieve that can really be 
accomplished. I think to go beyond that to achieve the sort of 
hyper-performance we want in buildings, the 80 percent 
reduction is going to require a combination of new technologies 
and new systems, and I would say that thinking about the things 
I testified today about building systems, those combined with 
human factors and behavioral sciences really to create 
buildings, think about commercial buildings that actually tune 
and optimize themselves. So it is one thing, for example, to 
require or ask someone behaviorally to turn the lights off when 
they leave the room, it is another thing to install motion 
sensors to turn the lights off automatically. So we think there 
is a key role that can be played by both the technology side 
and the human factor side to achieve that. So back to your 
question, I think a significant portion of the technology base 
we have today can give us substantial reduction in building 
energy consumption, 40 to 50 percent. To go beyond that to 
achieve these really strong numbers is going to require the 
kind of things that you heard today in terms of both technology 
investment and human behavior investment.
    Mr. Inglis. Mr. Cicio.
    Mr. Cicio. Congressman Inglis, for the manufacturing 
sector, it is we are different, I would differ with you. The 
manufacturing sector's greenhouse gas emissions are only 2.6 
percent above 1990 levels while the commercial, the 
residential, the transportation and the power sector greenhouse 
gas emissions are up on average about 30 percent, and the 
reason that we have--for two reasons we have improved energy 
efficiency, it is a cost, and without reducing energy costs, we 
lose competitiveness. So we are the only sector. We have always 
had the price signal to force down energy consumption. So we 
would differ in perspective of the others but can we do more, 
yes, and we have lots of different ideas on that but technology 
is at the core of these things.
    Mr. Inglis. Take my house, for example. The reason it 
doesn't have a solar panel on the roof is because electricity 
is just so cheap. I mean, it is not--the economics don't work 
out for me to put even a simple solar hot water heater, which 
isn't that something like 30 percent of my home's electricity 
or some amazing number? And I have lived in South Carolina and 
we have a beautiful southern exposure and we don't have a solar 
hot water heater. But it is because the economics don't work 
out, right? Ben Franklin, ``what we obtain too cheaply we 
esteem too lightly,'' and so if I obtain electricity so 
cheaply, I sure do esteem it lightly. Is that right, Dr. 
Ehrhardt-Martinez?
    Dr. Ehrhardt-Martinez. I think that is definitely part of 
the answer. I guess I would respond by asking you, you know, if 
in fact you were able to establish something like smart grid 
technologies and you were able to feed your electricity 
production from your solar panels back into the electric 
system, how would that change the equation and change your 
decision-making process?
    Mr. Inglis. I think it clearly would. It would change the 
economics. Because the secret answer I was looking for is, it 
is about economics here. It is about making it so that this 
works out for me to put that solar hot water heater on my roof 
to make it so I want to have that technology, and if I decide I 
want it because I am sort of aware of the price signal, I will 
change my behavior. Is that right?
    Dr. Ehrhardt-Martinez. Well, I would just add to that, I 
would say that that is necessary but not sufficient. I think 
that there are other factors that come into play. You know, 
just because it is economical doesn't mean everybody is going 
to go out and do it, and I think that we need to recognize that 
there are a variety of other things, barriers, you know, 
sociocultural barriers, a variety of things that also shape, 
you know, people's decision-making process and their habits and 
whatnot, and it is important to keep those in mind as well. So, 
yes, it is one of the components but there are other things 
going on as well.
    Mr. Inglis. So I have a bigger view of economics than you 
do maybe but it is basically this, that, you know, as Tom 
Friedman has written, we found out what it is. It is $4 a 
gallon changes behavior on gasoline because apparently one of 
the reasons that GM killed the electric car is people didn't 
want to plug in their car, they said. But in the midst of $4-a-
gallon gasoline, ask people in town meetings, would you mind 
plugging in your car, there was nobody who resisted plugging in 
their car at $4 a gallon. And so it sort of changes us, doesn't 
it, when we realize gee, we must change. And so just a short 
commercial with the Chairman's indulgence. That is why if we do 
something better than cap-and-trade, a revenue-neutral carbon 
tax, where you reduce taxes elsewhere so people have money in 
their pocket to buy some of these fabulous technologies and 
they have the price signal, they will do it. And of course, I 
am sure there are some other barriers to be overcome but 
necessity is the mother of invention, especially when it comes 
to rising energy costs, and it would cause me to change my 
behavior. I would be buying one of those solar hot water 
heaters for my roof.
    Thank you, Mr. Chairman. I am out of time.
    Chairman Baird. I always appreciate the commercial 
announcement for the alternative which by coincidence I happen 
to support.
    Ms. Edwards is recognized next for five minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and I think I will 
start out with a question for someone from Bowie, Maryland, Dr. 
Ehrhardt-Martinez. Thank you all for your testimony today.

                    Consumer Education and Behavior

    I am curious about this behavior question because I know in 
my own home, I know plenty of things that I could do to reduce 
my energy use in the home and to consume better, and I have 
only done a couple of those things, and I often describe myself 
as heating and cooling only my cat for all of the space, and I 
think a lot of folks are like that and so I wonder what 
realistically we can do from a public policy perspective to 
push changes in behavior. I will just give you an example, that 
a lot of our policy relies on things like tax credits and so if 
you are, you know, in a working family, middle class family, 
you know, to make the tradeoff between college tuition or daily 
expenses and changing your energy consumption in your house in 
exchange for a tax credit that is going to come later on, makes 
that a very complicated decision and so I wonder if you could 
talk from a policy perspective of things that we could do to 
actually incentivize changes in consumer behavior.
    Dr. Ehrhardt-Martinez. Okay. That is a tough question. I 
think that it is important to keep in mind that a lot of these 
investments in energy efficiency are, you know, cost effective 
in that they do pay for themselves over time so I think that, 
you know, that is where we need to begin is to make sure that 
people are aware of that and then to come up with mechanisms to 
help them overcome barriers whether it is financial barriers or 
other types of barriers for the people who are interested in 
actually pursuing those types of changes. But we also have to 
recognize that there are--you know, that the world is full of 
different kinds of people and that different people face 
different barriers and live different lifestyles and, you know, 
live in different conditions and have different resources at 
their disposal and so I think it is also important to recognize 
that while there are some people who like you are aware of, you 
know, what needs to be done and perhaps need simply certain 
incentives in order to do it, there are other people that maybe 
need, you know, more information. And then it is also about how 
we provide that information and how we go about providing 
programs as to whether or not those programs are more or less 
likely to be effective. So, for example, there is research on--
there is a very long history of research on home retrofits and, 
you know, why some programs--and there is a huge amount of 
variation in terms of how successful those programs have been 
in actually getting consumers to have their homes retrofitted 
and generate energy savings as a result, and one of the 
insights from that research has been that, you know, the huge 
variation is more a function of how the programs are being 
implemented than they are of--I mean, so you can have the same 
program that has the same incentive structure but the way in 
which the program is implemented and the way that information 
is, you know, distributed to people and things of that nature 
have, you know, just a dramatic effect on the proportion of 
people that actually participate in that program and are able 
to reap the rewards.
    Ms. Edwards. Thank you very much. And then my last question 
for Mr. Chalk has to do with building efficiencies and the way 
that buildings get described as being efficient. I know as kind 
of a, you know, slightly outside--it is very confusing. I had 
folks in my office just a week or so ago and they were 
describing that they met some sort of environmental standard 
for their building, and I had no clue what they were talking 
about. I don't really understand the standards. I think there 
is a wide variation in the ways in which people can describe 
their buildings and the efficiencies of those buildings and I 
think that we need to clear that up so that builders and 
developers have some sort of and consumers comparing apples to 
apples.
    Mr. Chalk. Yes, we have a label much like buying an 
appliance. It is an energy guide label. It tells you how much 
electricity a refrigerator uses. So we have developed with the 
building community a label that says this house is rated at 
this energy use and you will pay approximately this much in 
average utility bills for all your loads whether it is thermal 
or electric.
    Ms. Edwards. But what about commercial buildings?
    Mr. Chalk. For commercial buildings, we are just beginning 
the Commercial Buildings Initiative and there in reference to 
your previous question it is very difficult because the owner 
of the building who pays for the construction is not the one 
that pays the energy bills so we need to work with both groups 
then to decide how to incentivize, what are the right policy 
mechanisms that need to be evaluated to incentivize greater 
energy efficiency. But back to the home. When you buy a house, 
you have to have a termite inspection. If you also had to see 
the energy use of that house, then that would also be something 
very valuable and that is what we working on so we would have 
greater adoption in there so that consumers are informed as 
they go and buy a house, you know, maybe they can afford the 
mortgage, which is the first cost of the house, but the utility 
bill is typically not included in that, in the mortgage, so we 
need folks to realize what their energy bill is going to be as 
they purchase the house.
    Ms. Edwards. I think my time has expired. Thank you, Mr. 
Chairman.
    Chairman Baird. Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman, and thanks to the 
panel for being here. This is one of my favorite topics even 
though I spent 35 years on it so far but it never ceases to 
amaze me how difficult it is to get people to change their 
behavior, so I am very pleased you have Dr. Ehrhardt-Martinez 
here to enlighten us on that. I think one of the biggest 
factors, and I am speaking now as a physicist, the public just 
doesn't understand energy. They don't know what it is and how 
it can happen, and a number of times I have given speeches 
talking about how I wish energy were purple because if people 
could see the energy, they would behave differently. If they 
drove up to the house in the winter and saw purple oozing 
through the walls and purple rivulets around the doors and 
windows, they would say good grief, I have got to tighten up 
this house, and similarly with other activities. As it is, the 
only concrete evidence the average citizen sees about energy 
costs is the price at the gas pump and utility bill at the end 
of the month, and that is not enough. There have to be other 
ways.
    Mr. Chalk, this is not intended to criticize you because I 
think the Energy Department is starting to change dramatically 
but it was very frustrating to me in my 15 years here to see so 
little being done by the Department of Energy to assist in this 
problem. In fact, the only real program I am aware of during 
the early years I was here was the EPA where they had their 
Green Lights Program, went around to various businesses, 
pointed out how they could save money if they put different 
lighting in, and if you show a businessperson that there is a 
payback time of about eight months, they put in a new lighting 
system, and the EPA did a fantastic job of that. My only 
criticism is that the Department of Energy, knowing the issue, 
should have done it long before. I think we have to hit all of 
these things and it is not easy. For example, I was upset with 
a poorly insulated attic in a house we bought so I determined 
to insulate it properly, and in a cold climate, part of that 
means you fill up every hole, you know, rafters, beams and so 
forth because when the electricians come through they just bore 
a hole through, put the wire through and that only occupies 
about a third of the size of the hole so that hole is leaking 
all the time up into the attic. I could not for any reasonable 
price get someone to come in and really do the insulation 
correctly so I did it myself. Our utility bill or gas bill, I 
should say, since we use gas for heat, was reduced by one-
third, and because I didn't count my labor, that meant in a 
space of about a year I paid off the entire project. Now, that 
is a really good return on investment, but until we educate or 
require all those working on insulation to really understand 
what insulation does--and it has been so frustrating to me over 
the years to find how many people in the business don't really 
understand it. And I loved the example of where someone was 
building homes in a tract and somebody came by and noticed that 
they put formaldehyde insulation on the outside of the concrete 
shell but they stopped at ground level. They said why did you 
do that; well, we don't need it up here, it is just you need it 
down below to protect from all that cold in the ground. And 
they had no recognition that even though concrete has a very 
high heat capacity, in other words, it can store a lot of 
energy, it is also a very good conductor of heat so 48 inches 
of concrete is equivalent of 1 inch of formaldehyde foam 
insulation. If you don't know that, you are going to build a 
house the way he did. If he knew that, he would have built it 
in a much more energy-efficient way. So I think education is 
very important.
    Now, the country is going to get much worse. We are always 
talking here about carbon footprints and everyone in the 
Congress is worried about that. That is not the real point. The 
real point Mr. Coad alluded to. He said we are going to run out 
of oil by 2010. Actually that is not right. That is when the 
production peaks, the Hubbert curve. So then it is half gone. 
But it does mean that it is going to be continually more 
expensive as we go on, and if the public responds only to 
money, then we are in bad shape because we are going to be 
quite a ways down the peak before they start doing the things. 
I really think it has to be a combination of the work you do, 
the combination that we should be doing in the Congress to make 
sure the public is well educated but through tax credits 
persuade them to do something which is just marginally 
effective. Thank you.
    Chairman Baird. Excellent comments, Dr. Ehlers.
    Mr. Matheson would be next and then followed by Mr. Tonko.
    Mr. Matheson. I am happy to go, Mr. Chairman.

                              Retrofitting

    Mr. Chalk, just a quick question. What do you--what would 
you need to have a successful retrofit program at DOE? I know 
funding is going to be one answer but I am looking for other 
things in addition to funding that you think you need that 
would help make that happen.
    Mr. Chalk. A combination of things, and the retrofits are 
very important because as we talked about earlier, we can do 
30, 40 percent on a cost-neutral basis now for new 
construction. Retrofits are much harder. Ms. Edwards was 
talking about there are other priorities for homeowners and so 
forth. So what we need, we have the R&D and we have been 
investing much more in commercial buildings research. What we 
need to do though is, we have been emphasizing and optimizing 
individual components like the HVAC, lighting, windows and so 
forth. We need to do more in integrating those components. 
There are tradeoffs. So, you know, when the climate changes 
outside, the windows are talking to the lights which are 
talking to--communicating with the HVAC system so that all of 
these things are working together for total optimization of the 
building and it is tied to the occupants whether they are there 
or not and to what type of activity. So systems control and 
integration of all these components from an R&D standpoint is 
the top priority, that with the right policy and finance 
because it is always the first cost that is the barrier. So if 
there are incentives for longer-term financing, that would be 
very helpful because these technologies do pay back but they 
may not pay back for eight, ten years. But that is okay. The 
building is typically in the inventory for more than 50, so I 
think we can do this. And the last piece is really workforce 
training that has been mentioned to make sure that people know 
how to install correctly, and as part of our weatherization 
program where we weatherize low-income housing, we offer 
training assistance so that people are doing that correctly and 
we have inspectors and so forth. So the combination of R&D, the 
right policies and financing as well as a strong deployment 
effort where we can demonstrate these technologies to folks 
where we actually--and one of the issues with the codes is, 
when you start out with a code it is really the design intent. 
We are not doing enough to follow up the actual measurement 
verification of energy use. We need to do that, disseminate 
that information and then combine that with workforce training, 
not just for the installers but also the building operators so 
they know how to change as the activity changes within the 
building, that they are continuously optimizing. So we almost 
need a brain or a CPU for the building, would be ideal, a 
dashboard, so that people could--otherwise they are just paying 
retroactively or a month behind what they used last month. They 
don't see real-time energy use going to lights when there is 
maybe nobody occupying or, you know, maybe there is a piece of 
equipment that is malfunctioning and the energy level shoots 
up. So those types of things need to be put in everyday 
practice and then I think having those things for the building 
operator will allow them to most efficiently operate their 
building and decrease their cost.
    Mr. Matheson. I appreciate that.
    Mr. Coad, am I pronouncing your name correctly?
    Mr. Coad. Yes.

                        Green Building Standards

    Mr. Matheson. In your assessments report, you point out 
that there is what you call a race to respond, a consumer 
demand for green products. Do you think the capacity exists 
within the building standards industry to effectively address 
the need for new standards for all of these green products and 
keep up what are undoubtedly going to be more and more products 
coming into this expanding marketplace?
    Mr. Coad. Yes. The High-Performance Building Council at 
NIBS in their first--well, in their organizational year, they 
had, like, 80 different organizations who wrote standards 
assemble together for that year and they did an extensive study 
of all the standards that were available and they are now 
working on filling all the holes and they are working with Mr. 
Carnahan's group to try to get that whole thing organized. It 
is a massive undertaking but we have all the information out 
there and we are finding out where the holes are, and as soon 
as we find that out we are going to start trying to get various 
standards-adopting organizations to start plugging those holes. 
As I mentioned before, this is not--we make this thing too 
complicated. It is not that complicated. And from an economics 
perspective, and I am going to say something that nobody is 
going to believe me: it costs less money to provide a more 
energy-efficient product, it doesn't cost more money. It costs 
less money because it all relates to money and power. Power is 
how big something is and energy is how long you run it, and if 
it is smaller you pay less for it and you use less energy while 
you are doing it. That is an absolute fact. That is an 
engineering problem, and the man on the street can't solve it 
but the design engineers can solve it. You give me any machine 
you want and if I work at it long enough, I can always figure 
out how to make it smaller and use less energy. It is just a 
matter of motivation. We have the technology. And if we don't 
do the efficiency first, then we will never be able to solve 
the problem with alternate fuels. We want to adopt a slogan, 
efficiency first. That is the first order of business.
    Mr. Matheson. Thanks, Mr. Coad.
    Mr. Ehlers. Will the gentleman yield?
    Mr. Matheson. I am happy to yield, yes.
    Mr. Ehlers. Just one quick comment on that. We saw what 
happened after the 1973 energy crisis. What I think really 
soured a lot of the public on this since they didn't understand 
it was all the shysters who got in the market selling all sorts 
of products which they promised would save tremendous amounts 
of energy. Most of them were not worth anything at all. And so 
I just want to put in a plug, and I know you are working on 
this but I will put in a plug to have really good standards so 
the public doesn't get fooled because they have no way of 
measuring energy. They have to be assured that when they buy 
something that it actually is going to work and is going to 
help.
    Mr. Coad. I agree with you 100 percent.
    Mr. Ehlers. Thank you. I yield back.
    Chairman Baird. Ms. Giffords.
    Ms. Giffords. Thank you, Mr. Chairman. I thought Mr. 
Carnahan was on our subcommittee. You should join our 
subcommittee. It is a good one. Thank you for visiting.
    Chairman Baird. We will get to Mr. Carnahan. We are not 
being rude to Mr. Carnahan. We generally proceed in the order 
of arrival but Mr. Carnahan is joining us as a guest today so 
he is last. He bats cleanup for us today.
    Ms. Giffords.

                  Efficiency in the Federal Government

    Ms. Giffords. Mr. Chairman, thank you for holding this 
hearing and for our panelists' incredible discussion. My first 
question is for Mr. Chalk. I am very interested in what DOE can 
do to help promote adoption of best practices in building 
design and also retrofits throughout the Federal Government. I 
thought it was pretty astounding that 80 percent of the energy 
used by the Federal Government is used by the Department of 
Defense. I serve on the House Armed Services Committee and I am 
particularly interested in how we can help the military to 
adopt best practices in energy efficiency and renewable energy 
and operations and installations. So can you please tell me how 
the DOE is working to help promote building efficiency within 
GSA and also the DOD? Is there anything happening within DOD 
that might also help inform research at the DOE and what 
efforts are available for cross-pollination?
    Mr. Chalk. We have a program within Energy Efficiency and 
Renewable Energy called the Federal Energy Management Program, 
which is responsible for overseeing energy across the Federal 
Government, help get agencies the tools they need to save 
energy, and one of the best mechanisms we have for that are 
things called ESPC contracts, which are energy savings 
performance contracts where, you know, typically if you want to 
modernize your building or make it more energy efficient, you 
have to have up-front appropriations to do that. What this ESPC 
mechanism allows is private contractors to come in, they 
specialize in energy efficiency. They will put all the up-front 
money to switch out the lights from incandescent to fluorescent 
or, you know, upgrade insulation, HVAC systems, chillers and so 
forth. They will put all the up-front capital to modernize the 
building and then they get paid through the actual savings in 
the utility bill. So that is typically the primary mechanism 
that the Department of Defense is using, and they are doing a 
very good job at this. And actually if you look across all 
federal agencies, the Department of Defense is one of the 
leaders in terms of actual energy saved and in terms of putting 
somebody in charge accountable for energy management. So they 
are very, very good example. And so what our program does is, 
it gives people the tools to do that.
    Ms. Giffords. One of the specific problems we have, I come 
from Tucson, Arizona, is the heat of the Southwest, and I know 
specifically, well, not just with our military installations 
but our other government buildings as well, we have a real 
problem in keeping our buildings cool during the hot weather. 
So I am curious about the unique research challenges for the 
green building program. Is it insulation? What are the real 
possibilities that we can develop when you are talking about a 
climate that gets to be 115, 120 degrees?
    Mr. Chalk. Well, the first thing to do is no air 
infiltration, and so it is about the building envelope, how 
well you are insulating it, making sure you don't have thermal 
bridges and conductivity. But then I think the breakthrough 
could be in new cooling technology and we are looking at 
several different approaches at the Department of Energy 
because cooling technology has advanced greatly. Heat pump 
technology and so forth is much more efficient than it was even 
10, 15 years ago, so if you have a heat pump that is 15 years 
old, you can do a lot better today than that. But we can go 
beyond that to new technology for cooling and I think that is 
an area of emphasis going forward for our program, especially 
in the commercial buildings area.

                  Implementing Demonstration Projects

    Ms. Giffords. And finally, Mr. Chairman, for all the 
witnesses, one of my great concerns that I have, and we sit 
through a lot of these committee hearings, whether we talk to 
NREL or the high-performance green building consortiums and 
others and the work that is being done is very impressive, but 
I think that we need to move beyond pilot programs, pilot 
projects and demonstration projects to actually put what is 
being done in little specific areas out for the entire building 
industry. So if a couple people could please comment on how we 
go from these little projects to really implementing more 
national programs?
    Mr. Chalk. I will comment just briefly. As we build these 
alliances in the commercial buildings area, we are building a 
database so every building that has demonstrated will go into 
the database, how it is used, what its energy use is, and we 
will take data on those buildings so this would be education 
out there to other architects, other developers so they can see 
what has been demonstrated at a much larger scale that goes 
beyond the research and development.
    Dr. Ehrhardt-Martinez. I would just like to add to that, I 
think that it is really clear that, you know, the whole 
question of distribution of technology and the diffusion of 
technology again is very much rooted in understanding human 
decision-making and, you know, when and why people decide to 
adopt these technologies and so again I think that the social 
and behavioral sciences need to play an important part in that 
process.
    Chairman Baird. I think Mr. Coad had a comment he wanted to 
add.
    Mr. Coad. I am the air conditioning guy. I can't not answer 
that question. The first thing you do when you are in Tucson 
and you are building a building is that you don't build a 
building the same way you would build it if it were in San 
Francisco. You don't build a building out of all glass with an 
enormous cooling load. You build a building so it has less of a 
cooling load. You use less glass and you use better insulation 
and then your cooling system will be smaller, it will cost you 
less money and it will use less energy. So the engineering and 
the architecture is, I mean, that is where it all begins in 
buildings. When you are building a new building, you reduce the 
load just by configuring the building of the right materials 
and so forth and then you are going to reduce the cost and the 
energy from then on. Thank you, Mr. Chairman.
    Ms. Giffords. And Mr. Chairman, just a comment. There was a 
federal courthouse built in Phoenix a couple of years ago, a 
glass building that is probably the most energy-inefficient 
building ever constructed where the guards that sit down at the 
entrance in the summer have fans blowing on them, in the winter 
have little space heaters. I mean, it is a huge atrium that has 
been constructed. And again, you know, it is a federal 
building, beautiful by design but incredibly inefficient and 
certainly is going in the wrong direction.
    Mr. Coad. I certainly agree with you. I am very familiar 
with the building and you are right.
    Chairman Baird. Those buildings tend to be water 
inefficient as well, as some of them cool by spraying water 
into the air in a desert. It makes an awful lot of sense. As 
you know, Ms. Giffords, the Chairman of the Transportation and 
Infrastructure Committee, Mr. Oberstar, has been a passionate 
advocate of green buildings for the Federal Government and in 
fact the stimulus package had a substantial element in that but 
it is only right that the Federal Government lead the way and 
we need to find more and more opportunities. I thank you for 
the line of questioning.
    Mr. Tonko, as many of you know, has a long history in 
energy from his work in New York State. Mr. Tonko, thank you.

                      Green Infrastructure Funding

    Mr. Tonko. Thank you, Mr. Chairman. As was indicated, I had 
past experience most recently prior to this job as president 
and CEO of NYSERDA, the New York State Energy Research and 
Development Authority, very much pronounced activities in 
energy efficiency and retrofitting R&D investments. So my 
question would be following on Mr. Matheson where you talked 
about the successful retrofitting of programs through DOE. So 
Mr. Chalk, the next question I would have of that is, are we 
adequately funded within the building technologies program to 
be aggressive with the building infrastructure across this 
country? Are we at a level that is reasonable?
    Mr. Chalk. Right now we have adequate funding, but I would 
also add to that that building efficiency is one of Secretary 
Chu's top priorities, so I think you will see more and more a 
priority placed on this, as everybody has said here, the 
significance of the energy consumption, greenhouse gases and 
water use.
    Mr. Tonko. So does that imply that we will just grow that 
program with the human infrastructure needed at DOE?
    Mr. Chalk. I think across the Federal Government we will 
see so much more emphasis on building efficiency: within the 
Department of Energy, within GSA, within EPA and so forth.
    Mr. Tonko. I mentioned NYSERDA. The New York City office of 
NYSERDA is a net-zero office, and based on the Energy 
Independence Act of 2007, we are targeting 2025, I believe, as 
aiming to provide the net-zero outcome to a full-scale 
approach. Don't we need to be much more aggressive about that 
targeted year?
    Mr. Chalk. I think that there are quotas associated with 
certain years in the Act. Right now with our funding levels we 
are on track by 2025 to meet that and what we talk about--so it 
is net zero now. But we talk about is affordable, you know, 
widespread market adoption so we are talking about when the 
commercial space about having a payback for that within five 
years. That is still a challenge, affordability, the cost of 
the technologies and we are going to get more elaborate 
building controls because we can get more efficiency. That is 
the emphasis of our R&D and we are still a ways from achieving 
those goals for a five-year payback.
    Mr. Tonko. In regard to the R&D, are we supportive enough 
with the prototype stage? I know that we seem to be aggressive 
about funding prototypes and then a number of nations pick up 
on our R&D at that first stage and then we don't follow through 
with the deployment into the practical and commercial stages. 
Do we need to be more aggressive in the follow-up of prototype 
investment?
    Mr. Chalk. Yes, the Department actually does very little--
pays for very little demonstration. We pay for the R&D. We work 
with the code organizations so that new construction or major 
retrofits are more efficient and we actually don't demonstrate 
a whole lot. Our partners actually do the demonstrations.
    Mr. Tonko. So maybe to other members of the panel, is there 
any reason to believe that we need to be ratcheting up the 
investments made in the post-prototype stages?
    Dr. McQuade. If I may, sir, I think there are two aspects 
to the question, so the easy answer is yes because taking the 
large investment that DOE is making and turning those into 
deployable solutions is not happening fast enough.
    Mr. Tonko. I think it is a real weakness in the energy 
culture of this country, so what would you recommend we do and 
where do we focus and target that?
    Dr. McQuade. Yes, I think there is a second part of it, and 
I will refer to Mr. Chalk's comments on where research and 
development is spent. In some sense, I will use the word 
``easy.'' It is easy to do a one-off building and make it 
energy efficient. Part of where the research has to be focused 
is making solutions that are easily deployable at scale so that 
every building is not unique. We need tools that are deployable 
across the design space. We need simulation and modeling 
capabilities of buildings so that every building doesn't have 
to start from ground zero as a new project that no one has ever 
approached before and I think there is a significant investment 
now and continuing investment at DOE in developing generic 
tools that can provide generic building operating systems and 
capability so that it is not just, 11let me do a demonstration 
project and deploy that,'' it is, ``let me do a demonstration 
project and deploy that to multiple classes and kinds of 
buildings going forward.''
    Mr. Tonko. And that that adjustment you believe can come 
through DOE?
    Dr. McQuade. Yes, I do.
    Mr. Tonko. Okay. And if in fact our behavior here is driven 
by economics and if the economics are played with by those who 
supply us a fossil-based economy, is there a way to deal with 
counter-economics where we provide the right incentives or the 
punitive measures? It seems to me we can figure out an 
efficient environment, the cost of an energy-efficient 
environment. Should those who want to be gluttonous in their 
usage pay beyond that reasonable amount?
    Dr. McQuade. I think that--so the easy answer to the 
question is that you need to recognize the energy cost in the 
solutions you make, and that today the reasons some of the 
economics don't play out over the long-term--we talked before 
about the need to get that sort of last 20 or 30 percent of 
building efficiency. Right now those come from solutions that 
are economically unviable, and through a whole series of 
mechanisms to increase energy costs or increase, you know, 
recognize carbon costs, you can change that economics. I start 
from a more basic assumption that says the way to change those 
economics long-term is to invest in the technology that is 
going to change that. That is a combination of public and 
private partnership investment. Reducing the cost of those 
technologies is the one constant that allows us to make more 
efficient buildings in the future and change that economic 
situation.
    Mr. Tonko. What about aggressive energy code enforcement? I 
mean, how are we letting buildings as that described by my 
colleague a minute ago in the State of Arizona----
    Chairman Baird. We are a bit over time. I want to make sure 
I recognize Mr. Carnahan. We will get back to you, I hope.
    Mr. Carnahan. Thank you, Mr. Chairman, and thanks to all 
the panel for weighing in on this. I really think that this is 
an exciting time for this issue and a lot of things have 
aligned to get some big things done we haven't been able to in 
the past. This issue has been around for a long time, as Mr. 
Ehlers mentioned earlier, but I think working with the private 
sector, the government has a key role in setting standards, 
creating incentives to really motivate consumers to grow the 
market but, also even to set an example in terms of our federal 
building infrastructure, and just a couple of comments. I know 
that Mr. Chalk mentioned this but one of the unique things that 
we have heard mentioned is how we can build into whether it is 
residential or commercial mortgages these kind of incentives 
that take into account cost savings and operational cost of the 
building. Because right now we are missing some of those things 
and that will be an incentive for buyers that certainly want to 
buy those kind of buildings that are more efficient but also to 
incentivize that from the building and the lending perspective. 
So that is just one good example.

                  High-Performance Building Standards

    A couple of questions I wanted to throw out here to the 
panel. There is certainly a need to define high-performance 
building standards which potentially could be above and beyond 
existing building codes, and if there was adequate funding, 
what would these sort of enhanced high-performance building 
models look like in terms of getting them out there for use 
among the public and in the building sector? Dr. Coad.
    Mr. Coad. I sound like a broken record but it is efficiency 
first. A high-performance building must be a super-energy-
efficient building. That is the primary focus. The next thing 
it has to be, and this is why it is high-performance, it has to 
perform just as well as far as satisfying the needs of the 
people that occupy the building and the needs for their comfort 
and their productivity. So that is really where we are heading 
with high-performance buildings and hopefully we are going to 
get there, and to address the other question, I think the 
private sector has to move the building technology forward 
based on these standards for high-performance buildings.
    Dr. Ehrhardt-Martinez. Could I add to that? I would also 
argue that we really need to include in standards some kind of 
provision that provides feedback to people with regard to their 
energy consumption because the point that was made earlier 
about the fact that people--I mean, people can't manage what 
they don't see, and you know, you are trying to manage your 
energy based on a bill that you get after the fact and the fact 
that you don't really see how the energy is being consumed in 
your home. You know, people are left really powerless, in a lot 
of ways, to change their behavior in ways that matter because 
they don't really see the effects of the changes that they 
make. And there is already research evidence that strongly 
suggests that just by providing these feedback mechanisms to 
people in their homes, that simple step empowers people to 
actually take on the challenge of changing their own behaviors 
without any other kinds of incentives, without any other kinds 
of--whether economic or non-economic types of incentives. So I 
think that that really has to be an important part of the 
equation.

                       Life Cycle Energy Pricing

    Mr. Carnahan. Thank you. And I am going to jump to one more 
question as my time is running out. One of the problems we have 
also seen is the separation of the acquisition and operational 
aspects of buildings and it is really a dichotomy that has been 
difficult to bridge but in terms of taking into account the 
full life cycle cost of buildings, can you all address that 
issue?
    Dr. McQuade. If I may, just a couple of statistics. First 
of all, most modern commercial buildings today, more than 80 
percent of the energy and carbon associated with those 
buildings are in operation. They are not first costs on the 
building. We think there is a very important role that is 
needed in establishing labeling mechanisms. I am talking about 
commercial buildings now as opposed to residential buildings, 
sort of uniform labeling mechanisms that allow people to know 
how buildings operate, not just as designed but over the life 
of those buildings, so whether those are periodic auditing 
programs that take into account real performance on buildings, 
people who are buying space in new buildings need to know how 
those buildings are functioning not as they were designed 10 
years ago but as they function today and so we think there is a 
very strong role for setting those kind of labeling standards.
    In terms of regulating performance, I offer you one 
statistic. In the United States over 100 years, we have 
accepted certain codes and capabilities that make our buildings 
safe, sprinkling systems, fire detection systems. Estimates are 
that those add about four percent total to the cost of 
buildings over what we have developed over time. The numbers we 
are talking about here for making buildings 70, 80 percent 
efficient likely add numbers of eight to ten percent. So it is 
a comparable scale to achieve a national strategy of reducing 
energy comparable to what we accept as a cost that our 
buildings should bear in the marketplace over time. So we are 
talking about numbers that are appropriate and conceivable in 
the kind of challenges and tradeoffs we have already made for 
something as important as the energy security of this country.
    Chairman Baird. An outstanding line of questioning, and I 
think the issue there is also the net cost at the end of the 
day, and I appreciate Mr. Carnahan's reference to life cycle 
costs. I have been told that, for example, LEED standards are 
all about the energy efficiency of the building as an envelope 
but they don't look at the net life cycle cost of the materials 
that go into the building so hence wood, which is a much more 
energy-efficient product to create than concrete or steel 
generally, is not counted as extra credit and indeed may not be 
counted as a structural material at all in LEED, and certainly 
as someone from timber country, they believe, and I think with 
justification, that life net total life cycle costs ought to be 
factored in.
    Mr. Carnahan also mentioned the issue of standards and that 
leads to a question I want to ask in deference to my friend and 
colleague, Mr. Wu, who heads the Subcommittee with jurisdiction 
over NIST. I wonder if any of you have had interaction with 
NIST as we look at standards and if we were to look towards 
developing a standard metric for how we evaluate codes or 
measure building technology and efficiency, what role does NIST 
have or should NIST have in concert perhaps with DOE? And I 
open that to the panel.
    Mr. Chalk. Well, first I ought to speak on that. The 
relationship with DOE and NIST is very good. In fact, DOE funds 
NIST with about $1 million a year out of the DOE budget, and 
they help us do the appliance test procedures. They help us an 
awful lot on indoor air quality and ventilation and helping 
setting standards and best practices in that area, and in fact 
there is an overall interagency group that meets under OSTP 
that NIST and DOE co-chair and they meet quarterly, so we are 
at DOE working very closely with NIST on all of these issues 
and especially in our new Commercial Buildings Initiative.
    Chairman Baird. Mr. Coad.
    Mr. Coad. Mr. Chairman, NIST is represented on the High-
Performance Building Council as is DOE.
    Chairman Baird. So they work together with you?
    Mr. Coad. Right. They are all part of the council.
    Chairman Baird. Is that an effective partnership in your 
judgment? Are there things that NIST ought----
    Mr. Coad. Very effective, yes.
    Chairman Baird. So that has been working for you?
    Mr. Coad. Yes.
    Chairman Baird. Mr. Cicio, did you have any comment on 
NIST's role with your efforts?
    Mr. Cicio. No, sir.
    Chairman Baird. Dr. McQuade, did you have a comment on it?
    Dr. McQuade. No comment.

                      Means of Informing Consumers

    Chairman Baird. What do you think might be some of the 
impact of--you know, when we buy cereal, it says you have got 
vitamin A or D or whatever in it. When you buy a house, you 
almost, you know--Mr. Inglis and I were talking. One would 
think that as informed consumers one would ask what is the cost 
of the heat of this house or the air conditioning of this house 
if you are in Arizona. But to my knowledge there is no 
mandatory reporting of the net energy usage of homes or 
industrial buildings, again, recognizing the caveats about the 
user function. What would be the impact of informing people as 
part of the home purchase--you know, you fill out 100 damn 
documents--pardon me--darn documents, you know, you are filling 
these things out, you are signing them and you don't know what 
they are. But something that says look, pal, you are going to 
spend $400 a month over and above your mortgage cost just to 
heat or cool this place. What are the--would there be merit to 
that, to having to do that at point of purchase? Mr. Coad.
    Mr. Coad. In commercial buildings, there is what we call 
commissioning and retro-commissioning to where you go in and 
you do like an audit each year on how the building is 
performing, and one of the things you check is the energy 
consumption. It would be very, very, very easy to require that 
a building be retro-commissioned before a person buys it. I 
would see nothing wrong with that at all. And it would seem 
like with leadership from the Congress or the States or 
somebody, these would be pretty simple instruments to implement 
for the sale of a home.
    Chairman Baird. Well, when you look at how many homes are 
funded either through FHA or VHA, Freddie, Fannie, et cetera, 
it ought to be fairly easy to require something like that and 
then people could see. I think it makes an awful lot of sense.
    Mr. Coad. And all the records are available through the 
utility companies now instantaneously.
    Mr. Chalk. The Department has developed a scale, and I 
hesitate to hold it up because it is too small, but we have a 
scale from zero to 100 as part of our Builders Challenge, which 
is getting builders to build homes 30 percent more efficient. 
So they would score a 70 on that. As you go to zero, you would 
go towards net-zero-energy homes. So we have developed such a 
scale and it is not mandatory, of course, but some tool like 
this would definitely inform consumers and make that----
    Chairman Baird. I think that is really good for new 
buildings. I am not smart enough to know the answer but my 
guess is 90 percent of home sales at least are existing 
structures, and so my hope would be that when you shop 
buildings, that homeowners would say--back to Mr. Inglis's 
point, do you make the investment or not? If homeowners had 
reliable, ready information about the energy efficiency of a 
home, it would be part of their comparison shopping, and if it 
were mandatory that that be given to people, now my investment 
pays--otherwise it rolls off the tongue, well, I have got low E 
double-pane windows and a new furnace and blah, blah, blah. 
That is real money on top of your mortgage expense, and the one 
house now, its monthly payment is much higher than the other 
house because the other house has made the investment, that is 
valuable with existing structures.
    Mr. Chalk. Right now it is voluntary. We have a Home 
Performance with Energy Star, DOE and EPA, where people can go 
in and do the measurement and then tell you what efficiency 
measures to take care of, but it is a voluntary program. It is 
not mandatory.
    Chairman Baird. Mr. Cicio.
    Mr. Cicio. Mr. Chairman, I think you are absolutely on 
point. The combination of knowledge and then transparency 
empowers people to know the economics of choices, and just 
referencing the industrial sector, before we invest in a new 
electric motor, for example, we will know how many BTUs per 
kilowatt, we are going to know how energy efficient. It is part 
of the informed decision. And I think the residential sector 
needs that same informed knowledge.
    Chairman Baird. Dr. Ehrhardt-Martinez.
    Dr. Ehrhardt-Martinez. Yeah, I would have to agree. I mean, 
there is a lot of evidence to suggest that labeling programs 
can be really effective and I think that integrating that kind 
of program in terms of, you know, whether it occurs you know, 
related to the inspection of a home or prior to that when the 
home is up for sale, I think that could be a really effective 
way of empowering, you know, home buyers to make wiser choices, 
and that is part of, I think, you know, an effort associated 
with the field of behavioral economics in terms of what they 
call choice architecture which can go a long way to helping 
people make smarter energy choices.
    Chairman Baird. My guess would be it would have to--as a 
behavioral scientist and somebody that has bought some homes, 
my guess would be it needs to be listed on the MLS.
    Dr. Ehrhardt-Martinez. That would be the preference.
    Chairman Baird. So cost of home, cost of heat, you know, on 
the transportation side. I think we ought to also frankly put 
in information about the net cost of getting to and from work 
because when people move way out to the 'burbs thinking they 
are saving an awful lot of money on their home and then have an 
hour-and-a-half commute in, that is a pretty false economy.
    Dr. Ehrhardt-Martinez. Right, and there are other--I mean, 
obviously with that particular example there are non-energy 
benefits associated with, you know, living closer as well in 
terms of time savings and whatnot.
    Chairman Baird. But we don't quantify that in a way that is 
meaningful to purchasers.
    Dr. Ehrhardt-Martinez. Exactly.
    Chairman Baird. Mr. Inglis.

       Encouraging Efficiency at the Various Levels of Government

    Mr. Inglis. Thank you, Mr. Chairman. We were just talking 
about the first house that my wife and I bought. We were warned 
in advance that it had resistant baseboard heaters but we 
didn't really pay attention to that until that first bill came, 
and then we were shocked what January in South Carolina does 
when you have got resistant heaters on baseboard. But also I 
went and watched the meter go around and that gave me an even 
quicker feedback loop about, you know, the thing looked like it 
was about to catch on fire as it spun. So the question I think 
for us in a lot of these kinds of initiative is, who is going--
who does what? My view is that balancing the budget is a lot 
about answering that question is who does what. If you get it 
at the right level of government, then you get--you can 
actually go toward balancing the budget. And in this case, the 
question is, these great ideas we are talking about here that 
really do sound pretty exciting to me, are they best done at 
the federal level or are they best done through model codes 
that then are adopted by, say, Greenville and Spartanburg 
County, South Carolina, and enforced at Greenville and 
Spartanburg level? What do you all think about that?
    Mr. Chalk. Well, the Department, I think, one of the assets 
it has is the R&D, the national laboratory, so I think the 
proper federal role is to sponsor a lot of the R&D and we are 
seeing that R&D, the fruits of that labor creep into building 
codes, and to address the earlier comments, through the 
Recovery Act, $3.1 billion was available to states for the 
State Energy Program, but to receive that money, governors of 
the states had to pledge to the Secretary that they would adopt 
the 2007 commercial code and the 2006 residential code in order 
to receive that money. So even though the standards are 
voluntary, I think we are seeing mechanisms to incentivize 
folks who are adopting those. And through a lot of our R&D, the 
successes there actually creep into the code and then hit the 
local level, so I think you are seeing a lot of that. I think 
that has been pretty effective working with the code 
organizations.
    Chairman Baird. Mr. Coad, do you want to address that?
    Mr. Coad. The voluntary consensus standards are pretty 
powerful devices and virtually all the states that have a 
building code have picked up ASHRAE standard 90 for commercial 
buildings and they also have a standard for residential 
buildings that is being promulgated. I think my personal 
feeling is that the proper role of the Federal Government is in 
leadership and education and incentivizing the states to do 
these things rather than having other departments of the 
Federal Government getting involved in something that really 
are local issues. But the consensus standards are out there and 
they are getting better all the time. And now we are starting 
to have other kind of activities like doing so much better than 
the standard because the standards aren't really as far as you 
can go and we can do better than the standards, so that is a 
lot of incentive in that direction. So they are being pretty 
effective on that but it is just that we are not--we haven't 
gotten real serious about it throughout the country. We need 
better leadership, I think, or more leadership to realize that 
this is a big problem.
    Mr. Cicio. The local politics are often driven by builders 
whose primary--I don't want to over-generalize--is very cost 
conscious and have a history, I should say, of resisting any 
costs including energy efficiency costs. So while 
philosophically it sounds great to keep those decisions at the 
local level, maybe possibly the only way you really are going 
to get this done is through a federal mandate.
    Dr. Ehrhardt-Martinez. I would have to agree with that 
sentiment, although also provide the possibility of having a 
Federal Government standard but also having a Federal 
Government program that would provide incentives to states and 
perhaps localities to, you know, exceed those standards so to 
provide other means of encouraging that kind of behavior at the 
local and State level.
    Dr. McQuade. I would just add maybe slightly off the 
subject that in addition to the leadership role that we talked 
about before, there is a leadership role in the set of 
buildings that are managed by the government, the GSA portfolio 
and the DOD portfolio, and conversation about local versus 
national standards, being out in front with energy-efficient 
performance in federal buildings I think is a leadership role 
that the government has to take as a way to demonstrate the 
seriousness of the issue to people.
    Mr. Inglis. Very helpful. Thank you, Mr. Chairman.
    Chairman Baird. We have about six more minutes left so I am 
going to ask our colleagues be brief. Mr. Tonko has a question 
and then Mr. Carnahan.
    Mr. Tonko. Thank you, Mr. Chairman. I couldn't agree more 
with the sentiments about having a federal focus on a 
comprehensive energy plan. If we are going to pick and choose 
here, we will never accomplish the numbers we need. I would 
hope that at the local level we would have the information 
squad that would allow people to understand just what their 
actions mean and the actions they can take.
    The only line of questioning I wanted to pursue that I 
didn't have time for earlier was on this whole buildings 
agenda. How is it that the Federal Government occupies a 
building that is energy inefficient? Was that building built by 
the Federal Government or is it just rented space?
    Mr. Coad. Which building?
    Mr. Tonko. The one in Arizona that my colleague was 
mentioning.
    Mr. Coad. That was built by the Federal Government.
    Mr. Tonko. So how is it that we don't have the coordination 
at a federal level to even do our own infrastructure energy 
efficient-wise?
    Mr. Coad. I can't answer that.
    Mr. Tonko. Who can?
    Mr. Chalk. Right now through our Federal Energy Management 
Program, there is a conscious effort across the Federal 
Government to reduce water use, and increase energy efficiency 
by 30 percent by 2015.
    Mr. Tonko. How old is the building that my colleague cited?
    Mr. Coad. It is a reasonably new building.
    Mr. Tonko. So how is it in the midst of an energy crisis we 
allowed a building like that to be built?
    Mr. Coad. I would ask that question to----
    Mr. Tonko. So we can start right at home with our own 
buildings and certainly if we are providing federal funds for 
any building construction, private sector and public, shouldn't 
we have an energy code maintenance, a requirement, and can we 
put in some sort of outside the public realm where there is no 
public dollars, can we put some sort of incentive in that 
addresses your mortgage or whatever just for being energy 
efficient? It seems as though there are aggressive actions that 
can be taken and there are commissions of negligence in recent 
past history that need to be addressed by federal policy.
    Mr. Chalk. I would say the federal buildings that would go 
up now would have to comply with the codes, and the codes just 
recently have become much more energy efficient than they were, 
say, 10 years ago. So I think progress is being made when new 
federal buildings are being built.
    Mr. Tonko. Because of our gross neglect, I think we need to 
get very aggressive about energy efficiency, see it as our fuel 
of choice, give it our highest priority and move forward with a 
plan that finally addresses the demand side of the equation 
which has long been overdue.
    Mr. Coad. Sir, I agree with you 100 percent.
    Chairman Baird. Well said, Mr. Tonko.
    Mr. Carnahan, no additional comments?

                                Closing

    I think the take-home from this needs to be, many 
industries have made a real effort in terms of marketing basic 
numbers. I don't think if you ask the average American or 
Member of Congress, for that matter, what percentage of our 
energy consumption goes to the uses that we have talked about 
today. Most of us would probably be well off that mark, and if 
we are off that mark, then we are going to be off the mark in 
terms of targeting our interventions. And we have learned today 
the targeted interventions can be an--not can be, must be an 
essential part of solving our nation's energy independence, 
global warming, overheating and ocean acidification and our 
economic woes because the money that is saved is money you get 
to keep and so I applaud our witnesses for a very stimulating 
and most informative discussion. I wish every American could 
have tuned into this and all of our colleagues as well. I thank 
my colleagues and friends on the panel. Mr. Carnahan wanted a 
final remark and I recognize Mr. Carnahan.
    Mr. Carnahan. Just one brief comment. I want to thank 
Chairman Baird for his leadership on this issue, and it has 
been one of my personal missions to be sure that when somebody 
gets up and talks about energy policy in this country, they 
don't leave out high-performance buildings because I have had 
three-fourths of the people I see stand up and talk about our 
energy policy and what we need to do as a country don't even 
mention it. So we have to be sure this is involved in this 
national conversation and I thank all the panel for what you 
are doing to make that happen. Thank you.
    Chairman Baird. Excellent point, Mr. Carnahan, and I 
applaud your leadership. We talk about carbon sequestration and 
electronic vehicles and fusion energy, et cetera, and making 
our businesses and homes more efficient may be a whole lot more 
efficient and affordable in the shorter-term, and I applaud 
your leadership.
    With that, the hearing stands adjourned. I thank our 
panelists and witnesses, excellent testimony, and my 
colleagues. I have to always say the record will remain open 
for two weeks for additional statements from the Members and 
for answers to any follow-up questions the Subcommittee may ask 
of the witnesses. The witnesses are excused. Thank you.
    [Whereupon, at 11:59 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Steven Chalk, Principal Deputy Assistant Secretary, Office 
        of Energy Efficiency and Renewable Energy, U.S. Department of 
        Energy

Questions submitted by Chairman Brian Baird

Q1.  During the question and answer period of the hearing you said that 
DOE and National Institute of Standards and Technology (NIST) have a 
very good working relationship. Describe how DOE works with NIST on 
building code development. What specifically does DOE fund NIST to do? 
You also mentioned that you work with NIST on the new Commercial 
Buildings Initiative, what are you working with them on?

A1. The Department of Energy (DOE) collaborates with the National 
Institute of Standards and Technology (NIST) in several ways. For more 
than 12 years, DOE and NIST have co-chaired a series of buildings-
related R&D subcommittees on the National Science and Technology 
Council, Committee on Technology. This co-chair collaboration includes 
development of R&D agendas, research, and other activities. NIST has 
also provided technical expertise in support of International Energy 
Agency work on building commissioning, and has made significant 
contributions in evaluating the usefulness of building commissioning. 
In addition, in accordance with section 324 of the Energy Policy and 
Conservation Act (EPCA), since the mid-1970's DOE has worked closely 
with NIST on the development and update of test procedures for consumer 
products and certain commercial and industrial equipment under the 
Energy Conservation Standards Program.

Q2.  In your testimony you state that DOE is ``actively engaged in the 
ASHRAE standards process by providing technical assistance to support 
the upgrade of standard 90.1.'' Please describe how you work with these 
voluntary consensus groups and what kind's research and development 
activities you are involved in that helps inform the process?

A2. The Department staff participates as a voting member on the 
Standing Standards Project Committee 90.1, recommends amendments to 
standard 90.1, and seeks adoption of technologically feasible, 
economically justified energy efficiency measures, as required by 
section 307(a) of the Energy Conservation and Production Act (EPCA). 
DOE shares its research and demonstration results from technology areas 
and high-performance building alliances, such as information from the 
Advanced Energy Design Guides. The design guides are jointly produced 
by DOE; the American Institute of Architects; the American Society of 
Heating, Refrigerating and Air-Conditioning Engineers; the Illuminating 
Engineering Society of North America; and the U.S. Green Building 
Council.
    DOE also performs technical analysis and building energy modeling 
which it shares with the Standing Standards Project Committee 90.1 in 
its deliberations. This analysis and modeling has included development 
of new regression equations for use in setting envelope requirements, 
identification of new cost information, development of hourly load 
profiles for building prototypes, technical analysis of lighting issues 
dealing with lighting power densities, whole building simulation 
support necessary to supply the Envelope and Mechanical subcommittees 
with the results they need to develop changes, and modification of the 
requirements in the energy cost budget chapter and appendices to 
capture addenda such as new distribution transformer requirements and 
new variable speed chiller efficiencies. The Department's Pacific 
Northwest National Laboratory personnel chair the Lighting 
Subcommittee, and participate on several other subcommittees as members 
or consultants.

Q3.  There are many specific R&D technologies and models identified in 
the National Science and Technology Council report on net-zero 
buildings issued last year. How does DOE prioritize what areas of 
research to pursue?

A3. The prioritization of technology topics for funding occurs at 
multiple organizational levels, and is driven by public policy goals 
established through authorizing legislation, and national policy 
documents and plans. For the Building Technologies Program (BTP), the 
research agenda is designed to achieve the technical and economic basis 
for marketable net-zero energy performance in residential construction 
by 2020, and in commercial construction by 2025.
    Additional goals for implementation in the commercial market were 
established by the Energy Independence and Security Act of 2007 (EISA). 
These goals include all new construction to be net-zero energy by 2030, 
50 percent of commercial building stock to be net-zero by 2040, and 100 
percent of commercial building stock to be net-zero by 2050. At this 
time there are no time-specific goals for the retrofit of existing 
housing stock analogous to the EISA goals for commercial buildings 
retrofits.
    The technical research goals of developing net-zero energy 
buildings take into account costs to ensure broad applicability of 
research results to the market. For example, residential net-zero 
performance should have a net-zero cash flow on an annual basis to the 
homeowner, based on a 30-year fixed-rate mortgage and benchmark energy 
costs. Also, the BTP is working toward a five to seven year payback on 
the incremental cost of achieving net-zero energy performance in 
commercial buildings. The BTP conducts an annual multi-year planning 
process to update its research agenda based on a number of factors, 
including:

        <bullet>  Current and projected funding levels;

        <bullet>  Technical progress on funded work, informed by peer 
        review and StageGate reviews;

        <bullet>  Technology roadmaps established and updated with 
        stakeholders;

        <bullet>  Technology pathways (including risk assessment, 
        barriers to development and adoption) developed analytically;

        <bullet>  External technology developments;

        <bullet>  Projected gaps in technical performance and/or cost 
        of performance for whole-building systems-engineered net-zero 
        energy performance;

        <bullet>  Market trends and analyses;

        <bullet>  Stakeholder input;

        <bullet>  Contingency plans for increased/decreased resources 
        (e.g., having a developed list of unaddressed opportunities)

        <bullet>  Changes in Congressional authorizations, 
        Administration policies and/or priorities (including OMB budget 
        guidance, OSTP/NSTC guidance).

    Each technology area (e.g., residential integration; commercial 
integration; solid state lighting; Heating, Ventilation and Air-
Conditioning; Solar Heating and Cooling; thermal envelope and windows; 
and analysis tools) also develops an individual multi-year plan. These 
individual plans are then integrated in an annual workshop to ensure a 
coordinated set of activities are being pursued that can deliver on the 
long-term goals of the program. The integrated plan is published on the 
Internet and can be found at http://www1.eere.energy.gov/buildings/
mypp.html. The multi-year plan, along with other analyses, drives the 
development of annual operating plans to execute appropriated budgets, 
and to drive budget proposals within the Department's Office of Energy 
Efficiency and Renewable Energy and at the Departmental level as well.

Q4.  The Department of Energy as well as other agencies fund several 
different buildings consortiums. For example there is a High-
Performance Green Building Consortium, a High-Performance Building 
Council and a Commercial Building Energy Alliance. How are these 
partnerships coordinated? How does DOE choose which to participate in?

A4. As required by the Energy Independence and Security Act of 2007 
(EISA), the Department formally recognized 11 high-performance green 
building consortia through a Federal Register Notice process, and 
competitively selected a single supporting consortium with which to 
consult in the implementation of the High-Performance Green Commercial 
Building Initiative (CBI). The CBI is designed to achieve net-zero 
energy performance in all commercial buildings by 2030 and in the 
entire commercial building stock by 2050. The formally recognized 
consortia have their contact information listed on the DOE web site and 
act as informal resources for the CBI. The supporting consortium, 
consisting of 150 organizations and stakeholders led by the National 
Association of State Energy Officials, is funded to coordinate input on 
CBI technical and planning topics, and to assist in communication and 
outreach with industry stakeholders, manufacturers and NGOs, among 
other activities.
    The Department, through the CBI, engages the commercial buildings 
marketplace through Commercial Building Energy Alliances (Retail, 
Commercial Real Estate, Health Care, and two others in the planning 
stages) to encourage sharing of best practices, engage with 
manufacturers to identify common technology cost and performance needs, 
and to exchange experiences with new technologies, retrofit and new 
construction practices. In addition, research technical assistance is 
being provided to 23 major building portfolio owners and operators who 
commit to retrofitting a building at 30 percent better than the current 
ASHRAE 90.1 model energy code, and to design, build and operate a new 
building at 50 percent better than code. Targeted building technology, 
systems, tools and practices research needed to contribute to the long-
term goals established by EISA, is informed by these activities.
    The High-Performance Building Council was an ad hoc structure 
formed by the National Institute of Building Standards (NIBS) to 
produce a report required by Section 914 of the Energy Policy Act of 
2005. The report was completed and delivered to Congress; it focused 
primarily on the needs for improved voluntary consensus standards for 
high-performance buildings. The Department provided funding to support 
this effort. The Department continues to work with the International 
Code Council and the American Society of Heating, Refrigeration and 
Air-conditioning Engineers to develop the next generation of model 
energy codes.

Q5.  In your written testimony you talk about the work of the 
Residential Integration program, and testing the results on a 
community-scale. Have you been able to demonstrate community-scale 
systems, and if so, where? If not, are discussions underway to set up 
demonstrations of this size? How do you decide which technologies to 
demonstrate?

A5. The Department's Building America Program Stage-Gates is working to 
include: development of individual technologies and practices for 
integration into whole-house solutions; proof of performance in 
prototype research homes; and implementation in production housing 
construction practice, i.e., at the community scale. The research 
focuses on solutions for each of the five general climate zones in the 
U.S.: cold, hot-dry, hot-humid, mixed humid, and marine. The 
combination of technologies to be evaluated in a prototype home are 
selected using the Building Optimization model, which compares 
combinations of options based on performance and cost characteristics, 
with results representing the best cost-optimized potential solutions 
sets. It should be noted that solution sets include systems engineering 
improvements, such as advanced quality controls protocols, and advanced 
construction practices such as value engineered framing developed 
through research projects with builders.
    Once a prototype house is built per the initial design, the team 
tests the prototype's systems for quality and energy use and makes 
necessary changes to the design to increase efficiency and cost 
effectiveness. The design must be tested and re-tested for total 
performance before it is ready for use in production or community-scale 
housing. Community-scale Stage-Gate criteria include a requirement that 
a minimum of 10 homes be constructed in at least five geographically 
dispersed locations within a climate zone. Usually the builder will 
construct the whole development using these designs. These developments 
typically have 150 to 300 homes. While the builders constructing these 
homes receive technical support, the program provides no funds for 
brick and mortar. Since the inception of the program, over 41,500 
highly efficient research homes have been built. The locations and the 
number of homes at each location can be found on the Building America 
web site at http://apps1.eere.energy.gov/buildings/
building<INF>-</INF>america/cfm/project<INF>-</INF>locations.cfm

Questions submitted by Representative Lynn C. Woolsey

Q1.  DOE's Building Technologies Program has adopted a goal of 
developing net-zero energy buildings by 2025. In December 2007, the 
National Renewable Energy Lab (NREL) issued ``Assessment of the 
Technical Potential for Achieving Net-Zero Energy Buildings in the 
Commercial Sector,'' a report to assess whether zero-energy buildings 
are achievable (attached). The study looks at how low building energy 
consumption can practically go. Our understanding is that this report 
was good, but because of the limitations in certain software, such as 
EnergyPlus, some significant energy saving options, were not able to be 
considered. Two questions:

Q1a.  Does NREL/DOE have any updates to the 2007 study that refine and/
or expand the study's conclusions?

A1a. Neither the National Renewable Energy Laboratory (NREL) nor the 
Department have updated the ``Assessment of the Technical Potential for 
Achieving Net-Zero Energy Buildings in the Commercial Sector'' study. 
However, in April 2009, NREL issued a companion study, ``Assessment of 
the Energy Impacts of Outside Air in the Commercial Sector,'' that 
expanded the original analysis to address relatively narrow questions 
surrounding the energy impacts of ventilation air needed for healthy 
indoor environments.

Q1b.  Is NREL planning to update the study at anytime in the near 
future to take into account innovations in building technologies, new 
tools to evaluate building performance, and other such developments?

A1b. The ``Assessment of the Technical Potential for Achieving Net-Zero 
Energy Buildings in the Commercial Sector'' study uses data from the 
Energy Information Administration's (EIA) 2003 CBECS and ANSI/ASHRAE/
IESNA Standard 90.1-2004 to model the commercial buildings sector. Once 
EIA releases its 2007 CBECS data and ASHRAE releases 90.1-2010, the 
Department will re-examine the need to update the study. The various 
software tools used in the study are steadily being improved to allow 
simulation of more technology options as their associated detailed 
characteristics become available for incorporation into the models. The 
Department is investing in the development of detailed performance 
characteristics of new and emerging technologies on a continuous basis.

Q2.  How can we accelerate the development of software and other 
computational kinds of technologies to accelerate the design and 
construction of ``green'' buildings? Are there opportunities for 
cooperation with commercial software companies to improve the state-of-
the-art in energy analysis? Is this an area where public-private 
partnerships can yield better results for everyone?

A2. While software and other computational technologies are essential 
tools in constructing high-performance buildings, the decisions 
designers make are only as good as the available data. In order to 
achieve its goal of market-ready net-zero energy buildings by 2025, DOE 
is actively seeking input data and accurate costs of different design 
options which only the private sector can provide.
    DOE currently collaborates with four major private sector companies 
that create Building Information Modeling (BIM) systems (AutoDesk: 
AutoCAD, REVIT; Bentley: Microstation, Hevacomp, TAS; Graphisoft: 
ArchiCAD; and Google: SketchUp) to make energy simulations using DOE's 
tool, EnergyPlus, more accessible. This year, DOE began a series of 
educational workshops with Google and Bentley to explain how EnergyPlus 
can be used within their applications and how designs are validated in 
the real world.
    In addition, university students have been creating new modules for 
EnergyPlus as part of graduate studies (without funding from DOE). As a 
result, in 2008 DOE brought more than 20 university professors together 
to discuss enhancing simulation training in universities. One way that 
DOE is embarking on such collaboration--in training and in extending 
the capabilities of EnergyPlus--is through the Higher Education Energy 
Alliance (HEEA). HEEA is one of five Commercial Building Energy 
Alliances that DOE is forming as part of its Net-Zero Energy Commercial 
Building Initiative (CBI), which aims to create market-ready net-zero 
energy buildings by 2025.
    DOE believes such collaborations are essential to the successful 
and speedy development of energy simulation software required to 
design, build and operate high-performance green buildings. DOE will 
continue these highly productive partnerships and seek to expand its 
partnerships going forward.
                   Answers to Post-Hearing Questions
Responses by Karen Ehrhardt-Martinez, Research Associate, American 
        Council for an Energy-Efficient Economy (ACEEE)

Questions submitted by Chairman Brian Baird

Q1.  In your testimony you note that DOE building technology 
initiatives would benefit from a more systemic and widespread 
incorporation of social and behavioral insights. Within DOE, where and 
how should this information be incorporated? Do you think social and 
behavioral science should be supported by various initiatives or do you 
think there needs to be a coordinated social science program within 
EERE?

A1. A more systematic and widespread incorporation of social and 
behavioral insights within the building technology initiatives at DOE 
holds the promise of both deeper and faster energy savings. This effort 
should consist of a coordinated social science program that integrates 
social and behavioral insights throughout all of DOE's initiatives and 
that creates a people-centered approach to energy savings.
    To date, DOE has been primarily focused on the development and 
dissemination of more energy-efficient technologies without giving 
sufficient attention to:

        <bullet>  the acceptability of those technologies,

        <bullet>  consumer choices and issues of technology adoption, 
        or

        <bullet>  the ways in which people maintain or use new 
        technologies and the energy implications of those choices, 
        habits and lifestyles.

    A people-centered approach would recognize that what people choose 
to do with any given technology or system of technologies is just as 
important as the characteristics of the technology itself in 
determining the amount of energy will be consumed or saved. As Internet 
guru, Clay Shirky stated ``A revolution doesn't happen when society 
adopts new tools, it happens when society adopts new behaviors.''
    The Social Science initiative would ideally be housed within the 
Energy Efficiency and Renewable Energy Offices and would require the 
employment of sufficient senior level social scientists so as to 
provide expertise and training to other DOE staff and staff at the 
National Labs as well as to help build DOE's internal capacity in this 
area.
                   Answers to Post-Hearing Questions
Responses by J. Michael McQuade, Senior Vice President, Science and 
        Technology, United Technologies Corporation

Questions submitted by Chairman Brian Baird

Q1.  You pointed out that metrics need to be developed to achieve 
better-performing buildings through systems integration. What role do 
you think the Federal Government should play in the development of 
metrics or tools to identify and quantify critical interactions between 
systems?

A1. As noted in my testimony, there is a vigorous role for government-
sponsored research into the methodology and tools needed to model, 
simulate and computationally control complex, integrated buildings. 
These tools, using leading edge and yet to be developed computer 
science, mathematics and physics-based modeling will allow us to 
understand how subsystems interact within a building and how buildings 
interact with their environment. These topics are major enablers to 
allow us to create the highly efficient buildings we discussed at the 
hearing.
    Once these new buildings exist or existing buildings are 
retrofitted with upgraded capability, we believe there is a necessary 
role government should play in the establishment and deployment of 
``whole building'' energy performance ratings and standards that 
incorporate these advancements. In addition, we believe these 
performance statistics should be publicly reported on a regular basis. 
Standards for energy-efficient components can be useful but standards 
for whole building energy performance are key to realizing energy-
efficient buildings. The analogy here is that while we recognize the 
role engines play in automobile efficiency, we measure and apply mile-
per-gallon standards to automobiles, not to their components, thus 
taking into account other technologies such as aerodynamic design, 
energy harvesting or adaptive engine control.

Q2.  In your testimony, you note the importance of computational 
research and development in the design, optimization, and control of 
energy use in buildings. Are the current activities in these areas at 
DOE and NIST sufficient? Is there any way they can be improved? And 
within the Department of Energy, could the buildings program in the 
Office of Energy Efficiency and Renewable Energy make better use of the 
significant computational capabilities stewarded by the Office of 
Science?

A2. We do believe that the current programs at NIST and DOE have been 
helpful but that a full-fledged program of basic building energy 
sciences and tools development is needed beyond what these agencies 
have been charged with in the past. In particular, existing programs do 
not focus on the underlying thermal physics and dynamics of complex, 
interconnected systems and they do not have, as a goal, the creation of 
tools that can be applied by the building industry through the entire 
cycle from design to build to continuous operation.
    We believe that a focused program should cover three areas. These 
areas are detailed in my written testimony. In summary they include:

        <bullet>  Systems Engineering and Design Methodologies, 
        including rigorous and scalable process and tool environment 
        for building project requirements management & system 
        architecture exploration

        <bullet>  Optimization and Control of Multi-scale Dynamics, 
        including analytical techniques for system decomposition, 
        analysis and uncertainty propagation in heterogeneous, 
        networked, multi-scale building systems and nonlinear dynamical 
        systems theory tools to exploit natural dynamics

        <bullet>  Robust Control and Decision Support Algorithms, 
        including control and commissioning systems and automated fault 
        detection and diagnostic (FDD) capabilities using building 
        automation systems

    This kind of systems-level research does not yet exist within EERE. 
A vigorous program managed either by EERE or the newly forming ARPA-E 
would certainly make use of the computational tools and capabilities 
that exist within the DOE's Office of Science and especially its high-
performance computing initiative.
    The United States needs a comprehensive energy strategy to ensure 
we deliver to future generations a secure and livable world. Energy 
efficiency, doing more with less, must be at the heart of such a 
strategy, and reduction in energy consumption in our buildings can and 
must be a priority element. I applaud the work of the Committee in 
focusing on this issue and thank you again for the chance to testify on 
how we might move a national agenda forward. Please feel free to 
contact me if I may be of future assistance on this important topic.


</pre></body></html>
